<html>
<title> - TREASURY, POSTAL SERVICE, AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
  TREASURY, POSTAL SERVICE, AND GENERAL GOVERNMENT APPROPRIATIONS FOR
                            FISCAL YEAR 2000

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION

                                ________

  SUBCOMMITTEE ON THE TREASURY, POSTAL SERVICE, AND GENERAL GOVERNMENT 
                             APPROPRIATIONS
                      JIM KOLBE, Arizona, Chairman
 FRANK R. WOLF, Virginia            STENY H. HOYER, Maryland
 MICHAEL P. FORBES, New York        CARRIE P. MEEK, Florida
 ANNE M. NORTHUP, Kentucky          DAVID E. PRICE, North Carolina
 JO ANN EMERSON, Missouri           LUCILLE ROYBAL-ALLARD, California
 JOHN E. SUNUNU, New Hampshire
 JOHN E. PETERSON, Pennsylvania     

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
      Michelle Mrdeza, Bob Schmidt, Jeff Ashford, and Tammy Hughes,
                            Staff Assistants
                                ________

                                 PART 4

                          INDEPENDENT AGENCIES
                                                                   Page
 Federal Election Commission......................................    1
 General Services Administration..................................  173
 Judicial Conference of the United States.........................  545
 National Archives and Records Administration.....................  585
 Office of Personnel Management...................................  738
 Committee for Purchase From People Who Are Blind or Severely 
Disabled.......................................................... 1097
 Federal Labor Relations Authority................................ 1119
 Merit Systems Protection Board................................... 1158
 Office of Government Ethics...................................... 1200
 Office of Inspector General, OPM................................. 1269
 Office of Special Counsel........................................ 1288
 United States Tax Court.......................................... 1309

                                ________

         Printed for the use of the Committee on Appropriations

                                --------

                     U.S. GOVERNMENT PRINTING OFFICE
 56-421                     WASHINGTON : 1999




                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                        DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California                   JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois              NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky                   MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                     JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia                   STENY H. HOYER, Maryland
 TOM DeLAY, Texas                          ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                        MARCY KAPTUR, Ohio
 RON PACKARD, California                   NANCY PELOSI, California
 SONNY CALLAHAN, Alabama                   PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York                  NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina         JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                     ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma           JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                      JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan                 ED PASTOR, Arizona
 DAN MILLER, Florida                       CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                      DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                    CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey       ROBERT E. ``BUD'' CRAMER, Jr., 
 ROGER F. WICKER, Mississippi                Alabama
 MICHAEL P. FORBES, New York               JAMES E. CLYBURN, South Carolina
 GEORGE R. NETHERCUTT, Jr.,                MAURICE D. HINCHEY, New York
Washington                                 LUCILLE ROYBAL-ALLARD, California
 RANDY ``DUKE'' CUNNINGHAM,                SAM FARR, California
California                                 JESSE L. JACKSON, Jr., Illinois
 TODD TIAHRT, Kansas                       CAROLYN C. KILPATRICK, Michigan
 ZACH WAMP, Tennessee                      ALLEN BOYD, Florida
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania     
                                    

                 James W. Dyer, Clerk and Staff Director

                                  (ii)


 
  TREASURY, POSTAL SERVICE, AND GENERAL GOVERNMENT APPROPRIATIONS FOR 
                            FISCAL YEAR 2000

                              ----------                              

                                            Tuesday, March 9, 1999.

                      FEDERAL ELECTION COMMISSION

                               WITNESSES

DARRYL R. WOLD, VICE CHAIRMAN
SCOTT E. THOMAS, CHAIRMAN
DANNY L. McDONALD, COMMISSIONER
LEE ANN ELLIOTT, COMMISSIONER
DAVID MASON, COMMISSIONER
KARL SANDSTROM, COMMISSIONER
JAMES PEHRKON, ACTING STAFF DIRECTOR
LAWRENCE NOBLE, GENERAL COUNSEL
CHRISTINA VANBRAKLE, CONGRESSIONAL LIAISON

                  Opening Statement of Chairman Kolbe

    Mr. Kolbe. The meeting of the Subcommittee on Treasury, 
Postal Service and General Government will come to order.
    This morning we have the Federal Election Commission before 
us. I am pleased to welcome Commissioner Wold, along with 
Chairman Thomas and Commissioner McDonald. Commissioner Wold, 
this is your first appearance before the subcommittee, though, 
as maybe others know, Darryl and I go back a long way to the 
time when we were at Stanford together during the first Reagan 
election in 1966.
    Mr. Wold. It was even the Goldwater campaign before that.
    Mr. Kolbe. It was even before that, that is correct; I had 
forgotten about that.
    Mr. Wold. I haven't forgotten.
    Mr. Kolbe. We are pleased to have you here with us today, 
and I look forward to working with you on the management and 
oversight of the FEC's budget and general operations.
    I believe that the current and the forthcoming years are 
going to present a tremendous opportunity for the FEC. We have 
new blood at the Commission, with three new commissioners 
having been confirmed on July 30th of last year.
    Just as I think your predecessors did a very good job of 
leading the FEC over the past 2 decades, I am confident that 
the three new ones, along with the other commissioners, have 
the qualifications we need to take the FEC into the next 
century. I am hopeful that the FEC will soon be able to see 
itself as an organization that is capable of rising to the very 
substantial challenges and the expectations that the public has 
about enforcing our campaign laws, rather than one that limps 
along without the energy or the resources it needs to 
accomplish its mission.
    In addition to the new level of energy that has been 
infused with the confirmation of three new commissioners, there 
has been the completion of a recent report by 
PricewaterhouseCoopers that gives both the FEC and, I think, 
Congress in its oversight function, a very comprehensible 
analysis of FEC operations, might I say, both its strengths and 
its weaknesses.
    I was not only pleased with the quality of that review, but 
also what it said, and that is that the FEC is a competently 
managed organization with a skilled and motivated staff, but it 
also noted that there are shortcomings. I commend you for the 
accomplishments that you and your staff have achieved. The PwC 
study set out a set of 21 different recommendations, most of 
which can be accomplished without any legislative action.
    I must say I am pleased to see that many of those 
recommendations endorsed the direction that this subcommittee 
has been encouraging the FEC to move over the years, both in 
terms of investments in information technology, as well as 
efforts to improve efficiency.
    Commissioner, we have had a chance to look over your budget 
submission and justifications. I am a bit disappointed that 
neither document provides any detail on your plans to implement 
some of these recommendations, though I understand you are 
prepared to share some of that information and that detail with 
us here today.
    If you leave this hearing today with only one thought, it 
would be this; I think that both time and opportunity are 
knocking at your door. The conclusions from the Price 
Waterhouse study are, very clear: FEC cannot continue doing 
business as usual. The price for that is inefficiency, requests 
for additional resources that simply aren't available, and an 
erosion, of public confidence in the process.
    FEC can and must do a better job, but changes are needed, 
and those are changes that only top management are going to be 
able to put in motion. Over the next several years, we intend 
to track your progress in implementing these changes.
    Before I call upon you for your opening statement, Mr. 
Commissioner Wold, let me turn to my distinguished ranking 
member, Steny Hoyer, and ask if he has some comments.

                 Opening Statement of Congressman Hoyer

    Mr. Hoyer. Thank you very much, Mr. Chairman. I appreciate 
this opportunity to welcome Mr. Wold for his first appearance 
before this subcommittee. I was not aware of his long 
relationship with the chairman, that probably has eased his 
angst somewhat as he appears before this committee, but----
    Mr. Kolbe. Maybe not.
    Mr. Hoyer. Well, if his experience has been like mine, it 
has been a positive one, so his angst has been eased.
    The chairman and I don't always agree, as you will find, 
but we always find and have great respect for one another and 
I, for the chairman's fairness.
    I want to welcome you also as the Chairman of the Finance 
Committee. My own perspective is that it will be very helpful 
to have an analysis which will perhaps have more credibility 
with the majority party, very frankly, in the Congress. The FEC 
has come under continuing attack, and unjustified, by what the 
audit report reflects.
    I am also very pleased to recognize the Chairman, Scott 
Thomas, and Mr. McDonald, and welcome him.
    Is this your first appearance before the committee, Mr. 
McDonald?
    Mr. McDonald. I am part of that old guard.
    Mr. Hoyer. Thank you, I gotcha. Mr. McDonald is one of our 
most experienced members and makes an outstanding contribution, 
as does Mr. Thomas as Chair. FEC has not been short on 
criticism, as we all know. You have been criticized for forcing 
your mandate too aggressively. You have been criticized for 
dumping cases that you don't have adequate resources to pursue.
    Last year we initiated a thorough audit and management 
review of the FEC, and I am pleased with the positive results. 
The overall rating reads like this, and I quote, ``The FEC is 
basically a competently managed organization with a skilled and 
motivated staff, although it has shortcomings.'' Auditors like 
lines--always have to add, like lawyers, I might say, being a 
lawyer, have to add that last phrase, ``although it has 
shortcomings.''
    ``Number one, that protects you against any possible 
finding that is inconsistent with your own findings and you 
point to that phrase, and it says, `Yes, well, we said that.' 
But the fact of the matter is, this is a very positive 
finding.''
    Mr. Chairman, I have had an opportunity to look through the 
audit report. I would not--I haven't read it verbatim, but I 
was taken with the percentage of filers who agree or disagree 
with these following, because I think it is critical to the 
perception of some that the FEC was not doing its job and was 
not, in effect, filer-friendly, if I can coin a phrase.
    FEC staff are courteous. How many people of those agree 
with that? 94 percent agreed with that. Between 3 and 4 percent 
didn't know. So, in effect, if you take the 94 percent is--94 
out of 96, 94 and 96 whatever percentage that might be. I 
think--I guess it is about 97, 98 percent agreed that they were 
courteous.
    FEC staff demonstrates a sincere interest in solving 
election law problems; 91 agreed with that out of 97, that is 
about 93 percent. Let me tell you if I had 93 percent of my 
constituents saying that I demonstrated sincere effort in 
solving their problems, there wouldn't be any point in anybody 
spending any money to run against me.
    FEC staff operate in an independent, nonpartisan manner. I 
think this is critically important because, frankly, the 
allegations--and I coin the word ``allegations,'' because that 
is what they were, accusations, that somehow, Mr. Wold, before 
you got on, this commission was acting in a partisan fashion, 
and the implication was that Democrats were favoring Democrats 
and Republicans were favoring Republicans and, therefore, you 
had stalemate, which is of course what The Washington Post said 
yesterday.
    I am not sure they are right or wrong, but we are going to 
have to look at that. But the FEC staffs operate in an 
independent partisan manner. Eighty-one percent, almost 82 
percent said that was accurate, 10 percent had no opinion, 
which meant that it was 80 out of 90 percent, which again is 
about I guess 86, 87 percent.
    FEC conducts business hours that are very convenient to me, 
85 percent. FEC is an institution that fairly applies 
compliance laws. And frankly, as someone who has had some 
dealings with the FEC on the downside--as I told you briefly, I 
have been cited by the FEC for a violation, and the FEC was 
right and I was wrong.
    FEC as an institution applies to the laws, 69 percent. Now 
there was 17 percent that had no opinion, so that was 69 out of 
83, again, very close to the 90 percentile. My point in 
reflecting those attitudes is that the FEC is filer-friendly 
from the perspective of filers.
    Now, people have to deal with the FEC. The auditor also 
gives FEC high marks it has some shortcomings which--don't we 
all? The auditor gives high remarks in accuracy of public 
records, in customer satisfaction, in nonpartisanship; and the 
auditor goes on to say, and I quote, ``Disclosure and 
compliance activities are executed without partisan bias.''
    And we had a substantial argument about that last year, 
frankly. The audit gave more high marks for FEC's ability to 
maintain confidentiality for increasing productivity in the 
workplace and for the much-criticized enforcement priority 
system of the General Counsel's office.
    I am not trying to say that FEC doesn't have its problems. 
There isn't one of you at that table that wouldn't say that we 
have problems and we have got to solve them. But after this 
extensive, in-depth audit, the overall findings are excellent 
and you are to be congratulated.
    The real problem with the FEC, in my opinion, is that it is 
charged with enforcing a set of campaign laws that have become 
in too many instances loopholes that you have to deal with and 
figure out.
    The Washington Post, as I said earlier, recently suggested 
that FEC's effectiveness as a law enforcement agency has been 
eroded by the confusing votes of its own commissioners. We will 
have to go into that and find out whether that is the case. I 
believe that a credible FEC is critical, however, to 
maintaining America's open and equitable election process, and 
that means funding its staffing and technology needs. While 
obtaining voluntary compliance is at the core statement of 
mission, you nevertheless need to maintain a credible 
compliance and enforcement program so that the election rules 
will not be ignored.
    You say in your statement that you are about to make that. 
That is why we have about 109 people--or 106 people, I forgot 
which the mix is--on compliance. In your statement you indicate 
that for the year 2000 you are seeking a budget of $38.5 
million and 357 FTEs, which represents a 4.5 percent increase 
in funding and a 2.7 percent increase in personnel. This is a 
very minimal increase, in my opinion, and I hope it will be 
adequate to meet your needs.
    Mr. Chairman, thank you for giving me this opportunity to 
make a relatively extended statement, but the FEC has been 
under very significant scrutiny and, I believe, does not have 
sufficient resources, as you know, to do the job the public 
expects of it and the Congress expects of it.
    Mr. Wold and I have had this conversation personally and 
he, understandably, having been there 6 months, has not been 
there long enough to really have a hard view of that; but I 
know he is going to testify that these resources are necessary 
at this point in time.
    Thank you, Mr. Chairman.
    Mr. Kolbe. Thank you very much, Mr. Hoyer.
    Mr. Wold, we will take your statement. As always the full 
statement can be placed in the record, and we hope you will 
summarize. I know that there will be a lot of questions from 
members here.
    Mr. Wold, the floor is yours.

                   Summary Statement of Chairman Wold

    Mr. Wold. Thank you, Mr. Chairman, and good morning. 
Chairman Kolbe, Congressman Hoyer and members of the committee, 
I am Darryl Wold, Vice Chairman, Federal Election Commission, 
and Chairman of our Finance Committee. It is my privilege to 
present, on behalf of the Commission, the agency's budget 
request for fiscal year 2000.
    Joining me at the table this morning, as you noted, Mr. 
Chairman, are our Chairman, Scott Thomas, and Commissioner 
Danny McDonald. Also with us this morning are our 
commissioners, Lee Ann Elliott, David Mason and Karl Sandstrom, 
along with some of our staff members.
    Mr. Hoyer. Can they identify themselves just for me? I know 
Ms. Elliott.
    Mr. Wold. Lee Ann Elliott, in the blue dress; Commissioner 
Karl Sandstrom and Commissioner David Mason.
    Mr. Hoyer. Thank you, Mr. Chairman.
    Mr. Wold. We are also joined by our staff members, 
including our acting Staff Director, James Pehrkon; our General 
Counsel, Lawrence Noble; and a lady I think you all know well, 
our Congressional Liaison, Christina VanBrakle, and various 
others of our staff members that have assisted in the 
preparation of our budget.
    As the chairman noted, we have submitted extensive written 
materials, our budget justification and my statement in 
writing. We do ask that those be placed on the record, and I 
will not--to your relief, I think--read that or attempt to go 
over it in detail. I would just hit some of the highlights and 
then add some comments, primarily in the area of the 
PricewaterhouseCoopers report which I think is predominantly 
the subject of inquiry and discussion by this committee.
    As you will note from our budget request for fiscal year 
2000, we are requesting a budget of $38,516,000 and an FTE 
level of 356.5. As Congressman Hoyer noted, this is a very 
modest increase over our previous year's budget for fiscal year 
1999, amounting to a net increase of $1,666,000, or a 4.5 
percent increase in our funding level. The FTE level is an 
increase of nine positions for a 2.7 percent increase in our 
FTE.
    Let me address the increase briefly. It is attributable, as 
I noted in my statement, in my written statement, to three 
factors. One is the inflationary increase in the ongoing costs 
of doing business at our present level of operation; $452,000 
of the increase is for ongoing programs of enhanced information 
technology, including preparing for electronic filings, and the 
balance of it is a request for nine additional FTE, which we 
have separated out as a separate cost item in my statement, 
primarily for additional FTE in the compliance area.
    The inflation increase, of course, we can't do much about, 
except try to work as efficiently and effectively as possible. 
But the cost of doing business does go up. Of the nine new FTE 
requested, though, let me address that in a little more detail, 
because that does increase our existing staff level.
    We have asked for this because we believe that these 
additional FTE would be very important to our compliance 
program. Three of the FTE would be in our Audit Division and 
six in our General Counsel's office. The three additional in 
the Audit Division are requested, in light of what we 
anticipate will be an increased number of--increased volume of 
work for presidential audits. With an open presidential 
campaign this coming year, we expect more certification 
requests from an increased number of candidates and, 
consequently, more audits after that.
    The additional staff will help us keep pace with our target 
of completing the presidential audits within 2 years after the 
general election. These additional staff in audit will also 
assist in compliance matters in conducting ``for cause'' audits 
and assisting the General Counsel's office in enforcement 
actions. The other six new FTE will be in the General Counsel's 
office, and we think that increase is justified by our 
experience with past increases in staffing in that office.
    Our FTE in the General Counsel's office moved from 99 in 
fiscal year 1998 to 105 in fiscal year 1999, to date, and at 
the same time as that increase in staffing levels took place, 
we have seen an increase in the average active case load being 
handled by that office from 93 in fiscal year 1998 to 106 in 
fiscal year 1999. So we do note that parallel, at least that 
statistical parallel, in increased staffing levels resulting in 
an increased case load being managed; and that flows naturally 
from the relationship between the number of attorneys on board 
in the Counsel's office to the number of cases being handled. 
We have an average active case load per attorney that varies 
somewhere between four and six cases. So naturally, if that 
average case load per attorney holds, and there will be more 
staff, we can handle more cases.
    We think this is important to deal with the ongoing problem 
of having to dismiss a significant number of cases because they 
are stale--because we haven't, and won't be able to get to them 
in a timely manner--sometimes not even before the statute of 
limitations has run. So every year we have had to dismiss a 
number of cases for staleness, and that has been a problem of 
concern to me, and I think, to the other commissioners--one 
that we need to deal with. The increase in staffing level will 
also help us keep pace with what we anticipate will be an 
increasing workload in the General Counsel's office.
    The amounts of money raised by candidates, by party 
committees and by other nonauthorized committees are 
increasing, the number of filings are increasing, and the 
number of enforcement actions that rise out of that increase in 
volume of business continues to bring us a heavy workload. In 
addition, we are finding that the enforcement cases that we are 
undertaking have a larger number of respondents, that is, 
individuals who have participated and potentially violated the 
law; so that makes the cases that we do handle increasingly 
complex, and consequently, they take more time and more staff 
to deal with.
    So, for those reasons, we think that the modest increase we 
are asking in FTE in our fiscal year 2000 budget is justified. 
If the committee has more questions about the numbers in our 
request, we would be glad to respond to those as we can, either 
here at the table or as a follow-up.
    But let me leave those numbers behind and go to the 
PricewaterhouseCoopers audit report, because that has been a 
major factor in the Commission's life during the past several 
months. As both Chairman Kolbe and Congressman Hoyer noted, the 
report was generally favorable. The Commission, has justifiably 
been pleased with the overall findings in the report, and we 
have said so repeatedly. It found that we were doing business 
in a nonpartisan manner, and fairly and equitably enforcing the 
law which is important to us. We are very pleased with that 
finding.
    If I can give a message to this committee, though, it is to 
tell you, and the Members of Congress that you represent, that 
the Commissioners are fully aware that the report identified a 
number of areas in which we should improve our operations. We 
are committed to making those changes. We are moving forward in 
those areas.
    In my written statement, I referred to several 
recommendations in the audit report that would have required 
legislative action, that we have endorsed. We have unanimously 
approved two of those recommendations in the report as 
recommendations from the Commission for legislative action, and 
already sent those to Congress.
    We will be following up with more in the future, but those 
two were of significant importance to us, and we felt would 
assist us in operating more efficiently and effectively. So we 
wanted to get those over at an early stage to indicate the 
level of importance which we attach to them.
    I referred briefly in my written statement to the fact that 
we are moving--the Commission itself is moving ahead in other 
areas in which the audit report said that we could act on our 
own--but I did not go into any detail on those. This morning, I 
want to take this opportunity to give you a few examples of 
areas in which we are taking those internal steps to 
demonstrate the level of our commitment, or that we are 
committed to moving on those on our own.
    These recommendations range from the mundane to the 
esoteric to the long-term, as may be demonstrated by these 
examples. For instance, in the disclosure area, the audit 
report recommendation number 6 is to establish an Internet 
connection in our Public Records office so that people visiting 
the Commission for the purpose of looking at the records of 
disclosures statements filed by the regulated community, could 
access those records through an Internet connection that they 
might be more familiar with and have more comfort in using, 
than going through the access that we otherwise provide.
    We have already developed this and implemented it as a 
pilot program to see how it works and how it might be changed 
before we add the additional computer terminals that are 
required to fully implement it. But we have moved forward on 
taking that small step, which is important to the public that 
visits us and accesses our disclosure records.
    In the area of enforcement concerning the General Counsel's 
office, the audit report recommendation, number 12 is to 
develop an offensive descriptive profile to determine future 
trends. Now, ``offensive descriptive profile'' is, to me, both 
a combination of consultant-speak and a technical term used 
internally in the Commission, and doesn't really say much. But 
what it means is that we should develop an analysis of the 
trends in violations of different provisions of the Federal 
Election Campaign Act that we enforce, so that we can determine 
what areas of enforcement need attention the most in the 
future. The Commission can stay ahead of the curve and keep the 
violations down by focusing our enforcement actions in those 
areas in which it is most needed to achieve an overall 
voluntary compliance with the law.
    Mr. Hoyer. Mr. Chairman, it sounds to me a little bit like 
a Customs concept. We may be carrying the bad stuff.
    Mr. Wold. It is a profile, yes, of that area. And in a 
sense that is what it is, but the idea of any enforcement 
program, I think, from a regulatory agency or a law enforcement 
agency, is not to achieve 100 percent enforcement, because that 
is virtually impossible. What we try to achieve is a sufficient 
level of enforcement so that it encourages voluntary compliance 
with the law. The audit report noted that we have achieved a 
very high degree of voluntary compliance. But we need to stay 
ahead of the violation curve, if we can, to continue to achieve 
that without trying to catch up after the fact.
    So we think that recommendation makes sense, and it is 
something that we should be doing, and we are moving ahead to 
do it. The finance committee, with the approval of the full 
commission, now has authorized a $50,000 expenditure out of the 
the $1.12 million that was earmarked for enforcement actions in 
our fiscal year 1999 budget, to engage a consultant to advise 
us on the structure and completion of that offensive profile--
to tell us where to go in other Federal agencies that have 
compliance programs, to see how they analyze their enforcement 
programs in terms of violations so we can develop that 
capability, that management tool for ourselves.
    We have also directed our General Counsel and our Staff 
Director to develop a statement of work for that consultant 
contract, and within the next few weeks we should have that 
ready to go out for a bid. We are moving ahead on that item.
    Recommendation number 14 in the audit report concerning the 
enforcement program was to complete our case management system. 
This is a system that has been under development for some 
period of time, longer frankly, than the Commission originally 
expected it would take. But it has expanded in its scope in the 
months which it was under development, and the stage we are at 
now is that within a few weeks, we will begin the training of 
the user staff in the General Counsel's office to use the 
program that now has been put in place.
    That training is expected to take 8 to 10 weeks to 
complete. They calculate that there are about 200 days needed 
all together to train the employees that will be users of that 
system. And then, after that is completed, it will be ready to 
be implemented, and we can begin determining how we can use it 
best as a management tool from the Commissioner's standpoint, 
for oversight over the General Counsel's office and within the 
General Counsel's office for better management of the work load 
in that office. That is another area in which we have moved 
ahead on a recommendation.
    Recommendation number 16 from the audit report was to 
select a Staff Director. As you know, we have had a vacancy in 
that position since our Staff Director, John Surina, left, 
which was at the end of July of last year just before I and the 
new commissioners came on board. The position has been vacant 
since that time and our Deputy Staff Director, James Pehrkon, 
has been our acting Director in the intervening months.
    The Commission deliberately postponed filling that position 
during the pendency of the PricewaterhouseCoopers audit and 
pending the receipt of the report so that we could have the 
benefit of any recommendations that it might make for major 
changes in the structure or operation of the agency.
    We also postponed the decision of hiring a new Staff 
Director in fairness to the applicants for that position, to 
let them know what, if any, changes they might be getting into 
in coming on board. We wanted them to see the audit report 
first.
    We did initially go out--we posted the opening and received 
applications, and we got, I believe it was 256 applications. We 
pared that down to about 13 to 15, that we believed were good 
candidates on paper; and as soon as the audit report was 
received in late January, we began scheduling interviews out of 
that pool and in the last few weeks the full Commission has 
interviewed the nine that we pared it down to. We are now 
checking the backgrounds and references and scheduling probably 
a second round of interviews after making another cut at the 
pool.
    So we are moving ahead with the appointment of a full-
time--of a permanent Staff Director which we expect to have 
completed within the next few weeks. One of the--a number of 
questions that we have directed to each of the applicants has 
been their ability to facilitate and implement change in the 
Commission, along the lines of the recommendations in the audit 
report and in other areas that we as Commissioners would feel 
would be appropriate. So we are trying to use that audit report 
to our benefit in selecting a new Staff Director.
    One other recommendation for the overall benefit of the 
Commission was number 19, to develop a performance appraisal 
process for the top staff below the Staff Director and General 
Counsel in the Commission. And we are moving ahead on that. We 
have had a vacancy in the position of Personnel Director for a 
number of months. We have now filled that position with a new 
individual to come on board in the next week or two. I believe 
an important aspect of that individual's background is 
experience in developing performance appraisal procedures for 
top management, and that will be one of the first tasks that 
will be given to our new Personnel Director, to implement that 
recommendation in the PwC audit report.
    These particular examples may not be substantively 
meaningful to the members of the committee, but overall I think 
they demonstrate that we have, the Commissioners have a 
commitment to pursuing those recommendations. We take them 
seriously and we are following through on that commitment. We 
will continue to do so.
    Overall, we hope that the audit report and our performance 
during the past year will give this committee and Congress the 
confidence in our agency--in our performance in carrying out 
our statutory mandates and in our stewardship of the public's 
money that we use to conduct our business so you will have the 
confidence to authorize our budget as we have submitted it and 
we request its adoption.
    Thank you very much for this opportunity.
    Mr. Kolbe. Thank you very much, Commissioner, for the 
statement.
    [The information follows:]

[The official Commmittee record contains additional material here].


                            staffing levels

    Mr. Kolbe. We will adhere to the 5-minute rule so we can 
get around to a second round of questions.
    Mr. Hoyer quoted the opening sentences of the summary of 
the PricewaterhouseCoopers report. I want to emphasize, as I 
also said, that I think it is a positive report; and I think 
that is to your credit. But we don't want to stand on our 
laurels either. If we did, that would simply be ignoring our 
oversight responsibility.
     I would note that the next two sentences of the report, 
although not critical of FEC, note the challenges that it faces 
in the future and says, ``the FEC's future success will require 
that it aggressively pursue both incremental and significant 
changes in organizational work process, technology and 
management practice. Failure to change will lessen the FEC's 
capacity to meet its basic Election Campaign Act requirements 
and require ever-increasing staff resources.''
    I think our function here today is to try, in a positive 
way, to work with you in an oversight fashion to find ways in 
which we can together make sure that you are meeting the 
mandates that we have and do it in as efficient a way as 
possible.
    I would like to begin by asking some questions about your 
staffing levels. Last year, you requested 360.5 FTE; and after 
a lot of back and forth with this subcommittee on both sides of 
the Capitol, we ended up at 347. Your justifications show your 
current onboard strength, and I don't know what date this was, 
as exactly 337 FTE. You might tell me what it is as of today 
and why aren't you able to get hired up to your fully 
authorized level?
    Mr. Wold. As I understand it, Mr. Chairman, that figure 
that you gave is our current FTE as of this point in time. 
[Clerk's note.--The FEC subsequently changed this to read: 
``that figure that you gave is our projection of the cumulative 
FTE for fiscal year 1999. As of this point in time, we have 
317. Our cummulative will be about 10 below what has been 
authorized.''] It is about 10 below what has been authorized. 
Your question--the aspect of your question that addresses why 
aren't we at our authorized level and won't be by the end of 
the year is an appropriate one. It is due to at least a couple 
of major factors.
    One is that the authorization of 347 for fiscal year 1999 
was a very substantial increase over the level authorized for 
fiscal year 1998. The 1998 authorized level was 313. We 
actually ended the year at only 302. So we started at a 
relatively low base to staff up to 347.
    On the other hand, the budget that authorized the 347 was 
approved relatively late in the budget process last year, so we 
have not had a long period of time in which to staff up. We 
have been making progress on that, but it is a relatively slow 
process. It is not something that can be done overnight, given 
the nature of the staff that we have to add.
    A good deal of our staff that we add are either 
professional auditors or professional attorneys.
    Mr. Kolbe. Let me interrupt right there. You make reference 
to the fact that you are seeking nine new positions, six of 
which are in the General Counsel's Office for compliance. What 
is the number you have now for the General Counsel's Office and 
how many do you have on board now before you seek six 
additional personnel?
    Mr. Wold. Current onboard strength in the General Counsel's 
Office is 106. And we expect to--in the staffing process, we 
expect an additional eight within the next 30 days, bringing us 
up to----
    Mr. Kolbe. Eight in the next 30 days?
    Mr. Wold. Yes. Over the past several months, openings have 
been posted, and an applicant pool has been obtained. The 
interviews have been conducted, and some offers are out, and 
the General Counsel's Office expects more offers to go out very 
shortly.
    Mr. Kolbe. So that would bring you to 114?
    Mr. Wold. Yes.
    Mr. Kolbe. Is that as far as you would go under the current 
347 FTE level?
    Mr. Wold. I believe the authorized level in the General 
Counsel's Office under the 347 FTE agencywide is 115. So it 
would bring us very close.
    Mr. Kolbe. Within one.
    Mr. Wold. It won't reach that 115 FTE for the year, because 
it has taken a while to get to that level. But the onboard 
level is approaching that, and it will certainly probably be 
there and maybe surpass it by the end of the fiscal year.

                           construction costs

    Mr. Kolbe. Okay. You also made note of the fact that and 
your budget justifications suggest that, with personnel costs 
savings the FEC has moved to undertake appropriate projects in 
infrastructure development. I might just say, as has been 
evident from the fact of staff discussions, as you know, this 
raises a real big, huge red flag with us. I mean, here we have 
got this big fight over how much you are going to get for 
personnel, and the first thing we see is that you are going to 
take the money from the personnel and use it for renovations. 
What is the amount of savings that you have estimated from not 
being fully staffed?
    Mr. Wold. I believe the overall figure has been $954,000.
    Mr. Kolbe. And what are the specific projects you would 
propose to initiate with those savings?
    Mr. Wold. Well, the reallocations that have been approved 
by the Commission include $558,550 in construction--this is 
taken from the table on page 8 of our justification--in 
construction and renovation work. On top of that, $100,000 for 
our voting system standards work in the Office of Election 
Administration. And it has been variously allocated to other 
line items. But the largest amount, the amount you started to 
question for construction renovation, is $558,000.
    Now, that was--let me add that that is not simply to spend 
it on redecorating our offices or renovating. This came as a 
lease renewal in the ordinary course of business where GSA has 
come in to renovate the space, which I understand occurs on a 
regular basis over the years. That is not what we are spending 
that money on.
    As part of that process, there is construction work that is 
necessary. They are adding a sprinkler system in many of the 
offices. We are in a very old building.
    Mr. Kolbe. My time is up, but if the members would indulge 
me to finish this line of questioning, let me ask you one final 
question.
    In your appropriation last year you had a $1.12 million 
earmark which we fenced with the requirement that you come up 
with a plan.
    Mr. Wold. Right.
    Mr. Kolbe. It was that plan which you submitted in January 
which caused some discussion with our staff, and you have 
withdrawn it. My question to you is, are these renovations that 
you are talking about the same things that you were talking 
about in that plan that you were going to do with the money 
that we had some raised some eyebrows with the staff about?
    Mr. Wold. Yes.
    Mr. Kolbe. So you are proposing just to take another source 
of funds.
    Mr. Wold. From a different----
    Mr. Kolbe [continuing]. From personnel savings----
    Mr. Wold. From savings.
    Mr. Kolbe [continuing]. And use it for renovations?
    Mr. Wold. Yes.
    Mr. Kolbe. And none of this was included in your 1999 
request.
    Mr. Wold. That is correct.
    Mr. Kolbe. I mean, you add personnel. Don't you assume you 
have to have some costs for new space and renovation and stuff?
    Mr. Wold. Well, this space isn't only to provide for the 
new staff. It is necessitated because of the renovations that 
were undertaken by GSA in connection with our lease renewal 
where we had to move to different space to provide for a lot of 
construction to go forward in our existing offices. Once we 
learned, which we were not aware of at the start when we 
submitted our budget request for fiscal year 1999, but once it 
became apparent in starting to plan for those renovations that 
were being undertaken by GSA--it became apparent that it was 
going to be too disruptive to the staff to enable them to work 
in their existing offices.
    GSA has provided us with other office space, referred to as 
swing space, temporary space, at 800 North Capitol. Some of 
that space has been provided to us free of cost to move staff 
into while their offices are being renovated and the 
construction is going on. Then they will move back into their 
offices and other staff will move over there.
    We are just moving staff around so, sequentially, we can do 
the construction throughout the building. But we have had to do 
some construction work at that new space to make it suitable. 
We have also had to pay rent for some of the extra space we 
need at that location.
    So that is why it came up. We weren't aware of it in our 
budget request, and we felt it an appropriate and necessary 
expenditure to make to allow us to continue to work while those 
renovations are going on.
    Mr. Kolbe. I might have some more questions. I definitely 
exceeded my time.

                           Construction Costs

    Mr. Hoyer. Mr. Wold, let me put the budget in context. Am I 
correct that all six of the commissioners support the budget as 
submitted?
    Mr. Wold. That is right.
    Mr. Hoyer. With respect to these construction costs, I was 
not going to ask this question, but, to follow up on the 
chairman's questions, you started to indicate that sprinklers 
were part of the renovation that is occurring, in other words, 
getting up to code, I presume that this is Commission space 
that was leased prior to the code requirements for sprinklers 
in Commission buildings?
    Mr. Wold. That is what I understand, Congressman, yes.
    Mr. Hoyer. Okay. We have done that in Longworth as well and 
some of the other buildings. And the commissioner believed that 
that money is necessary, and all six commissioners believe that 
money is necessary to be spent?
    Mr. Wold. Yes. That reallocation has been approved by the 
full Commission, yes, unanimously.
    Mr. Hoyer. Let me----
    Mr. Wold. I should add we have quizzed our staff in our 
Finance Committee meetings. We have quizzed them extensively, 
asking how did this happen, why are we doing it and why didn't 
we know about it--the same question the committee is asking.
    Mr. Hoyer. Mr. Wold, let me ask, there is nobody on this 
committee on this side of the aisle and I know on the other 
side of the aisle who wants to waste a single nickel of the 
taxpayer's dollars. But there are some people on our side of 
the aisle, very frankly, who think that raising the red flag of 
waste is good politically. Not the chairman, the chairman is 
very sincere in this. But, very frankly--and this is probably 
where you and I disagree--I was forgetting where the waste, 
fraud and abuse was, just like President Reagan.
    And I think there is waste, fraud and abuse in just about 
everything human beings do, fraud maybe not, but waste and 
abuse. And I give the example of my grandchild. She now doesn't 
do this but would use half a toilet paper roll sitting and, you 
know, that is waste. I don't think it is fraud. I may think it 
is abuse. And I tell her, you know, you don't need all of that, 
but the fact is that is waste. We need to get rid of it.
    But the substantive problems of how you do your business 
and the job you have, my point being, needs to be done. And I 
am assuming--and the reason I said at the beginning I am glad 
you are on board, I want you to look at this carefully, and if 
there is waste, fraud and abuse I want you to get rid of it, 
and my side of the aisle wants you to get rid of it. What we 
don't want to do is have your agency or any agency subjected to 
allegations and constant investigations that essentially come 
up dry.

                          PWC Recommendations

    Now, very frankly, the recommendations you read of the--how 
many are there, 20----
    Mr. Wold. Twenty-some odd.
    Mr. Hoyer [continuing]. 21 recommendations, and you read a 
number of them dealt with ways you can better do business. I 
can't imagine that any of our offices wouldn't be subject to 
similar analysis by ourselves. And the chairman is absolutely 
right. We have got to keep after that. The Vice President says 
we need to keep reinventing. The chairman says we need to keep 
looking at this in our oversight responsibility, and he is 
absolutely right.
    And, very frankly, pressure helps. Because if you get 
extrinsic pressure from this committee or an audit, it helps 
you look at it better in a nonpartisan, bipartisan management 
sense. So I am for that.
    But if this construction is needed, it is--from what I 
understand, it is for safety, as well as trying to make the 
efficiencies of the office work better. So we may have to 
reallocate some things.

                     Information Technology Design

    Give us an update on the FEC's implementations of the 
various technologies to design and to improve disclosure 
capabilities. Obviously, a significant portion, your two big 
solutions are disclosure and compliance. Disclosure is 
critical, because that allows citizens to know what money is 
being given to political candidates so they can make a 
judgment. Is that affecting their judgment?
    And Chairman Livingston, who has now left the Congress, was 
very focused on the fact and there is some discussion in the 
audit report that your technology was not up to speed 
therefore, you were requiring more people. That was the point 
that the chairman was making. And if your technology was up to 
speed, you wouldn't need the people because your productivity 
would be heightened.
    So give us an update on for instance, digital imaging in 
terms of disclosure, so you can get out to people automated 
case management and electronic filing, and you might want to 
mention those three in the course of your answer.
    Mr. Wold. Congressman, with your permission, I would turn 
to our Chairman, Commissioner Thomas, to answer this. He has 
longer experience with this than I do, and he can probably give 
a more thorough answer than I could.
    Mr. Hoyer. Thank you.
    Mr. Thomas. This is unfair. It is only because in our 
preparation meeting the other day I threw out the term 
relational database management system.
    Mr. Wold. I figured anybody that knows that term knows what 
they are talking about.
    Mr. Hoyer. Anybody who knows that term deserves to have 
this question referred to them.
    Mr. Thomas. I guess that is the way I have to look at it.
    Well, with regard to the concept of what we have done with 
information technology to improve the disclosure function, 
first let me just say I want to thank this committee for 
encouraging us to spend money and develop that area, because it 
has helped.
    You mentioned three very positive developments. Imaging 
technology has enabled us to use the Internet, which is 
accessible by millions of Americans to see the images of 
campaign finance reports that are filed by Members of the 
House, for example, and parties. So that is available for 
everybody to see within hours after those reports are filed at 
the FEC.
    The case management project was referred to by the 
chairman. We are well on our way to implementation. That should 
enable the staff and the Counsel's office to really track where 
the cases are, to help us identify relevant management 
information so that we can better plan how to use our 
enforcement resources. We should be a better, more efficient 
operation using that.

                           Electronic Filing

    Electronic filing, that probably, from the 
PricewaterhouseCoopers report, becomes the number one 
recommendation. And there are lots of efficiencies that get 
built into our process if we can have more electronic filing. 
The recommendation is that Congress helps us by giving us the 
authority to mandate electronic filing. We are not getting a 
lot of committees to file, but that would greatly improve the 
efficiency of the disclosure function as well.
    Mr. Hoyer. It is my understanding 263 out of 5,000 plus 
file electronically of the committees that you oversee?
    Mr. Thomas. That is right.
    Mr. Hoyer. Let me tell you something about the audit 
report. This is a little bit like the Grace report that said, 
if you didn't do cost of living for Social Security you would 
save money. Well, yeah, I agree with that. That may for--my 
friend for the Heritage Foundation somewhat not accurately 
exactly discloses it. But the bottom line was what the Grace 
Commission did, in fact, was not look at waste, fraud and abuse 
per se, they looked at policies that cost money that they 
thought were not good policies.
    That is a fair statement, but it is neither waste, fraud or 
abuse; and that was my point. I look at my friend from the 
Heritage Foundation feeling that he perhaps would take umbrage 
at my characterization.
    The electronic filing--my point is, it is nice to say in 
the audit report I agree with him. And you and I have discussed 
that. The three of us discussed it yesterday. I am going to ask 
you a question to follow up on this, but clearly that is going 
to help.
    But that is not mismanagement or failure to be efficient. 
It is, if we can get people to file electronically, and 
probably the only way we are going to do it, because only 263 
out of 5,000 plus do it now, is to require that they do.
    In that--my time is up. I will go to the second round.
    But let me ask you on that, do you believe there ought to 
be a threshold? Have you talked about the threshold? Because it 
seems to me Congress is going to have to talk about that. 
Because, as the three of us discussed in my office, there are 
some people who might want to run against me but who don't have 
a sophisticated system in place and may not be able to file 
electronically. And we do not want to preclude them from 
running against me. I may, but probably the general public 
won't.
    Mr. Thomas. We don't either.
    Mr. Hoyer. You don't. Fair.
    Have you talked about that? Electronic filing I think we 
ought to go to for those folks who can afford it and do it. 
What do you think the proper threshold would be?
    Mr. Wold. First, we have not discussed a particular level 
of what the threshold should be. I think all the Commissioners 
are aware there has to be some threshold below which we should 
not impose the requirement that new technology be adopted by 
the campaign committee. People want to run for office, they 
don't want to spend a lot of money taking away from what mail 
they can send out, to buy a computer and the software and learn 
how to run it if they are a relatively small committee. So 
there has to be some level there.
    I think if the Commission were given the discretion we 
would be looking at a variety of factors, maybe different types 
of committees between candidate committees, party committees 
and what we call nonauthorized committees--as we refer to PACs. 
They have different filing volumes and different information 
that they are reporting, different schedules and so on. So we 
would look at all of that.
    But if we wanted to take a rough cut at a level, the figure 
that you inquired about, Congressman, we were discussing this 
yesterday. What about $100,000 as a measure of annual receipts 
in an election year for a committee? We did pull off those 
figures. These are subject to revision. This is a quick take at 
it by the staff. Of the approximately 5,500 committees that 
filed year-end reports for 1998, those that exceeded reported 
contributions of $100,000 or more were 1,874.
    That means 3,677 were below that threshold. So less, far 
less, than half--about \1/3\--exceeded the $100,000 level, but 
that \1/3\ represents the biggest filers and by far the 
majority of the paperwork.
    Further refinement of those figures and more detailed 
analysis would take time to do. And we will certainly work with 
Congress to do that, if Congress wants to set the threshold 
itself.
    As I suggested yesterday it might--you know, the more 
discretion that the Congress feels is appropriate to give the 
Commission in that regard--I think we would carry out our role 
responsibly and not impose an unreasonably low threshold.
    And my recommendation would be that we consider working 
into it. We should start at a high level with the major filers 
and gradually work down over time to give people time. We have 
to be concerned about our ability to handle those filings. Our 
staff tells us we can accept electronic filings from everyone 
now. My natural skepticism says, well, on paper we can. There 
are going to be problems, though, we didn't anticipate.
    And we will need time to work out those problems, but we 
also need to look at it from the standpoint of the filers. It 
is going to take them a long time to figure out how they do 
this. The major filers are going to have to reconfigure their 
reporting--their recordkeeping reporting systems to conform to 
what we would require in electronic filings, and that is going 
to take them time.
    The smaller filers are going to have--who don't have 
professional staff, consultants and so on to do that--are going 
to have a lot of questions for us that we probably haven't 
anticipated, and that is going to be a volume of work for us to 
explain to them how you do this and how it all works.
    So it is going to take time, and it is going to be a big 
effort to implement it. But in the long run it has to be done. 
Because of that time factor, we have suggested that this be 
implemented or required initially for the 2002 election cycle, 
rather than try to put it in place for next year's election 
cycle, because that is a very short time frame to require 
people to move to electronic filing who aren't already prepared 
to do it.
    Mr. Hoyer. Thank you.
    Mr. Kolbe. Ms. Meek.

                           Electronic Filing

    Mrs. Meek. As to electonic filing, I did want to 
reemphasize the fact that there are many small committees that 
would not be able to meet the guidelines.
    To increase Electronic FEC filing, you might even think of 
some incentives.
    If you could think of some incentives, Committees might be 
more apt to try electronic filing.
    My committee has always wanted to file everything by paper 
and pencil, even though we do have computers. They would rather 
just do it by hand to be sure there are no errors. I am sure 
there would still be some of those kinds of committees around.
    My other question regarding electronic filing has to do 
with the claimed time savings. Have you considered the amount 
of time you are going to save by the new kinds of technology 
that you are going to use, or are these just propositions that 
you are testing? Do you have any real evidence as to how much 
time you are going to save?
    Mr. Wold. I haven't seen any figures attempting to quantify 
the savings in time. What we have looked at is the workload in 
the divisions in our agency that handle and process the filings 
and how much they are doing virtually by hand now. And in 
projecting the additional workload or the personnel that would 
be required to handle an increase in number of filings in the 
future, we have said, overall, we can't go on doing it the way 
we are. If we do have to go on that way, if we cannot mandate 
electronic filing and we cannot encourage enough voluntary 
electronic filing, then we will simply devote more staff to 
increasing workload.
    I am sorry I am not able to give you a quantification of 
the savings in time.
    Mr. Thomas, do you have anything to add to that?
    Mr. Thomas. Just very briefly, the ability to have 
electronic filing does allow us to get the data into our 
database roughly within 48 hours of the report being received. 
That is compared with our current system where we have to send 
the reports out for entry to a contractor, and to get 95 
percent of our data it takes us about 26 days. So you are 
moving it from 26 days to 48 hours if you get a comprehensive 
electronic filing system, at least for the electronic filers.
    Mrs. Meek. Thank you.

                    FY 1999 Earmark of $1.12 Million

    At page 6 of your budget justification, you say that, in 
effect, for the fiscal year 2000, the Commission has allocated 
to personnel costs the same amount expended in fiscal year 1999 
on one-time nonpersonnel costs. How much did you actually spend 
of the $1.12 million earmarked in the FEC's 1999 appropriations 
for some of the compliance initiatives, not involving staff 
hires, that do not involve personnel?
    Mr. Wold. Well, first, we have not spent any of it for 
personnel, because we are precluded from doing that by 
instructions from the Congress. We have allocated the full 
$1.12 million now, and we will be submitting that proposal to 
Congress for approval. This committee should have that during 
this coming week, because the Commission has approved the 
allocations.
    Mrs. Meek. So what will you do with the other $442,000?
    Mr. Wold. That is going for several programs. I can run 
over those briefly. Those include one I am glad to have the 
opportunity to mention because it is an innovative idea. It 
wasn't specifically mentioned in the PricewaterhouseCoopers 
report, but I think it will help us in our compliance and 
enforcement efforts. We plan to develop what we have referred 
to as an alternative dispute resolution program, through 
voluntary participation in this program by respondents who 
would be subject to enforcement action. We are trying to reach 
a conclusion or a resolution of that enforcement action without 
having to go through our time-consuming and somewhat cumbersome 
regular enforcement track and get an early resolution, a speedy 
resolution for relatively routine violations.
    We hope it will be seen as an advantage to the respondents 
who want to get the matter over with quickly and without having 
to spend a lot of time following us through our regular 
enforcement steps. But we are going to try that as a pilot 
project.
    That was initiated at the suggestion of one of our new 
commissioners, Karl Sandstrom, who has experience with 
enforcement and adjudicatory matters and how to get matters 
like this resolved. He pushed us into developing this program, 
and we are going to try to implement it on a pilot project 
basis to see how well it works and how much participation we 
get in it. And if we do get the participation we hope for that 
will help us deal with some of the cases that we have to 
dismiss now because they are stale. They are relatively low in 
the enforcement priority system, but they do get dismissed 
eventually because they get too stale. And we may be able even 
to enforce, bring in some that fall below the level in which we 
would ordinarily activate them. And that was $100,000 of that 
$1.12 million.
    Mrs. Meek. Excuse me, Chairman Wold, I know it is going to 
take more time than I anticipated for you to tell me what you 
did with that little bit of money and so I will submit my other 
questions for the record, Mr. Chairman. I would like to have my 
questions fully answered by Mr. Wold and the commission----
    Mr. Wold. I would be glad to do them.
    Mrs. Meek [continuing]. And so I'll submit them for the 
record. Thank you.
    Mr. Kolbe. Mr. Sununu.

                           electronic filing

    Mr. Sununu. Thank you, Mr. Chairman.
    Following up on a question that was posed about electronic 
filing, you said that 33 percent of all the committees met the 
$100,000--what percentage of total disbursements fit into that 
assessment?
    Mr. Wold. I can't tell you, Congressman. We haven't had the 
occasion to pull those numbers off. But we could provide them.
    Mr. Sununu. If you could, I would appreciate it, to have 
that information for the record.
    Mr. Wold. Certainly.
    [The information follows:]

                           Electronic Filing

    The approximately 1800 committees who filed Year End 1998 
reports and had disbursements of at least $100,000 during the 
1997-98 election cycle represented 95.6% of spending by all 
committees who filed Year End reports. (These figures do not 
include soft money for allocation, as reported to the FEC.) 
Their cycle spending totaled $1.74 billion out of a total of 
$1.82 billion spent by all committees.

                           construction costs

    Mr. Sununu. You talked about funding that has been set 
aside for renovations, and I apologize if I missed the exact 
figure. But exactly how much did that come to? Did you say 
approximately $900,000?
    Mr. Wold. No, the figure for the reallocation for 
construction or renovations was $558,550.
    Mr. Sununu. So $558,000, that was a reallocation during 
fiscal year 1999?
    Mr. Wold. That is right.
    Mr. Sununu. Okay.
    Mr. Wold. Proposed. The Commission has approved that and 
has submitted it to the subcommittee.
    Mr. Kolbe. It has not been approved by this subcommittee 
yet.
    Mr. Sununu. It would be a reprogramming for 1999 that has 
not been approved for $560,000. And are there additional funds 
in the proposed 2000 budget for renovations?
    Mr. Wold. No, that is a one-time cost that I noted in my 
statement, that in effect reduces the increases, offsets the 
increases so we have a lower net increase for 2000.
    Mr. Sununu. So you are being required or requested by GSA 
to provide $560,000 to renovate space that you also currently 
rent from GSA; is that correct?
    Mr. Wold. Well, as I understand it, part of the--at least 
part of the costs are in connection with new space that we are 
taking on a temporary basis while the renovation that GSA is 
providing is going on in our existing space.
    Mr. Sununu. So part of that $560,000 is covering rent of 
space that is required so that the renovations can be 
performed?
    Mr. Wold. I believe that is correct. At the swing space, 
yes.
    Mr. Sununu. But GSA is also increasing your rent--increased 
your rent from fiscal year 1999; is that correct?
    Mr. Wold. I believe that is correct, yes.
    Mr. Sununu. I am looking at page 8 of your budget 
justification and see an increase fiscal year 1999 to 2000 of 
$162,000.
    Mr. Wold. Yes, that is right.
    Mr. Sununu. Is that the total of the rent increase? It is 
roughly a 5 percent rent increase being imposed on you by GSA?
    Mr. Wold. If that is what it calculates out to, yes.
    Mr. Sununu. Could I ask you to also--while I am thinking of 
it--provide a summary for this subcommittee as to what that 
breaks out to in square footage? I guess I am concerned that 
you are paying for renovations, a substantial amount, compared 
to your yearly rent. It is roughly 15 percent of your total 
rent costs and renovation costs this year.
    You are also seeing an increase in your rent. And I mean I 
recognize that--that the subcommittee is always going to be 
concerned with how you are spending the funds that you are 
making a request for, but there are some line items that are 
similarly beyond your control. This increase of $162,000, I 
don't see previous years. But have there been any other rent 
increases in fiscal year 1997 or fiscal year 1998?
    Mr. Thomas. My recollection is that it is something that we 
experience at least every few years, not necessarily waiting 
for the term of a lease to expire. It is my understanding that 
rent is recalculated every year.
    Mr. Sununu. If I could ask you then to provide a summary of 
rent payments just in answer to my question for 1997, 1998 and 
1999. I know this is an issue of interest to members of various 
other subcommittees, as well, that we try to get our policies 
and practices regarding federally owned buildings and rent to 
be at least somewhat consistent with what private practices 
would be.
    [The information follows:]

[The official Commmittee record contains additional material here.]



                             public funding

    One final question regarding public funding of presidential 
campaigns. You talked about the shortfall of funds from the 
checkoff providing only 40 percent of the required funds in the 
year 2000 presidential campaign. Once those funds are 
exhausted, the funds provided for by the checkoff, do the 
requisite funds then come from general treasury revenues?
    Mr. Wold. What I am told is that they do not. But our 
projections are that the requisite funds would ultimately be 
available through the checkoff procedure by the end of that 
year, so what happens is candidates who don't get the full 
funding of their certification early in the campaign, simply 
take out loans using the promise of eventual funding from the 
Federal Government as security.
    Mr. Sununu. So the fund will owe them that money or 
whatever the matching amount is?
    Mr. Wold. That is right.
    Mr. Sununu. And it would come from future allocations to 
the checkoff?
    Mr. Wold. Right.
    Mr. Sununu. But that fund is not in deficit, as we speak? 
In other words, they don't have obligations that exceed the 
balance?
    Mr. Wold. Not at the present time, no. But projecting 
ahead, we will not be able to meet our current obligations 
until we----
    Mr. Sununu. I understand. You are forecasting that scenario 
for the year 2000, but we are not currently in that position 
today?
    Mr. Wold. No.
    Mr. Sununu. If the checkoff program were eliminated in its 
entirety and we were to eliminate this artifact of public 
financing for campaigns, or taxpayer financing for political 
campaigns, would that render the full-time equivalents in that 
program redundant?
    Mr. Wold. Well, unnecessary, yes. To the extent that we 
spend time reviewing requests and certifying the requests, yes, 
we wouldn't have to do that.
    Mr. Sununu. It is roughly 40 full-time equivalents; is that 
correct?
    Mr. Wold. I am not sure offhand.
    Mr. Sununu. Forty-two, administering the program for the 
public financing of presidential campaigns, page 9 of your 
testimony. I just want to make sure I am reading that figure 
correctly.
    Mr. Wold. I am not sure the figure, the actual figure can 
be pulled off of that chart. We could provide that.
    Mr. Sununu. ``During FY 2000, approximately 42 FTE from the 
Audit Division, Office of General Counsel, and Data Systems 
Development Division will be involved in certifying the 
eligibility of primary candidates for matching funds and 
processing monthly submissions for funding awards beginning 
January 1, 2000.''
    Mr. Wold. Yes, yes.
    [The information follows:]

                         Public Funding Program

    The 42 FTE administering the Public Funding program 
includes 25.5 FTE from the Audit Division (with most of the 
remaining positions in the Office of General Counsel). One 
permanent and 5 temporary FTE are assigned to the review of 
matching fund submissions with the remaining FTE assigned to 
audits of the committees. Should the public financing program 
be eliminated, the five temporary positions would be 
eliminated. The Commission would hope to reassign the remaining 
FTE to other high priority tasks, including audits of the 
authorized and unauthorized committees.
    As noted in response to a previous question, the FEC was 
able to authorize only 17 Title 2 audits from the pool of about 
8,000 reporting committees in the 1996 cycle. Therefore, the 
Commission would view this as an opportunity to reallocate 
resources to the Title 2 audit program. The other staff from 
other divisions could be well used for handling enforcement 
cases that would otherwise grow stale and be dismissed with no 
action.

    Mr. Sununu. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Kolbe. Mr. Price.

                              push polling

    Mr. Price. Mr. Wold, I want to follow up on this line of 
questioning with respect to the presidential campaign funding. 
But I would first like to ask you for a quick update on a 
matter Mr. Thomas brought up with us last year, what appeared 
at that time to be growing campaign abuse. This is the business 
of push-polling, a deceptive practice purporting to be a poll 
but actually designed to influence opinion.
    We had an exchange last year about the possible need for 
disclaimers on this kind of communication. I wonder if you have 
any indication of whether and to what extent this abuse 
continues, particularly how prevalent it was in the 1998 
elections; and are you tracking complaints that have to do with 
push-polling?
    Mr. Wold. I am not aware of any measure we have of the 
extent to which that practice has been engaged in. It would 
come to our attention if it were a somewhat unusual disclosure 
in a campaign filing that would describe the expenditure as for 
that purpose. But that would not ordinarily be part of our 
disclosure requirements, and then if complaints were filed, 
bringing that to our attention somehow, then we would know 
about it also.
    I am not aware of any complaints that have been filed 
raising that, failures to report that sort of thing or any 
other aspect of it. Chairman Thomas, are you?
    Mr. Thomas. Well, Congressman Price, the way it mostly 
comes to us is in the context of a complaint where someone has 
alleged there is not even a disclaimer in these push-polling 
operations.
    Mr. Price. Is there any implication that these practices 
were more or less prevalent in 1998?
    Mr. Thomas. I can't tell in terms of measuring more 
complaints or less complaints compared to the 1996 cycle. My 
gut sense is it went on. It went on a lot in the 1998 cycle.
    Mr. Price. That is my sense too, although I have the 
impression that it may have leveled off. I think the practice 
has been exposed in some parts of the country and perhaps 
candidates have become a bit more wary of it.
    On the other hand, there are many reports that it does 
continue. I hope the absence of any comment about this in this 
year's testimony doesn't indicate a waning of interest or 
concern on the Commission's part.
    I realize you are limited in your ability to initiate 
actions, but at the same time, this is an abuse that is serious 
and that has had an effect in elections around the country. I 
would think it should be monitored and that it should concern 
the Commission.
    Mr. Thomas. Just to follow up on it. We do have, as one of 
our legislative recommendations in recent years, some changes 
in the disclaimer rule, and that is where that would come up. 
And we will be debating our legislative recommendations next 
week. So we might be coming forward with something along those 
lines.
    Mr. Price. A possible disclaimer that would attach to these 
kinds of communications?
    Mr. Thomas. That is right.
    Mr. Price. All right.

                             public funding

    Let me ask--following up on Mr. Sununu's line of 
questioning--exactly where we are with these presidential 
matching funds? I must say it has never seemed to me that the 
presidential matching funds--the tax checkoff--was very 
effectively promoted.
    I am not sure that the American people have a very clear 
sense of how this tax checkoff works. And with all the reports 
of soft money kind of flowing over the barricades, I think 
actually a number of citizens would be surprised to find out 
that we have this kind of public funding of campaigns and that 
they can participate in this.
    Mr. Wold. They too can participate.
    Mr. Price. I don't quite understand your figures, and I 
wonder if you could elaborate further on what you were saying a 
moment ago.
    When Mr. Hoyer asked Commissioner Thomas about this last 
year, he indicated that the FEC would have about $25 million 
probably available in primary matching funds in January of 
2000, and payout obligations considerably beyond that which 
then would be made up as the funds came in July and August. 
That is what I understood you to just say now to Mr. Sununu.
    The question submitted for the record last year didn't 
totally clear this up, at least in my own mind, because then 
you indicated a matching fund balance of about $82 million as 
of February of 1998. Maybe the confusion here is the way the 
matching funds for the primary candidates are allocated as 
opposed to the funds that you perhaps set aside and then later 
grant for the national conventions and the general election 
candidates.
    What is the current balance in this matching fund and how 
do the totals in that fund relate to these further obligations 
with respect to the conventions and general election financing?
    Mr. Wold. Do we have those figures in here?
    Mr. Thomas. Maybe while the vice chairman is looking, I can 
just briefly note one of the changes since last year that we 
noted. There might be a slightly higher drawdown on the public 
fund as a general matter and the receipts coming in were down 
by about $3 million per year from what we estimated last year.
    So the projection now is that this shortfall might go, not 
just until July 2000 for the matching fund recipients, but it 
might actually carry through all of calendar 2000; and it might 
actually carry over a little bit into calendar year 2001 before 
these campaigns are able to get back the full amount of 
presidential matching money that they are entitled to.
    So those bridge loans will have to be made to stretch all 
the way into the year 2001 if candidates want to participate in 
the matching fund program. So that is a slight change from what 
we said last year.
    Mr. Price. How does that relate to the funding of the 
national conventions and the general election funding?
    Mr. Thomas. Well, that doesn't change. We still have that 
basic provision in the Treasury Department rules that requires 
that money for the general election payout--which is probably 
the biggest chunk of money under the public funding rules--be 
set aside and saved for that. In terms of the nominating 
conventions, they too are a higher priority than the primary 
matching funds.
    Mr. Price. So those funds are fenced off, and the shortfall 
we are talking about only applies to the matching funds for the 
primary candidates?
    Mr. Wold. That is right.
    Mr. Price. And the current balance available for that 
purpose is what?
    Mr. Wold. The current balance as of December 31, 1998, was 
$133.2 million.
    Mr. Price. How much then would apply to the primary 
program?
    Mr. Wold. Well, the primary program is the one that has the 
least certainty in calculation, because that depends upon the 
number of candidates and how many qualify and how long they 
stay in the race and so on.
    Mr. Price. And which ones may opt to finance the campaign 
out of their own personal wealth or not taking match funds.
    Mr. Wold. That is right, or raise funds outside of the 
program. So we kind of started backwards. We need to set aside 
the money for the general; that can be more accurately 
projected because that is a grant. We have projected the amount 
for the general election set-aside of $147.2 million; 
convention set-aside of about $29 million; and a projected 
demand for the primary that--let's see, do we have that? Could 
be----
    Mr. Kolbe. You can submit it for the record if you don't.
    Mr. Wold. It could range from $37 to $58 million.
    Mr. Price. All right. If there is some elaboration of that, 
we would appreciate your submitting it for the record.
    [The information follows:]

                         Public Funding Program

    Attachment 2 at the end of these questions, is a copy of a 
memorandum to the Commission from the Acting Staff Director 
that provides a current status report on the fund.

    Mr. Price. And let me also say, just in closing, that you 
attribute this shortfall to the failure to index the checkoff 
amounts; is that not correct?
    Mr. Wold. That is one factor that might have an effect if 
people would in fact then take advantage of the full checkoff 
available.

                             public funding

    Mr. Price. And I do think the failure to promote the 
opportunity bears some responsibility for that, and I know that 
is not a responsibility that is yours alone. But I would be 
receptive to ideas about how we might publicize the 
availability of this program and the ability of citizens to 
contribute to campaign reform in this very personal way. Thank 
you.
    Mr. Wold. Thank you.
    Mr. Kolbe. Thank you very much, Mr. Price.
    I am going to ask some questions. I will ask them quickly. 
Hopefully, we can get short answers, and I can get mine all in 
in 5 minutes here.

                             y2k compliance

    What is the status of your Y2K efforts? Have all of your 
systems been validated?
    Mr. Wold. As I understand it, not all have been yet. Our 
staff tells us that we are on track for compliance. We will be 
testing compliance in March, and by midyear we will be--we 
expect to be fully compliant. We will be testing compliance 
this month.
    Mr. Kolbe. Okay. So you expect to have them all validated 
by midyear and be ready?
    Mr. Wold. That is my understanding, yes.

                 pwc on redesign of business processes

    Mr. Kolbe. You have got $4.8 million for various ADP 
initiatives, and that is consistent with your 5-year plan. The 
last time you revised a plan was in February of 1997. One of 
the Price Waterhouse recommendations in regard to your 
automation efforts is that you coordinate and redesign the 
business processes based on new computer technologies. How you 
plan to accommodate changes in your business process with your 
current ADP plan?
    Mr. Wold. That is one of the recommendations that we have 
not acted on yet.
    Mr. Kolbe. Do you not agree with it?
    Mr. Wold. No, we do agree with it. I think there is a 
strong need for it, because we need to transition from a very 
paper heavy office environment to a paperless office.
    One thing I have been impressed with, and not completely 
favorably, has been the tremendous flow of paper across my desk 
and the number of filing cabinets that it takes to keep all of 
those papers in. With today's technology, what is available, we 
shouldn't have to be doing that. This should all be available 
through the computers and the workstations we have in our 
offices, and we should be able to manage the paperwork that 
way. But I am told we need to make changes in our technology in 
the agency to do that. We are moving toward it, but it hasn't 
been accomplished yet.

                  pwc on administrative fine schedule

    Mr. Kolbe. Another recommendation contained in the Price 
Waterhouse report is to establish an administrative fine 
schedule subject to reasonable appeals process for the 2000 
election cycle. That may be impractical for the 2000, but your 
response to this recommendation is noted with interest.
    I know you have a letter to us regarding at least three 
recommendations for legislative action. What about following 
that one up with a request for legislative action?
    Mr. Wold. That has been one of our recommendations in past 
years, and that is still under discussion for recommendation 
this year. We have been discussing it in the Commission, to try 
to flesh out some of the details of it, including whether it 
would be a fine schedule or simply a change in procedures to 
permit us to impose penalties for relatively routine violations 
through administrative action, rather than have to go through 
our time-consuming and somewhat cumbersome enforcement track.
    Mr. Kolbe. Do you have any idea how many fines might fall 
under this category if you use this kind of administrative 
process?
    Mr. Wold. We don't. I can't give you any figures on that 
because it depends in large part on the category of violations 
that we include in it. We are contemplating at least disclosure 
violations, failure to report on time, deficiencies, defects in 
the information that is reported certainly, rather than the 
more serious violations of excessive contributions, laundered 
contributions, improper sources and so on.
    Mr. Kolbe. Let me just say, if the agency needs somebody 
here to carry the water on that as a legislative 
recommendation, please come and talk to me. I would be happy to 
talk to you about that, as well as the other ones that you have 
here. I would be happy to work with you and maybe Mr. Hoyer, 
doing it on a bipartisan basis, to maybe prod your authorizing 
committee to do something along those lines.
    Last question, a lot of mine have already been answered. I 
will submit a couple for the record.

              pwc on increased productivity and compliance

    Mr. Kolbe. The last question I have here is another one of 
the Price Waterhouse recommendations that fiscal year 2000 
appropriations should be conditioned on FEC's continued 
progress in increasing productivity and compliance. Your 
testimony doesn't really talk about any kind of initiatives in 
the area of increasing productivity within the Office of 
General Counsel, rather, FEC asks once again for more staff.
    This has been an ongoing source of problem within this 
subcommittee and certainly with one of the previous members of 
the Appropriations Committee. As you know, one of the specific 
recommendations to improve the Office of General Counsel's 
efficiency was that you convene a working group to look at ways 
to reduce the number of legal reviews that are imbedded in your 
enforcement process. The Price Waterhouse report found that at 
every step in the enforcement process there were repetitive 
reviews, supervisory concurrence and approvals required.
    Do you agree with this recommendation? Do you intend to do 
anything about it?
    Mr. Wold. We do agree with it.
    Sir, I can't put my hands on the details of that. That was 
one aspect of the report that did concern me personally. I was 
surprised in looking at the charts that were included in the 
appendix of the number of reviews that were required. Those 
charts were very helpful to me and I think the other 
commissioners in describing the details of the processes that 
are followed. And I think they certainly deserve some studying 
to see if all of this is really necessary and what we are 
achieving by it.
    Our Counsel's office points out that one other important 
finding of the report was that we have a very high accuracy 
rate overall at the staff level in the Commission, that 
sometimes our reviews appear to be redundant, but they are made 
for the purposes of achieving a high degree of accuracy 
internally. That applies certainly to our Audit Division and, 
to an extent, to our Counsel's office, also.
    But at some point it becomes too time-consuming and is not 
achieving any substantial new purpose. So that is something 
that is of concern to me personally, and we will be looking at 
it.
    Mr. Kolbe. I will watch that with interest to see what kind 
of recommendations you have for implementation.
    Mr. Hoyer.

                  pwc on administrative fine schedule

    Mr. Hoyer. Thank you, Mr. Chairman. Let me join you in 
saying that I think the FINE proposal is one that we ought to 
adopt for those nonsort of purposeful evasions of the law. 
Obviously, if you have some sort of the mens rea, criminal 
intent or something, that ought not to fall in that category. 
But things that are procedural, ministerial mistakes, it seems 
we ought to have a fine process, and candidates ought to know 
what the fine is.
    The only involvement I had was with what I thought was one 
of those kinds of violations in a negotiated settlement. Way 
too high, I might observe. But, nevertheless, having said that, 
you know, we had no feel for, okay, if you do this, what is the 
fine you pay? If you go 10 miles over the speed limit, you pay 
50; if you go 20 miles over, you pay 150, whatever; or 
something like that.
    Mr. Chairman, I would be glad to work with you on that and 
work with the Commission on that as well.

                        CLINTON AND DOLE AUDITS

    Bipartisan paralysis, you read The Washington Post 
editorial, 
3-3 vote cost us $25 million in recompense from the Dole and 
Clinton campaigns. Could you comment on that?
    Mr. Wold. I don't think I saw that editorial yesterday. But 
on that subject, yes. I think that is referring to the----
    Mr. Hoyer. Was it Friday? It wasn't yesterday. I read it 
yesterday. It goes to show you how introverted I am.
    Mr. Wold. If it is referring to the repayment 
determinations that we made actually several weeks ago that 
there would be relatively little in repayment determination--
repayments that would have to be made compared to what the 
staff report originally said might be determined----
    Mr. Hoyer. What was the staff recommendation?
    Mr. Wold. I don't remember the exact figure. Do you, 
Chairman Thomas or Mr. McDonald?
    Mr. Thomas. Well, Congressman, you mentioned a $25 million 
figure. I think that was the staff's recommendation to the 
Commission overall in terms of repayment obligations. About $18 
million for the Dole campaign. I guess almost $7 million for 
the Clinton campaign.
    Mr. Hoyer. It was $18 million recommended by staff to be 
recompensed from Mr. Dole's campaign, $7 million from Mr. 
Clinton's campaign. And there was, as I understand, a 3-3 vote 
not to seek or not to adopt that staff recommendation; is that 
correct?
    Mr. Wold. I don't believe that was a 3-3 deadlock. I think 
we voted by a majority of the Commission to not--Commissioner 
McDonald suggested it may have been unanimous to not impose----
    Mr. McDonald. On those particular violations.
    Mr. Wold. Yes, for those violations, the biggest items in 
there. And that was for a variety of different reasons, 
possibly between different commissioners, but it involved 
different interpretations of what the law actually permitted us 
to do, whether we could--and whether the staff recommendation 
had followed our regulations in allocating those expenditures 
between the general election and the primary election campaigns 
of the candidates. There are several steps in getting to where 
we ended up.
    Mr. Hoyer. Okay. I will look at that a little more closely 
to make sure my facts are correct. Because if it was a 
unanimous vote, I had different information on that.

                               3-3 votes

    But, having said that, can you comment--not today, but 
sometime in the future--particularly for the new members, I 
would like them to comment on the Post premise that--and other 
premises that, because you have this 3-3, you really have a 
toothless tiger that can't do anything when it really gets 
tough because the parties will sort of block up, lock up and 
confirm one other and no resolution will be forthcoming.
    You don't need to comment on that, you are new, but I would 
like us all to look at this to see whether this mechanism can 
work. My view is it can work if we have got six honest people 
who want to do a job to enforce the law. Then I don't see no 
reason for it not to work.
    [The information follows:]


[The official Commmittee record contains additional material here.]


                               pwc audit

    In any event, the $750,000 we earmarked for fiscal year 
appropriation for the audit, was that all spent? Do you know?
    Mr. Wold. We were told it was not all spent, but I don't 
have the final figures.
    Mr. Hoyer. What was spent? Do you know?
    Mr. Wold. The last information we had, which comes through 
GAO, I believe, was that there is about $65,000 that was not 
spent.
    Mr. Hoyer. Where is the balance of that money, the $65,000? 
Is that reverted to you?
    Mr. Wold. Not that we are aware of, no. We believe that is 
all in GAO.
    Mr. Hoyer. In any event, you don't have the use of the 
balance that was not used on the audit?
    Mr. Wold. We don't yet. Chairman Thomas tells me that is 
being negotiated, and we may get that back. We don't know yet.
    Mr. Hoyer. Okay. Last question, and I am going to submit 
some for the record.

                          third party advocacy

    Mr. Hoyer. Mr. Price mentioned the push-polling. In my 
opinion, that is an opinion, but the larger problem from my 
perspective, is the third-party advocacy groups clearly 
advocating the election of one over another in a contested 
election. But hiding behind the ruse of what they are really 
doing is advocating, call Steny Hoyer, he wants to raise your 
taxes, please tell him not to, when I am confronting an 
opponent who says we have got to cut taxes and Hoyer wants to 
raise taxes.
    That kind of advocacy--Mr. Bordonardo and Ms. Capps both 
complained about it early in their campaign, about such 
advocacy advertising. And, of course, it is not subject to 
disclosure as the hard money, and it is also soft money.
    Does the Commission have views on that? I know you do, but 
could you discuss that for the record?
    Mr. Wold. I think each of the Commissioners has their own 
view on that. We have not taken a position as a Commission, a 
policy position on that, no.
    Mr. Hoyer. Well, let me say this, from my perspective, 
millions and millions and millions of dollars are being 
laundered for partisan purposes through these third-party 
advocacy groups. It is, in my opinion, the single biggest 
loophole and ruse in our elections today. And if the FEC 
doesn't come to grips with it and the Congress doesn't come to 
grips with it and my committee, the House--and the other 
committee I serve on doesn't come to grips with it, we are 
going to have all of this heat about campaign finance reform.
    And while the money is going to just flow into these so-
called independent third-party advocacy groups that are telling 
people call up, and the reason I mention Bordonardo and Capps, 
it didn't matter whether you were on the right or the left, 
Republican or Democrat, both of their positions were being 
characterized in a way neither one of them wanted them to be 
characterized. So the campaign from Mr. Bordonardo's and Ms. 
Capps' standpoint was being, in effect, denigrated because 
their messages were being overcome or undermined by these 
third-party advocacy ads.
    So I would hope the Commission would look at this. We are 
not going to get a handle on campaign finance spending unless 
we get a handle on this funnel that is impacting on campaigns, 
is intended to impact on the election or the defeat of 
candidates but is now, under present law, insulated from full 
disclosure and reporting.
    Thank you, Mr. Chairman.

                               pwc audit

    Mr. Kolbe. Thank you.
    Before we close I just want to say one thing on the last 
point you made about your audit. Regarding the money that was 
in your budget and paid over to GAO to negotiate with 
PricewaterhouseCoopers and cover the cost of the audit. Are 
there any savings that revert to the general revenue fund? That 
money does not come back to the FEC. Let's make that very, very 
clear.
    Mr. Thomas. Mr. Chairman, I can explain that source of 
confusion. Only this morning I was speaking with a 
representative of PricewaterhouseCoopers and the advice he gave 
me was that his understanding was that the folks at GAO were 
going to be contacting your committee to find out what could be 
done or should be done with that money. So if you convey that 
clearly to them.
    Mr. Kolbe. The taxpayers will be happy to save the money 
with the lower cost of that.
    I want to thank you all very much for your appearance this 
morning and for the questions and maybe some others for the 
record. Thank you very much.
    Mr. Wold. Thank you.
    Mr. Kolbe. This subcommittee stands adjourned.
    [The information follows:]


[The official Commmittee record contains additional material here.]


                                         Wednesday, March 17, 1999.

                  U.S. GENERAL SERVICES ADMINISTRATION

                               WITNESSES

DAVID J. BARRAM, ADMINISTRATOR
ROBERT A. PECK, COMMISSIONER, PUBLIC BUILDINGS SERVICE
WILLIAM B. EARLY, JR., DIRECTOR OF BUDGET AND DEPUTY CHIEF FINANCIAL 
    OFFICER
DONA BENNETT, DEPUTY COMMISSIONER, FEDERAL SUPPLY SERVICE

                              Introduction

    Mr. Kolbe.  Good morning. The Subcommittee on Treasury, 
Postal Service, and General Government will come to order. This 
morning, we welcome Mr. David Barram, the Administrator of the 
General Services Administration and his colleagues at the 
table.
    For this coming fiscal year, GSA is requesting an 
appropriation from our Subcommittee of $158 million. In 
addition, GSA is requesting $5.3 billion in new obligational 
authority from the Federal Buildings Fund. However, as Mr. 
Barram points out in his statement, the overall program for GSA 
is $14.5 billion.
    This request includes $102 million for new construction 
projects. One of the new construction projects is the 
consolidation of the Food and Drug Administration in Montgomery 
County, Maryland. This is a $500 million project that we are 
going to be watching very closely. Once again, however, we 
notice that there are no funds requested in the budget for new 
courthouse construction projects. The lack of Administration 
support for needed courthouse construction continues to be a 
major concern for this Subcommittee. Frankly, I find it very 
puzzling, since we have a commitment to law enforcement, that 
we are not looking at this as a total continuum of the law 
enforcement picture.
    Following this hearing, we will be hearing from the 
Judicial Conference of the United States regarding the need for 
new courthouses. We will be able to follow up and hear from the 
Judiciary itself on this issue.
    We are pleased also to notice that GSA has awarded two new 
contracts for long distance telephone service worth about $5 
billion over the next several years. We look forward to hearing 
from the Administrator about those contracts.
    Mr. Barram, of course, as always your complete statement 
will be placed in the record. If you want you may summarize it 
in your opening statement. Before we do that, let me yield to 
my Ranking Member, Mr. Hoyer for any remarks that he might want 
to make.
    Mr. Hoyer.  Thank you very much, Mr. Chairman.
    It is always a privilege to be with you and to hear from 
Mr. Barram, the Administrator. Before this Subcommittee today, 
Robert Peck, Commissioner, Public Buildings Service our good 
friend Bill Early, and other officials of the General Services 
Administration, including the Deputy Director.
    I am pleased to note that Congressman Ratchford is with us 
as well. He does such an excellent job in bringing GSA's 
message to the Congress.
    I am pleased to note that there have been dynamic changes 
in GSA. Mr. Barram, you have totally reoriented the agency to 
customer service, while maintaining outstanding policy 
leadership throughout the Federal Government.
    I congratulate you and all with whom you work for making 
GSA an extremely competitive and cost effective source for all 
Federal customers. However, I have some serious concerns 
related to the Public Buildings Service, which I expect you 
will address.
    First, as all of us have been reading the safety of Federal 
employees depends on the security of Federal buildings. The 
Washington Post last week reported that there are potential 
security problems with the Ronald Reagan Building. I would say 
as an aside, my view is the same can be said of almost every 
public and private building in any urban area in America.
    However, I believe we have learned an important lesson in 
Oklahoma City, and that is Federal workers are targets of 
terrorist actions. Ensuring that Federal buildings are a secure 
environment for Federal workers must be, and I know is, a major 
priority of GSA.
    My second concern, and the Chairman has mentioned this, and 
I want to reiterate, is that for the third year in a row, there 
is no funding for courthouse construction in the budget 
request, even though we know that new and renovated courthouses 
are required to meet the growing judicial case load of Federal 
crimes.
    We are very proud of the fact in the Clinton Administration 
and in the Congress that our efforts together have brought the 
crime rate down. One reason is because we have arrested 
criminals and we are keeping them in jail.
    The fact of the matter is, if we cannot process them 
properly in facilities that themselves are secure and conducive 
to the efficient and effective administration of justice, then 
we will not be as successful as we want to be.
    Mr. Barram, I look forward to hearing from you and others 
on how GSA will address these concerns and others.
    Thank you very much, Mr. Chairman, for this opportunity to 
make this opening statement.
    Mr. Kolbe.  Thank you. Mr. Barram, do you want to proceed 
with your statement?

                    Summary Statement of Mr. Barram

    Mr. Barram.  Yes. Good morning, Mr. Chairman and members of 
the Subcommittee. Happy St. Patrick's Day.
    You have my statement, so I will not repeat it. I would 
like to make a few points and I hope lay a foundation for your 
questions. I have, as Mr. Hoyer mentioned, the pleasure of 
having a lot of the senior leaders of GSA with us today.
    Thank you for introducing them all. Bob Peck who is sitting 
to my right will answer any questions you may have about the 
Public Buildings Service. I am going to save, if I could, those 
courthouse questions until after I make my statement.
    Bill Early, Budget Director extraordinaire is sitting to my 
left.
    We are celebrating our 50th Anniversary. In fact, our name 
tent cards show the new GSA symbol. We have changed a lot in 
those 50 years.
    We have really changed a lot in the last few years. Even 
more significant, we have to keep changing. Being constantly in 
a change mode is difficult, but we are working at it.
    Our business is growing in volume and in value. Our people 
are growing in their capabilities, but not in volume. In fact, 
we have reduced the size of our work force by about 30 percent 
in the last 6 years.
    Our $14.5 billion budget program that you mentioned, Mr. 
Chairman, is structured so that virtually all of that money 
ends up in the private sector.
    We get great value for our customers, the Federal agencies, 
in regard to airline fares, overnight delivery services, 
vehicle leasing, telecommunications service, and high quality 
work places.
    I believe our customers really like us these days because 
we do our job. By doing that, we help them do their jobs. We 
are championing new ideas and using them ourselves.
    Internet Access. By June 14, 1996, Flag Day, we gave every 
GSA employee access to the Internet; the most important tool 
you can use in communication and research today.
    Innovative work spaces. We are championing flexible, 
mobile, productive work spaces. We are creating them to help 
ourselves and our customers be more productive.
    Seat Management. This will revolutionize the acquisition of 
information technology. We have it available for our customers 
and we are putting it in place for ourselves.
    Advanced Telecommunications. We try to use these high 
productivity tools that we sell.
    We manage over 330 million square feet of space better than 
ever because we are measuring our performance better than ever; 
tenant satisfaction scores over 80 percent. Our operating costs 
are 11 percent below the private sector.
    Our vacancy rates are below the national private sector 
average. We are cost effective and customer oriented. We are 
just as committed to a broader set of goals to make our work 
force more productive, our cities more vital, and our 
environment more sustainable.
    Family friendly work places, for example. We just added 
four more child care centers. We now have 112 Federal child 
care facilities, with over 7,600 children around the country.
    Our Good Neighbor Policy. We are now in our third full year 
of helping cities revitalize parts of downtowns by emphasizing 
Executive Orders that require agencies to locate downtown and 
in historical buildings. We are doing something overt and 
active to help be a part of the downtowns.
    Planet GSA is an umbrella concept under which GSA people 
are, among other things, recycling, pioneering new energy 
savings ideas, advocating and using alternative fuel vehicles, 
and learning to manage construction projects in a green way.
    The Budget. You mentioned our planned $14.5 billion budget 
program. We are asking the Subcommittee to provide $158.3 
million in new appropriations. You have the summary on page 9 
of my statement.
    As you know and as you have said, our operating 
appropriations are only about one percent of the total proposed 
budget, yet they are vital to the program. They support our 
Government-wide policy function, the Office of Inspector 
General, and other direct-funded programs.
    The $158.3 million requested is $10 million below fiscal 
year 1999 levels. The net decrease reflects several one-time 
costs incurred in fiscal year 1999, including year 2000 
emergency expenditures, Y2K.
    I am pleased to note, by the way, that GSA has obtained a 
score of A-minus on the last evaluation of our Y2K efforts. We 
are complete in the work that we need to do.
    Other one-time costs include $7 million transferred from 
the District of Columbia Appropriation for an environmental 
study of the Lorton Correctional Facility in Virginia, and 
several other small programs and transfers.
    These decreases were partially offset by increases for the 
protection and maintenance of Governor's Island, which GSA will 
maintain until its sale in fiscal year 2002.
    Included in our request is $2.8 million for protection and 
maintenance of Lorton and other initiatives. These initiatives 
include support for electronic commerce infrastructure, surplus 
computers for learning, and the President's initiatives on 
accessible information technology for the disabled.
    Let me quickly mention a couple of initiatives in GSA's 
Public Buildings Service Program. We are working to reduce 
vacant available lease space by 700,000 square feet, or about 
20 percent, saving more than $11 million.
    We will allocate $125 million to reconfigure Government-
owned space to increase occupiable space by 3.8 million square 
feet. We are simplifying the rent pricing system. We are 
requesting an advance appropriation of $163.5 million to the 
Federal Buildings Fund to become available in the year 2001.
    $80.5 million is for construction of the FDA Administration 
Headquarters in Montgomery County, Maryland, that you 
mentioned. $83 million is for construction of a new Bureau of 
Alcohol, Tobacco, and Firearms Headquarters.
    As you have said, our request for the FBF is $5.4 billion. 
That includes $102 million for new construction, and $665 
million for repairs and alterations.
    The rest is used for the expenses required to operate the 
asset base in which we collect the $5.4 billion in rent.
    I have talked with you, Mr. Chairman, Mr. Hoyer, and 
others, passionately about the importance of maintaining this 
huge asset base, valued at over $30 billion. I am pleased that 
we are able to present a budget that recognizes this critical 
need.
    Let me close my opening statement by thanking you, both of 
you, for your thoughtful support and valuable counsel. You know 
our business. You let us manage it, but you hold us 
accountable. I appreciate that. I really do.
    Thank you.
    [The prepared statement of Mr. Barram follows:]


[The official Commmittee record contains additional material here.]


                  fiscal year 1997 appropriations bill

    Mr. Kolbe.  Thank you very much for your statement.
    Let me begin, if I might, with some questions about an 
issue which has come up about the language in the 1997 
appropriations bill.
    You have asked for language this year in the fiscal year 
2000 bill to correct language in the 1997 bill, which I might 
say was before I was on this Subcommittee.
    So, I will pass the buck along on this one. Mr. Hoyer, you 
can take the responsibility for not having read the bill line-
by-line.
    Mr. Hoyer.  It is a heavy responsibility indeed, Mr. 
Chairman. I am going to have to make that admission.
    Mr. Kolbe.  Mr. Barram, would you tell us the nature of the 
problem that exists in the 1997 bill?
    Mr. Barram.  If you do not mind, Bob Peck can answer that.
    Mr. Kolbe.  Okay.
    Mr. Peck.  I will start and Bill Early will correct me.
    The appropriations bill would sunset and would terminate 
all of our appropriations for our fiscal year 1997 construction 
projects that have not actually been obligated.
    In other words, where before there has been language that 
said, if you have not gotten a start on a project within a 
certain number of years after the Congress appropriates, then 
the funds lapse.
    This one said, that even where you have begun building a 
project, the funds will go away if all of the funds have not 
been spent.
    Mr. Kolbe.  Spent? You do not mean obligated. You just said 
obligated.
    Mr. Peck.  No. I mean obligated.
    Mr. Kolbe.  Is obligated the right term?
    Mr. Peck.  Yes, sir. In this case, what it could mean is as 
you pay out money as the project gets----
    Mr. Kolbe.  That is an obligation.
    Mr. Peck.  It is an obligation.
    Mr. Kolbe.  I thought the obligation was when you sign the 
contract.
    Mr. Peck.  No. In these cases, sometimes we phase the 
contract. So, we have one contract with obligations occurring 
by phase.
    This is the first time that we have ever seen the situation 
in which we have the effect of actually stopping projects dead 
in their tracks when they are under construction. So, a 
technical change to the language is all we really need.
    Mr. Kolbe.  Let me just ask you this. When did you spot 
this error? Why did you wait until this year when we are coming 
up on the end of the fiscal year when all of this money would 
expire? Why did you not ask us to correct this last year?
    Mr. Early.  We were aware of the error. We were working 
with Counsel on clarifying what it really meant. We were 
verifying whether we have any flexibility at all.
    Mr. Kolbe.  You like cliff hangers. Is that what you mean?
    Mr. Early.  It would have been better if we had the 
technical change last year. We were probably figuring that you 
were wise about this and we were trying to work our way through 
it.
    Mr. Kolbe.  No. I do not think we were. At least, I was not 
wise about it. I do not know if Staff was, but I was not wise 
about it. So, what is going to be the impact if you do not get 
this change?
    Mr. Early.  As I said, we will literally have to shutdown 
some projects.
    Mr. Kolbe.  How many? How much? What are we talking about?
    I have got a list here which shows us as of last November 
you had $416 million that had been obligated out of the $881 
million adjusted appropriation. By this October, it will be 
obviously more than that, that will be obligated.
    How much will remain unobligated out of that $881 million? 
Do you have any idea?
    Mr. Early.  I would have to get you the number, Mr. 
Chairman.
    Mr. Kolbe.  I have a list, but it is as of last November.
    Mr. Peck.  We have a list that reflects the obligations 
through February and the projections.
    Mr. Kolbe.  That is what I really want, the projections.
    Mr. Peck.  We will provide that for you. It is by project. 
It is significant dollars.
    Mr. Kolbe.  You do not have that?
    Mr. Peck.  I do not have that with me at the moment. We 
will provide that.
    [The information follows:]

[The official Commmittee record contains additional material here.]



    Mr. Hoyer.  Mr. Chairman, would you yield?
    Mr. Kolbe.  Certainly.
    Mr. Hoyer.  I was being somewhat facetious, obviously, at 
the point and was not aware of this glitch. I was not Chairman 
of the Subcommittee when this was passed. I do not want the 
implication.
    Mr. Kolbe.  We could find somebody else, I am sure, to 
blame for all of this.
    Mr. Hoyer.  That notwithstanding, I presume what the 
attempt here was to make sure that money was spent in a timely 
fashion. Obviously this was not, in my opinion, what was 
intended.
    I would hope that we could, in a relatively quick way, 
resolve this.
    Mr. Early.  The bill makes it clear that the construction 
funds are no year in nature. It also contains a provision that 
indicates that there is a desire of the Subcommittee that you 
start on these projects within 2 years and not wait.
    It also has language indicating that starting design, 
preliminary design, just a few dollars spent in that area is 
adequate to indicate that it has started. Therefore, the clock 
starts ticking on the 2-year aspect.
    That provision was added to our bill about 1981. In the 
1997 bill, there were a lot of printers' problems with the 
printing of the bill. That provision just fell out totally.
    Mr. Kolbe.  Except you actually got a 3-year time. If it 
was fiscal year 1997, you are talking about October of 1996.
    Mr. Early.  It was the recognition of our budget shortfall 
issues and that there were probably going to have to be some 
delays because of the shortfall issues. Hence, the Congress and 
this Subcommittee made it 3 years at that time, recognizing 
that issue.

                      brooklyn courthouse project

    Mr. Kolbe.  Let me just, if I might, ask one more question 
before I yield to Mr. Hoyer on a specific project. We notice 
that little progress has been made on some projects since funds 
were provided in that fiscal year.
    One of them that really stands out is the Brooklyn 
Courthouse. What is the delay there? Has construction begun? 
Can you give me an update?
    Mr. Peck.  I can give you the update on that. The Brooklyn 
project is actually two separate buildings. The one that has 
been delayed is new construction. There is a second phase which 
is renovation of an existing Post Office building.
    The new construction project has been delayed. It has been 
delayed principally because when we went out with a request for 
bids to contractors, all of the bids came in above the budget 
that we have available under the appropriation. Our analysis of 
this was that, I mean quite honestly, the New York construction 
market is very hot. The costs are escalating so fast that they 
have gone beyond what we are allowed ordinarily to take into 
account for inflation.
    We have gone back now I believe on our third round of 
actually taking space and other materials out of the project to 
try to bring it in within budget. At this point, I can tell 
you, our latest design will knock four floors off the project 
to try to get it within budget.
    We have chosen to do that rather than try to come back here 
and get more money for the project. We think that this time we 
will go out for bids and get someone to come in within the 
budget. It is a very unusual situation.
    Mr. Kolbe. I understand that some of the changes you have 
made are also not just space, but actually decrease the life of 
the building. Is that correct?
    Mr. Peck. I do not quite understand what that would mean. 
We have not decreased the quality.
    Mr. Kolbe. That is what I was referring to.
    Mr. Peck. We have not withdrawn anything on the structure 
or the quality of materials in the spaces that we will build, 
save for possibly one in the public lobby. We have taken out 
some materials, as we often do, and substituted cheaper 
materials for more expensive stone.
    Mr. Kolbe. So, you do not anticipate that the life of the 
project would be less as a result of these changes?
    Mr. Peck. No, sir. Some of the space that we have taken out 
is space that would be available for the 30-year anticipated 
needs of the courts. That would have to be provided in a 
different way. I guess that is what someone was referring to.
    Mr. Kolbe. I am sure that is what it was. Mr. Hoyer.
    Mr. Hoyer. Thank you, Mr. Chairman.

                  funding for courthouse construction

    Mr. Chairman, did you want to defer courthouse questions?
    Mr. Kolbe. No.
    Mr. Hoyer. We have discussed this, obviously. The courts 
are here as well. Judge Roth is going to be discussing this 
question with us. In 1998, GSA experienced a rent shortfall.
    You overcame these difficulties in 1999. However, your 
request included no funding for courthouse construction. We had 
to add the funding in the appropriations process. Again, this 
year, there is no funding requested for courthouse 
construction.
    Would you explain to the Subcommittee why this has 
happened?
    Mr. Barram. Why we are not proposing funding?
    Mr. Hoyer. Yes.
    Mr. Barram. The Administration's budget was designed to get 
us from a non-deficit into a surplus. After much consideration, 
it was decided that we would not include courthouse 
construction into this budget.
    Mr. Hoyer. Would you provide for the Subcommittee for the 
record your list of requests to OMB?
    Mr. Barram. Yes.
    Mr. Hoyer. So we can have that for the record.
    Also, if there was an appeal made to OMB's findings, 
furnish that as well.
    Mr. Barram. We had extensive conversations. The final 
budget was not a shock to us. We knew these considerations were 
going on. We would be happy to provide you with that 
information.
    Mr. Peck. You will see from what we submit, that we did 
request some courthouse projects; both in the national 
submission and in an appeal.
    [The information referred to follows:]

[The official Commmittee record contains additional material here.]

    Mr. Hoyer. Does OMB contemplate reinstating the courthouse 
construction schedule, as far as you know, at any point in 
time?
    Mr. Barram. OMB is not committing to what next year's 
budget will look like. None of our conversations have ever 
been, well, let us get rid of this whole courthouse program. It 
is not that at all.
    I think we all still believe this is the thing we need to 
do over a period of time. It is just that this year, we did not 
put any money in our budget request.
    Mr. Hoyer. Let me reiterate that. My next question is do 
you agree that the Judiciary plan, which has been submitted, 
the 5-year plan, is important and the space is needed by the 
courts?
    Mr. Peck. Yes
    Mr. Hoyer. Is that a simple yes?
    Mr. Peck. Yes.
    Mr. Hoyer. Are there other reasons, than overcrowding, that 
these new facilities are needed? In other words, security 
concerns, as well as overcrowding.
    Mr. Peck. We believe it is true, that there are, in a 
number of courthouses, serious security concerns that need to 
be addressed. There are clearly places, too, where there are 
not sufficient courtrooms in other facilities.
    Mr. Hoyer. Mr. Peck or Mr. Administrator, did GSA perform 
an economic analysis of these courthouse construction projects? 
Did you conclude that construction is the most cost effective 
way to provide this space to the courts?
    Mr. Peck. Yes, sir. I should note that with respect to 
courthouse construction, although we conduct an economic 
analysis, it is not conducted the same way we do on general 
office space, because our general assumption, and in fact the 
scoring rules tell us, that once you build in all of the 
security features that you have to for a courthouse, and when 
it is designed a certain way, it is not a commercially 
comparable building.
    It cannot meet the scoring rules. You are forced by all of 
those things to build a Federal courthouse. It is also true 
that when you look at the numbers, it is cheaper for the 
Government in the long-run to build rather than lease a 
courthouse.
    Mr. Hoyer. Now, given that and given the fact that you have 
said, as I understand it, that these are necessary, what will 
the impact on the cost of construction for courthouses be, if 
Congress does not add the necessary funds this year?
    Now, obviously, you have just indicated in New York if we 
continue to defer, the costs are escalating rapidly. Across the 
board, have you made a determination as to how much delay will 
cost us?
    Mr. Peck. It would be hard to project. It is really market-
by-market. If I were to say, and I know last year people made 
calculations if you just assume a 4 percent inflation factor, 
you can figure out how much more this is going to cost.
    In some few markets in the Country, the inflation costs in 
the construction market are less than that. In most markets, I 
have to say, they are more than that.
    Mr. Hoyer, one thing I should also note. The Director of 
OMB made a statement about the court program when the budget 
came out.
    One of the things he noted and would probably say, if he 
were here, about the inflation, is that the Administration 
believes that there are certain cost savings that we can still 
wring out of some of the courthouse projects.
    It is conceivable that some of those cost savings might, in 
part, offset some of the inflationary costs that we are talking 
about.

                      courthouse approval process

    Mr. Hoyer. My last question, if I might Mr. Chairman, on 
this round that I would like to ask, and I have a lot of 
questions. The courts are proposing that we eliminate OMB as 
the middle man and propose their court construction needs 
directly to Congress, with the resulting funding going, of 
course, to GSA still.
    Do you have an opinion on such a plan? If so, would you 
like to give it to us?
    Mr. Barram. I am sure we both have one. I think we do a 
real good job at this. It does not make much sense to me to 
stop us from being the ones who manage this courthouse 
construction project process.
    Mr. Hoyer. I do not think the proposal, as I understand it, 
contemplates your not managing the courthouse projects. What 
the proposal contemplates, and what the Judiciary's position 
is, as I understand it, is they ought to be able to come 
directly to the Congress and not go through the Executive 
Branch, in light of the fact that they are a co-equal branch of 
Government.
    Judge Roth, I am sure, will discuss that argument at 
greater length, Mr. Chairman. What I am really asking is do you 
see any practical problems with that proposal, not necessarily 
conceptual, but practical?
    Mr. Peck. Let me note, too, the Judiciary proposal would 
also have the Judiciary basically set the scope in budget for 
each of the projects. We have worked very hard on a bench 
marking system in which we figure out what the cost of a 
project should be.
    We think it is an important check and balance, quite 
honestly, on the courthouse program. Second, GSA's role is the 
Government's central real estate agent. It is one that actually 
works. When I worked in the staff in the Senate, I was not 
always sure that was true, but I think it is.
    One of the things that we do; courthouses do not just house 
the Judiciary. They often house some Executive Branch agencies.
    There are some economies that we realize from being the 
Government's central agent, and being able to look at a given 
locality and say this building can hold the courts, and also 
the U.S. Attorneys, Marshals Service, and some other agencies 
that logically might go in a courthouse building.
    So, we can take, I think, a broader analysis than the 
courts might be able to in coming up with a program themselves.
    Mr. Hoyer. Thank you.
    Mr. Peck. May I just say for all of that, we have a very 
good partnership with the courts and, on most projects, a very 
good dialogue back and forth about costs and scope of the 
projects.
    Mr. Hoyer. Thank you. Thank you, Mr. Chairman.

                              1122 program

    Mr. Kolbe. Thank you.
    We have a number of members here. So, I am going to try to 
keep us all into the 5 minute rule. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Barram, let me add my welcome to you and your 
colleagues. We are glad to have you here this morning. I would 
like to focus on GSA's role in procuring supplies and services 
for the Federal Government.
    Supply and Procurement is one of the business lines funded 
via the General Supply Fund. Because the GSF is a revolving 
fund, it operates at no cost to the Federal Government and in 
fact yields a modest profit.
    According to your budget request, you anticipate income 
from Supply and Procurement of almost $1.374 billion, and 
expenses of about $1.334 billion, for a net profit of about $40 
million, as I understand it.
    That is roughly 25 percent of your total estimated profit 
for GSF as a whole. Is that correct?
    Mr. Barram.  Yes.
    Mr. Price.  Now, as I understand it, you administer a 
program along with the Defense Logistics Agency and the Army 
that was authorized in the fiscal year 1994 Defense 
Authorization Bill.
    That is the State and Local Law Enforcement Equipment 
Procurement Program, commonly referred to as the 1122 Program. 
Do your Supply and Procurement figures include the revenue and 
expenses you anticipate from the 1122 Program?
    If not, what are the profit figures for the 1122 Program?
    Mr. Barram.  More than likely not because I think the 1122 
Program is a schedule; a multiple award schedule.
    So, we end up putting the schedule together to let Federal 
agencies make purchases, except in this particular case, in 
this particular schedule, non-Federal law enforcement agencies 
can buy on it.
    We get a one percent fee which is used to fund the 
activity. So, the one percent fee would be in the Federal 
Supply Revolving Fund, but not the total revenue.
    Mr. Price.  The one percent fee, the profit so to speak, is 
included in that figure Supply and Procurement.
    Mr. Barram.  Yes. I believe that is right.
    Mr. Price.  If that is not correct, I would appreciate your 
clarify that for the record. Also, what are we talking about 
here; the income from that fee?
    Mr. Barram.  On the 1122 Program?
    Mr. Price.  Yes.
    Mr. Barram.  It is very, very small, but I do not know what 
it is. We will provide you with that also.
    [The information follows:]

    The funding mechanism for the 1122 program is the same as 
that used for all FSS supply and procurement business line 
programs and customers. For the last decade, these programs 
have received no Congressional appropriation. The 1% fee, 
mentioned by Congressman Price, is the across-the-board cost 
recovery fee that the Federal Supply Service receives from all 
Federal Supply Schedules contractors to cover the cost of FSS 
contracting operations.
    In establishing the 1122 program, a simple system for 
processing orders was agreed upon. The small fee paid by state 
and local governments for FSS processing orders against Federal 
Supply Schedules was the same as that applied to all Federal 
customers benefiting from this special order program. Since the 
inception of the 1122 program, that fee has been between 3.5 
and 4% for all orders but those for motor vehicles, which 
receive our standard 1% for our consolidated buys.
    We project that at the current rate of business from 1122 
accounts, that business sector will represent only 0.02% 
(approximately $2 million) of our anticipated end of year 
(fiscal year 1999) business volume for our stock, special order 
and schedules programs.

    Mr. Price.  That is not my main concern here. My main 
concern is some of the indications we have that your 
implementation of this program may be running counter to 
Congressional action and intent.
    In 1997, as you know, Congress repealed Section 1555 of the 
Federal Acquisition Streamlining Act or FASA. That program 
would have given State and Local Governments and Federally-
funded entities the ability to purchase goods and services off 
of the Federal Supply Schedule.
    That sounded like a good idea. It was not an idea, however, 
that bore scrutiny. In the end, it could well have cost State 
and Local Governments money because it would have forced small 
local businesses out of business.
    It would have eroded the local tax base. It was very 
decidedly a mixed bag. It possibly could have cost the Federal 
Government money in the long-run, too, as the discounts that 
are now enjoyed by agencies, like the Veterans' Department, 
would have been diluted and major suppliers would have come 
under increased cost pressures.
    In any event, FASA was repealed. As I understand it, 
Section 1122 was envisioned as a means of assisting State and 
Local law enforcement agencies to purchase the equipment they 
need to fight the war on drugs--a quite specific, somewhat 
narrow purpose.
    When I review the schedule of items available via 1122, 
which was expanded significantly in February, I see a lot of 
items that do not look to me like drug interdiction equipment.
    How do you fight the war on drugs with Schedule 62-1, 
lighting fixtures and lamps for household and quarters use, for 
example; or Schedule 73-3, food service equipment; or Schedule 
72-1(a), floor coverings?
    I think you have literally put everything on that list, 
including the kitchen sink. It simply defies logic to claim 
that many of these products are needed for drug interdiction. 
How do you explain the expansion of this program?
    It looks to me like it goes far beyond the authorization. 
It looks to me like it is circumventing clear, Congressional 
intent on the issue of access to the Federal Supply Schedule.
    Mr. Barram.  We are going to have to get back to you on 
that, Mr. Price. We have a lot of schedules. I, obviously, do 
not know a lot about all of them. It could be that we have 
things on that schedule that go beyond the definition that you 
described.
    We certainly do not have everything on those schedules 
because we have all of the other schedules, too. It would be 
unlikely to have lighting fixtures on every schedule. That just 
would not make sense.
    So, we will have to look into that and get back to you on 
that. I think I understand your question. I certainly hope we 
are not doing something that we should not be doing there. I 
will have to get back to you.
    Mr. Price.  All right. Please do that. I do think there is 
some pretty serious evidence here that this program may be 
going beyond its proper bounds.
    [The information follows:]

    The law enacting the 1122 program gave a never broad 
definition of what was eligible under the program. The quote 
from the section, ``The term `law enforcement equipment 
suitable for counter-drug activities' has the meaning given 
such term in regulations prescribed by the Secretary of 
Defense. In prescribing the meaning of the term, the Secretary 
may not include any equipment that the Defense Department does 
not procure for its own purposes.''
    In order to avoid any potential misuse of the Schedules, 
all orders under the 1122 program must be forwarded by the law 
enforcement entity to a State Point of Contact (SPOC). The 
SPOC, who is appointed by the governor of each state, is 
responsible for verifying that the product to be acquired will, 
in fact, be used in the performance of a counter-drug mission. 
By having the SPOCs scrutinize every order, we have a 
``control'' in place to ensure that the products acquired under 
the 1122 program are used solely as authorized by the statute.
    Although we believe that we are in compliance with the law 
and Congressional intent on this program, we will nonetheless 
undertake a thorough review of the 1122 program. We will work 
with the Committee to resolve any discrepancies between our 
actions and Congressional intent.

    Mr. Barram.  In general, you are not arguing against the 
idea of the specific use of the schedule for law enforcement.
    Mr. Price.  I am not arguing against the authorization that 
now exists and action pursuant to that. I am questioning very 
seriously whether maybe this has gone way beyond the intent of 
the statute and may be pretty far out of bound--especially, in 
light of the action we took with respect to the related issue 
with FASA.
    Mr. Barram.  Okay.
    Mr. Price.  Thank you.

         national park service building in van buren, missouri

    Mr. Kolbe.  Mrs. Emerson.
    Mrs. Emerson.  Thanks, Mr. Chairman and gentlemen.
    My first comment just simply reflects that of the Chairman 
and Mr. Hoyer about the need for courthouses; particularly my 
State of Missouri which, at the moment, and probably for the 
foreseeable future has the largest of methamphetamine lab busts 
in the Country.
    We have such a backlog of cases that cannot be tried 
because we do not have enough courthouse space. So, I would 
like to reiterate my general desire to see that budget 
increased.
    My first question is fairly specific to my District. Mr. 
Peck, it probably will go to you. I suspect that you will have 
to get back to me on it. It has to do with the National Park 
Service building in a town called Van Buren, Missouri, which 
currently pays about $12 a square foot for the facilities.
    It is a nice facility. The Town of Van Buren is very small. 
I would say the average price of a home there is somewhere in 
the $15,000 to $25,000 range. However, the Park Service is 
having a new building built by you all and the new cost is 
going to be $23,000 a month for rent.
    It seems to me that the Park Service does not need a Taj 
Mahal in a town where the average cost of a house is less than 
the monthly rent paid by the Park Service. I just want to get 
some information from you about that.
    What was the proposed contract cost of the facilities? How 
does that compare with the original proposal? What is the 
current status of the facility? If you could just get back to 
me on that, I would be very, very grateful.
    It seems an outrageous amount of money to be spent. They 
are going to have to cut the number of employees working there 
because of the cost of this.
    Mr. Peck.  I do not know this project at all. I can state 
almost for a fact, because I have never heard of it before, 
that it is not a Federally-constructed building.
    So, the private sector has to be putting it up, which 
would, under our rules, have to have been competed. So, I will 
take a look and find out how it came out that way.
    Mrs. Emerson.  I just want the information on it. It seems 
outrageous.
    [The information follows:]

        National Park Service Office Space, Van Buren, Missouri

    The National Park Service currently occupies 8,677 square 
feet of office space leased in 1984 for $7.45 per square foot. 
Because the National Park Service has outgrown this space and 
there is no other office space in Van Buren, the General 
Services Administration (GSA) solicited offers for a build-to-
suit lease to provide 16,000 rentable square feet of standard 
office space. In addition to housing twenty-six employees of 
the National Park Service, this larger office space will also 
accommodate seven employees of the Forest Service, three 
employees of the Natural Resources Conservation Service, three 
employees of the Missouri Department of Conservation, and a 
1,400 square foot lobby where educational exhibits will be 
displayed for visitors.
    GSA received twelve competitive offers and awarded the 
project to Young Development for the best value to the 
government. The twenty-year contract is for $17.50 per square 
foot, which calculates to a Net Present Value of $9.95 per 
square foot. Compared with the eleven other offers and based on 
market information for southern Missouri, this was an extremely 
fair and reasonable offer.
    The facility will be constructed in the middle of the Ozark 
National Scenic Riverways on a former Civil War campsite. The 
lessor is responsible for extensive archaeological mitigation 
required by the State Historic Preservation Office and the 
National Park Service. This mitigation has been underway for 
approximately three months, and many artifacts have been 
uncovered. They will be displayed for visitors to the new 
facility.
    GSA has worked extensively with the National Park Service, 
Forest Service, State Historic Preservation Office, and the 
lessor not only to meet the need for fiscally prudent office 
space but also to provide a focal point for visitors to the 
area. The building was designed for a large number of visitors.

                             PER DIEM RATES

    Mrs. Emerson.  My next question has to do, Mr. Barram, with 
per diem rates. Tell me what the procedures of the data 
formulas are. How do you come about determining what per diem 
rates are?
    Mr. Barram.  Let me say a couple of things about per diem. 
Number one, there are some plus and minus controls on it. If a 
rate is too low, the industry marketplace says something. If 
the rates are too high, the Government user says it is too 
high. That is important to note.
    Second, there are a couple of interesting elements that I 
think we ought to think about here. Number one, last year we 
changed from putting per diem rates together for broad metro 
areas into some smaller areas.
    We have 8,000 places where people travel in the Government 
in the Country. Most of them are served by a base rate, which 
is $50 for lodging and $35, I think it is, for food, but 587 of 
those we have special rates for.
    We used to lump them into metropolitan areas. We have 
broken them out into some suburban and metropolitan areas. Each 
county or a county with a big city will have it, which may be 
different from an adjoining large city.
    That is one of the reasons that we have a big change this 
year. Third, the law requires that Federal travelers stay in 
fire-safe hotels and motels certified by the hotel and the 
motel and these establishments are then put on a list that FEMA 
keeps.
    So, we calculate these rates by surveying these areas where 
Federal employees travel. We survey the hotels and motels. If 
they do not tell FEMA that they are fire-certified, we cannot 
include them in how we calculate the rate.
    We have had an ongoing struggle, I guess is the way to say 
it, over the past number of years to push hotels and motels to 
get certified. A lot of them are obviously certified, but do 
not say it, for whatever reason.
    So, we end up with unfortunately too small of a sample. 
There is a fourth thing I want to say. There is a process for 
fixing things that do not work out right. Last year and the 
previous year, we had maybe one case where we had to go back in 
and fix it.
    If a Federal agency wants a revision, they have to initiate 
it. We will quickly review their request. This year we have had 
maybe 10 cases that we have been reviewing.
    I think we have, how many members of the House, 435? We 
have about that many letters. I am serious. We changed 
something else that has to do with the tax rate, which we can 
talk about if you would like; the taxes on a hotel.
    The effect is that we have gone back and changed, I think, 
maybe 10 different parts of the different areas. We are doing a 
couple of other things that are important. A hotel has to be a 
2- or 3-star diamond rated hotel or motel for us to include it.
    We are considering making the 3-star hotel more the 
emphasis. We are also looking at making conference facilities, 
you remember the letter that you sent to us, Congressman Wolfe.
    Conference sites are often out in areas where the hotels 
and motels may have a lower rate, but they charge a higher one.
    So, we are looking at a different kind of an accommodation, 
such as a resort area for a conference. So, we are doing a lot 
of different things. I do not know how much detail you want to 
go into on this subject.
    Mrs. Emerson.  I was just curious, having heard from 
several of my small hotels in my District.
    Thank you.

                    COURTHOUSE CONSTRUCTION PROGRAM

    Mr. Kolbe.  Mr. Peterson.
    Mr. Peterson.  Good morning. Thank you, Mr. Chairman.
    Thank you for coming before us this morning. I want to go 
back to the courthouse issue. It just seems to me that the 
statements you made, I guess, bothered me a little bit, that 
the reason courthouses were left off is in the desire to 
balance the budget. If every department of Government said we 
are not going to do any infrastructure improvements in this 
Country to balance the budget, when we did balance the budget, 
we are suddenly going to have a backlog, which is going to cost 
us double or triple.
    The infrastructure development is vital. Is that really 
what you meant to say?
    Mr. Barram.  You can sort of look at this in a couple of 
ways. Bob will comment on this in a second, too. We work very 
hard with OMB and this Subcommittee to ensure that we will end 
up with a significant amount of money to keep the repairs and 
maintenance up on our existing buildings.
    It would be easy to let that go and build new courthouses. 
You know, you all might get your name on one of them. Who 
knows? Not that that would drive anybody. I feel very good 
about a couple of things.
    One, we have with the courts a 5-year plan that Mr. Hoyer 
mentioned that says what the priorities are. So, it is not just 
random.
    This is a sensible plan that we have worked out with the 
courts. It reflects their expectations and their wishes. The 
other thing I feel good about is that we are focused on 
maintenance and repair and that is good.
    We have a big budget. Courthouse spending is a big chunk of 
money, in a time when we are working on a very difficult 
budget. I understand the Administration's reasons. It was not a 
99:1 decision. I am sure it was more like a 52:48 kind of 
decision. But that, in the end, was the decision. That is where 
we are.

                      PATENT AND TRADEMARK OFFICE

    Mr. Peterson.  I personally think that is short-sighted, 
but we will go on. I guess most of us hoped that the day of the 
$500 hammer was over, but a recent report submitted by the 
Patent and Trademark Office calls for spending $9,000 per 
employee for new furniture.
    There are some listings here; 8,280 trash cans for $83 
apiece. I guess the hardware price, store price, of the good 
ones are $12 to $15; maybe a deluxe for $19. Then there are 20 
trash cans for $870 apiece. I just have no idea.
    I am a retailer. So, I have no idea what an $870 trash can 
looks like; 19 sets of bedding for $500. I hope they were 
cashmere because I cannot think of any sets of bedding that 
would cost less than $500.
    Four modular tables for $13,298 apiece. If that table you 
are sitting at was even Pennsylvania Black Cherry, which is one 
of our finest woods, it would not cost $13,000. I guess I could 
go on. Nine coat racks for $1,000, which normally cost $104. 
How does this happen?
    Mr. Peck.  May I answer that question?
    Mr. Peterson.  Sure.
    Mr. Peck.  Mr. Peterson, the numbers that were given you, I 
have to say this is one of the most misleading instances in 
Government, and I have been in and out of Government. I have 
done real estate on the private, state, and the public side.
    This is one of the most disingenuous pieces of data I have 
ever seen purveyed by a bunch of lobbyists. Let me explain why. 
The PTO solicitation is about a project on which Congress has 
set a limit on the amount of money we can spend.
    It is a leased building. The lease includes 2 million 
square feet, which is a lot of money no matter how little you 
are paying on rent per square foot. We will pay, by the way, a 
lower per square foot rate for the Patent and Trademark Office 
when we move into this new facility than they are paying at 
present.
    All of the numbers that you cite were apparently put into 
some kind of a book which described exemplary, it is hardly 
exemplary, costs. The kinds of costs one could pay on various 
kinds of items.
    The bottom line is this. We are going to pay for PTO $24 
per square foot. If the private sector developer who built this 
building is dumb enough to spend $1,000 on a trash can, then 
that is his or her problem.
    It is not anything that the Government is requiring or 
condoning. We are simply buying finished space. The numbers 
that somehow got into this book have nothing to do with the 
costs that the Government will eventually pay. To be clear, 
neither GSA nor PTO required, requested, nor suggested that any 
of those costs be put into the building.
    Mr. Peterson.  So, these are not figures that anybody paid 
for anything.
    Mr. Peck.  That is correct.

                              1122 program

    Mr. Peterson.  I would like to go back to Mr. Price's area 
of concern. I was not here then when they told you not to do 
national purchasing for Local Governments, which certainly has 
some huge implications.
    It appears you used an opportunity here to do some 
reaching. The list that was given certainly had little impact 
on drug interdiction. How did that happen?
    Mr. Barram.  We really need to get you the facts on this. I 
think, I believe and I hope that this will not be as big a 
problem as it might seem at first.
    Remember though, we set these schedules up so that our 
Federal agency customers can buy, can compete, get products 
from companies that are on this schedule that we say are good 
and have set a good low price.
    Then our customers can even try to get a lower price from 
them. So, they really work and our customers really like them a 
lot. Each schedule has parameters. If you have a schedule for 
handguns and rifles, I would be surprised if there were kitchen 
sinks in such a schedule.
    We will look and see. I just do not know. I will be 
surprised if it is a real big problem. I hope it is not. Maybe 
I should say it that way.
    Mr. Peterson.  This list was for local agencies; right? So, 
you were going back to the concept of Local Governments 
purchasing.
    Mr. Barram.  Was it local or was it for general Government; 
Federal and Local. Law enforcement.
    Mr. Peterson.  Thank you very much.
    Mr. Barram.  We have just allowed or you have just allowed 
the Local and State to buy under it. It is the same one, that I 
imagine, the FBI would buy from.
    Mr. Peterson.  Thank you.

                               child care

    Mr. Kolbe.  Mr. Forbes.
    Mr. Forbes.  Welcome gentlemen. I appreciate your being 
here today. Administrator, I wanted to touch on a subject that 
is near and dear to my heart. You have heard ad nauseam from 
me. We started a discussion about this last year.
    It really harkens back to something that I think that the 
President has made a very high priority for his Administration 
and had no fewer than half a dozen Executive Statements or 
Orders in regard to child care. I do appreciate that GSA, I 
believe and I know under your leadership still considers 
setting the example, if you will, for the Nation and working 
with other Federal agencies to get child care facilities; not 
just for Federal employees, but the private, public 
partnerships that we all look forward to; particularly, in the 
era of Welfare reform.
    I think we have a greater need than ever before to set the 
example. A year ago we talked, at this kind of a forum, about 
the Central Islip Courthouse, and I appreciate that GSA is 
helping to move that forward.
    We are all very, very proud. I would like to align myself 
with the comments of Mr. Hoyer and others who have expressed 
concern about the construction of courthouses. I very much am 
supportive of the Brooklyn Courthouse Project and hope that we 
can move that forward.
    I am thankful also that Central Islip on Long Island is 
going to be a reality next year. In light of that, the Chief 
Judge of the Eastern District of New York, Judge Sifton, has 
expressed very strong support and approval for a child care 
facility at the new Central Islip Courthouse.
    He has also checked with the Judicial Conference and they 
find this to be very much in line with their policies. We 
communicated in September with GSA.
    I was assured that once the courts actually signed off and 
approved of a child care facility that a meeting would take 
place between the courthouse personnel, both Local, State, and 
of course Federal, as well as law enforcement, the U.S. 
Attorney's Office and others.
    I have to tell you, Mr. Administrator, I am here today 
expressing great, great frustrations 6 months later that 
nothing has happened on that score.
    I was wondering if you would comment. Is child care 
slipping at the agency because you have got other priorities or 
other demands?
    Mr. Barram.  Absolutely not.
    Mr. Forbes.  Fewer resources?
    Mr. Barram.  Absolutely not. We are just as committed to it 
as ever and maybe more so. Bob can comment on some of the 
specifics here. In fact, why do you not go ahead.
    Mr. Peck.  Mr. Forbes, two things; one is child care is a 
very high priority. One of the performance measures that we 
track every quarter is the percent of our child care centers 
that are accredited.
    We have a higher accreditation rate----
    Mr. Forbes.  It is 67 percent, I think.
    Mr. Peck [continuing]. By a lot more than the private 
sector, which is way under 50 percent. We are gaining on the 
Defense Department, which is the Government leader. We have set 
up a Center of Expertise run out of New York City, in fact, to 
make sure that the people who oversee our child care centers 
are qualified and supervised by people who are qualified. On 
Islip, I am going to have to get back to you because the 
information I had was that we were reaching out.
    The problem here was that our market survey of the 
occupants of the courthouse said we would not have enough 
children to sustain a child center.
    But that we probably could if we partnered with the nearby 
State courts and possibly a private corporation also in the 
area. I have been told that those explorations have been going 
on. I will get back to you and find out if they have indeed.
    Mr. Forbes.  If we could please.
    [The information follows:]

               Child Care Center, Central Islip, New York

    The Central Islip Court Complex is scheduled for completion 
and staggered occupancy beginning in 2000. A child care center 
would be scheduled to open after all of the tenants are in 
place. To start the process, we conducted an electronic On-site 
Child Care Needs Assessment Survey in early February 1999. We 
sent surveys to employees of all the agencies that are 
potential tenants of the Courthouse--the U.S. Attorney, 
Probation and Pre-Trial Services, U.S. Trustee, U.S. Marshals 
Service, U.S. District and Bankruptcy Courts. We received 100 
responses. The responses indicated Federal employee interest 
but not sufficient to sustain a center without a community 
partner. Only 41 children were of the ages of children in our 
centers. We are exploring the possibility of a cooperative 
effort with the New York State Courts, which are adjacent to 
the Federal Court Complex, and have asked them to conduct a 
survey of their employees. In addition, we will contact private 
corporations in the immediate vicinity. In all of our child 
care centers we partner with Federal agencies and the 
communities where the centers are located. As of October 1, 
1998, we serve approximately 7,650 children in our 112 centers 
and 3,350 of them--44 percent--are from the community; i.e., 
children of other than Federal employees.

    Mr. Forbes.  Mr. Peck, I do not think there was a formal 
survey, per se. I am getting some very strong feed back from 
the same kind of personnel who are very excited about the 
prospect and, like you folks, proceed with the IRS facility.
    The idea of public private partnership there--I think there 
is going to be tremendous demand with the number of employees 
there.
    Mr. Barram.  That is a big enough site. I think it is 29 
acres or some size like that. We could have a free-standing 
site, which would be wonderful. We will take seriously your 
concerns.

                          promoting child care

    Mr. Forbes.  I would appreciate it if we could maybe move 
this forward. I wanted to just get from you, if I could, how 
much of the GSA budget by dollars is dedicated to promoting 
child care and cooperative arrangements with the other Federal 
agencies?
    Mr. Barram.  I will have to get that to you.
    Mr. Forbes.  Would you, for the record.
    Mr. Barram.  It is less a direct expenditure than it is an 
abatement of rent in the child care spaces. And some capital 
contribution to the actual build-out. I will get you that 
number. We have a Center of Expertise as Bob mentioned.
    [The information follows:]

                    Child Care Program Expenditures

    The child care program in the Public Buildings Service 
operates child care centers in GSA-controlled Federal 
facilities. In FY 1999 this program has a budget of $2,324,000 
which provides GSA employee salaries and benefits, resource 
materials, center health and program reviews, board training, a 
national training conference, etc. The centers are operated by 
private contractors, whose expenses are not included in this 
figure. An additional $1,762,000 is budgeted for center 
equipment, and $3,600,000 is budgeted to modernize the centers. 
$2,290,000 is budgeted for glazing windows to make them 
shatterproof.

           human resources dedicated to promoting child care

    Mr. Forbes.  How many people do we have dedicated to 
promoting child care at GSA? Maybe you could provide that for 
the record if you would, please, as well.
    Mr. Peck.  I can get that for you. There is a child care 
coordinator in each of our 11 regions. I think all of them are 
full-time. You could multiply that by probably 2 or 3. I will 
get you the numbers on that.
    [The information follows:]

                      Child Care Program Employees

    The child care program in the Public Buildings Service 
(PBS) operates child care centers in GSA-controlled Federal 
facilities. There are 23 PBS employees in the program. Eight 
are in the Child Care Center of Expertise and the remainder are 
in our eleven regional offices. The centers are operated by 
private contractors, whose employees are not included in this 
figure.

                    child care center accreditation

    Mr. Forbes.  Finally, if I may, 67 percent of the GSA-
sponsored child care facilities are accredited. What is being 
done to move that to 100 percent?
    Mr. Barram.  Well, actually we have discussions in each 
facility with the operators. We do not actually operate the 
child care centers. There are private sector operators who 
operate them for us.
    In each case, where they are not accredited there is a plan 
in place to get them to accreditation, under the standards. By 
the way, they are not our standards. They are the standards of 
the National Association for the Education of Young Children.
    As you know, it will never be 100 percent. It is going to 
be less than that because when you change hands, when the new 
operator comes in, I think you start the process over.
    It takes a number of months, maybe a year or two to get 
there. So, 67 is really very good. I think the national average 
is 15 or 5. It is very low.
    Mr. Forbes.  I think Congress has already expressed some 
concern about child care facilities that do not meet 
accreditation standards. Hopefully, we can have the government 
set the way in this regard.
    Thank you very much.

            minorities, women and small business contracting

    Mr. Kolbe.  Mrs. Meek.
    Mrs. Meek.  Thank you, Mr. Chairman.
    Welcome again. I think most of my issues have been covered. 
I will just state them and I will mention one last one that I 
have not heard.
    First of all, like most of the other members, I am very 
interested in the courthouse construction situation, and in 
contacting the construction program, in that Miami is on the 
list of those cities that are supposed to get a new Federal 
courthouse.
    The Courthouse is a valuable asset in our community. The 
District desperately needs the space. The Judicial Conference 
has said so, plus the Judges in my own District say so; we know 
that when we go to visit them.
    Mr. Barram.  So do we, Congresswoman Meek.
    Mrs. Meek.  Also, in each committee I attend, I hear a lot 
that sounds like interference by OMB in the budget process. Of 
course, that is an inference which I think may be a sound one.
    It is something that we need to look at as a Congress in 
order to keep the budget process operation in a way that the 
people will benefit and that our goals will be met.
    The other issue has to do with the Reagan Building and its 
security, which I am sure that someone else has mentioned 
already. I am concerned about that.
    The last topic concerns GSA's record in creating 
opportunities for minorities and women. I mention this issue in 
all of the committees. I have not received any reports recently 
from GSA in that regard. I would certainly like that to be a 
part of the record, Mr. Chairman, in terms of what GSA's gains 
are and how GSA is achieving the equal opportunity we all talk 
about around here for minorities, women, and small businesses.
    As I read your report, you out-source almost everything. I 
mean, everything is out-sourced. So, in that regard there are a 
lot of contractual kinds of arrangements GSA makes in the 
marketplace. That is a whole heck of a lot of money.
    So, I would like to know just how you are doing this; how 
fair that process is. My last question is one of a local issue. 
You will only have to address two of my questions; the minority 
issue and women; and the one concerning Dade County.
    For years, we have had a situation that I would like to 
know what GSA is doing to solve it. None of the local 
politicians have been able to do it. I have not been able to 
solve it.
    It has to do with the local Immigration building. In trying 
to place it in another part of the City, you run into a lot of 
obstacles. I would just like to have an update on that.
    You do not have to tell me here. You can send it to me by 
private messenger or whatever way. I would like to know what is 
going on with that particular facility. There was a big outcry, 
as you know, from the locals. I would just like an update on 
that.
    Mr. Barram.  Let me, if I can, sort of walk through those 
quickly. We should talk about the Ronald Reagan Building 
security. We can do that in a minute or now. I am not always 
OMB's most ardent defender as Staff behind me would find that 
amusing.
    They do have a major role to play in managing the budget 
for the Administration. So, I think we have a very close 
working relationship with them.
    We are working very hard on women and minority contracting. 
We do out-source. We do contract. We put a lot of contracts out 
there. We also ask and require people to follow the rules of 
the Government.
    We do not just set the rules, we do something else very 
unique in GSA that I think is very powerful. That is we have an 
Office of Enterprise Development. We go meet with, hold 
seminars with women and minority-owned businesses, and small 
businesses. We hold seminars to try to help them figure out how 
they can deal with the Federal Government; how they can get a 
contract.
    So, we are very active in doing that. It has made a lot of 
difference. Our numbers are very good. You do not know Ms. 
Dietra Ford? I will ask Dietra to give you the latest 
information that we have on how we are doing against our goals, 
which are very good.
    On the INS issue, Bob Peck is going to answer that.

                 immigration and naturalization service

    Mr. Peck.  I will have to do it in writing. I do not know 
the latest on that. The last time I remember being updated on 
this was about 6 months ago. Things change too many times in 
these things. I will do that.
    [The information follows:]

[The official Commmittee record contains additional material here.]


    Mrs. Meek.  Thank you.
    Mr. Kolbe.  Mr. Wolfe.

                        Loudoun County Per Diem

    Mr. Wolfe.  Thank you, Mr. Chairman.
    Welcome. Two issues; one, if somebody from GSA could come 
by the office to talk about it, is the Loudoun County per diem 
issue. Loudoun County is the third fastest growing County in 
the Country.
    It is the County that Dulles Airport is located in, which 
has 15 million flights a day, which is--passengers. A large 
portion of FEMA's employees are located in Loudoun County.
    Their per diem dropped 30 percent. Several of the 
conference centers and the convention centers out there are 
just somewhat shocked with it. So, without taking the 
Subcommittee's time, if you or somebody could come by and sit 
down, we can go through this.
    They have some concerns about the records that were kept in 
Richmond and were lost when GSA out-sourced the contract. I 
would just like to try to resolve the issue.
    Mr. Barram.  We will be happy to do that. We wrote you a 
letter.
    Mr. Wolfe.  I got it.
    Mr. Barram.  We will be happy to do that. Again, it goes to 
the same issues I have talked about earlier.
    Mr. Wolfe.  I would venture that about 15 to 20 percent of 
your employees, GSA, live in Loudoun County.
    Mr. Barram.  The fundamental problem we have, and I imagine 
this whole episode is going to move us to a new place, I 
believe. We have had such a difficult time getting hotels and 
motels to certify that they are fire-safe.
    Mr. Wolfe.  Well, these are; the convention center.
    Mr. Barram.  The convention center. Then that is another 
issue. Your example is one of the things that has driven us to 
think about this in a different way and we will. I will be 
happy to come by and see you and bring people who know.
    The lodging portion of the per diem rate decreased from 
$126 in 1998, to $75 in 1999. This was a result of the annual 
survey conducted by a contractor for the General Services 
Administration (GSA) to help determine the appropriate per diem 
rates. Each year, GSA has a survey done of the local lodging 
industry in approximately 600 locations throughout the country. 
This survey is designed to determine what the Government per 
diem rate should be in the local marketplace. It takes local 
lodging industry input and uses it to determine the average 
Government room rate in an area. The survey entails contacting 
properties that are two and three star or diamond rated (as 
done by AAA and Mobile) and that are on the fire safe list 
maintained by the Federal Emergency Management Administration 
(FEMA). Pursuant to the Fire Safety Act of 1990, FEMA maintains 
a list of fire safe properties. GSA is required by law to use 
this list as the basis for which properties to survey.
    In previous years the survey that affected Loudoun County 
was actually the one performed for Washington, DC. This is 
because GSA had historically blended together neighboring 
jurisdictions under one umbrella rate, which was based upon the 
highest cost part of the area. This was the reason for the $126 
rate in 1998. In 1999, GSA undertook an initiative to breakout 
all metropolitan areas into their separate jurisdictions and 
survey each one on its own. As a result, a survey of the 
marketplace in Leesburg (the sample point for Loudoun County) 
indicated a lodging rate of $75, which is what was used for the 
1999 rate.
    At a meeting in Representative Wolf's office on March 22, 
1999, officials from GSA's Office of Governmentwide Policy 
discussed the issue with local lodging industry representatives 
form Loudoun County. As a result of that meting, a 
representative form GSA attended two sessions in Loudoun County 
on March 30, 1999. The sessions were designed to continue the 
discussion of a possible rate change with on-site lodging 
representatives and local Federal agencies. At those sessions, 
it was indicated that a resurvey would be considered if the 
local Federal agencies would make a formal request.
    We are currently awaiting those requests. Upon receipt of 
them, GSA will be glad to review the existing rate structure to 
determine the appropriate level.

                              tele-working

    Mr. Wolfe.  The other issue is tele-commuting. Mr. Hoyer 
and I have been very supportive of tele-commuting over the 
years. You have $2 million in your budget for it. There just 
does not seem to be the commitment on the part of the 
Government agencies for this.
    Beginning late this year, the mixing bowl project will 
begin. It will go on for 8 years. The number of Federal 
employees who live down in Prince William County will be grim 
to get through the mixing bowl. Could you do something more to 
encourage the agencies to participate?
    Mr. Barram.  Let me talk a little philosophically about 
this. Bob can talk more concretely about it. My view is that 
tele-commuting is interesting. Tele-working is really where it 
is.
    By that I mean all of us, at one level or another, are 
tele-workers. Even when you call in and say I am going to be 
late, you have done a little bit of tele-working. It goes all 
the way from having a full office at home, where you spend 5 
days a week to talking on the phone as you drive in, all kinds 
of things.
    Tele-commuting centers are one element of a tele-working 
attitude. There are a couple of things that are happening in 
the Federal Government. We are tele-working. What you did by 
funding these centers is sort of put concreteness on the map 
here.
    It has given us some places to use as ways to work this 
issue. It has helped Federal agencies to understand in a 
concrete physical way that it is a good idea. There are still 
many managers in the Federal Government who, if they do not see 
you, they do not think you are working.
    This is really a shame. You know, I could sit all day and 
fake you out if I wanted to, I think. So, what are my results? 
People have to learn how to manage to results. You can do that 
whether someone is here or traveling around the country.
    That is where we want to get; to an attitude of tele-
working where it does not matter where you are, you can be in 
your car, on an airplane, at home, at a tele-commuting center, 
or in the office. You could have two or three offices.
    The NPR has an office facility across 17th Street which has 
space, seats, chairs, whatever you want for about 50 people. 
They have 80 who work there, but they have a great tele-working 
environment. Technology is really powerful.
    That is kind of an extreme example for today. I think we 
are going to see a lot more of that. We have some activities 
going on in GSA. We are going to do a lot. We are already doing 
a lot in GSA.
    On the day when the NATO celebration is going on here and 
there are 40 motorcades of dignitaries clogging the streets, we 
are going to ask GSA people to make that be a really powerful 
tele-working day.
    We will make it work for us. We are working with other 
Federal agencies; sometimes in formal ways and sometimes in 
trying to inspire people to new things. Technology is really 
critical to this.
    Bob and I have talked about things we could do around the 
mixing bowl. He will comment on that a little bit. We have 
these other sites around that exist. Federal agencies have not 
stepped up, frankly.
    They do not see it. They do not yet see it as an integral 
part of the work environment. It is still kind of an 
experiment. We have to change that attitude. In the private 
sector, though, quite the contrary. They see it as a big thing.
    Mr. Wolfe.  If your attitude is tele-working, not tele-
commuting, I think you look at it through a whole different 
window.
    Mr. Peck.  Mr. Wolfe, just to be specific; at the beginning 
of June this year, we will open a tele-work center at 13546 
Minnieville Road in Woodbridge, which is aimed to take some 
pressure off the mixing bowl reconstruction.
    One thing to piggyback on what the Administrator said is 
this. The private sector is where this seems to work best, 
where tele-working in general works best, whether it is at a 
center, from home, or while traveling.
    There is a cost factor here. Right now what happens is if 
an agency pays us for the seat at a tele-commuting center, they 
are also paying for a desk and work space for that worker in 
the Headquarters building.
    In the private sector, in some cases where they have been 
willing and able to put the capital outlay into their main 
buildings, you can do what is called hoteling, where people do 
not have such big work spaces, on the assumption that half of 
them are going to be out most of the time.
    They can save some money doing this. For various reasons, 
including budgetary, we have not been able to get either the 
money for us or for Federal agencies to make a lot of those big 
structural changes in the big buildings. I think that is one of 
the impediments.
    We do a lot of talking to people about this and a lot of 
jaw-boning, but that is where we are.
    Mr. Wolfe.  Thank you, Mr. Chairman.

                     Los Angeles Courthouse Project

    Mr. Kolbe.  Ms. Roybal-Allard.
    Ms. Roybal-Allard.  Thank you, Mr. Chairman.
    Welcome, Mr. Barram. I want to just go back to the 
courthouse situation once again because, as you know, that is 
really a critical issue in Los Angeles where the Administrative 
Office has ranked the Los Angeles Courthouse number one on its 
priority list, and for very, very good reasons.
    The Judicial Conference has said that the situation in Los 
Angeles has critical security concerns. According to the U.S. 
Marshal's Service, those security concerns are also life-
threatening.
    Since 1995, the Los Angeles facilities have officially been 
declared out of space. Yet, we continue to have the highest 
prisoner production in the entire Country. In 1996 alone, we 
had almost 13,000 prisoners that were presented and moved 
through the Spring Street facility.
    Obviously we are going to be faced with some very serious 
consequences, given the conditions in the Los Angeles area. 
Could you elaborate on what the consequences are that you see 
in delaying the building of the Los Angeles Courthouse; 
particularly in terms of the increased problems with security. 
Would it also be possible for you to provide for me and this 
Subcommittee what the projected increase in costs would be if 
the courthouse is delayed even 2 years?
    Mr. Peck.  Ms. Roybal-Allard, can I try to approach that in 
this way? No one in GSA, just as no one in the Judiciary, 
questions the need for a new courthouse in Los Angeles.
    I have been there twice now. I have met with the Judges. 
You can just look at it and see the need. It is also a very 
complicated situation. We know it is going to be a very costly 
project.
    It is also very important to the City of Los Angeles 
because there is a lot of opportunity, depending on what you do 
to help stimulate development in and around the Civic Center. 
So, those issues come into play, too.
    We have been talking to the planning folks in the City of 
Los Angeles, as well as to the Judges about various 
alternatives we have on Government-owned property and non-
Government-owned property.
    Right now, we do not have an agreed upon plan with the City 
and the Judges that will allow us to make a cost estimate.
    So, when you ask us to tell you how much it would increase 
if we delay, the answer right now is I do not know. I suspect 
that we will, in this calendar year at least, be able to settle 
on a plan and go forward. If it is okay with you and I do not 
know whether we have done this before.
    I would like to brief you on where we are and the various 
alternatives that we are reviewing and where we seem to be 
going with the Judges in this city.
    Ms. Roybal-Allard.  Yes. I am somewhat familiar with that. 
The point that I am trying to make is the longer we delay, the 
greater the threats in terms of safety, and most certainly 
costs are going to increase. So, if we cannot deal with the 
problem now, it is going to only get worse in the future.
    Mr. Peck.  There is no question about that, absolutely.

                    Office of Enterprise Development

    Ms. Roybal-Allard.  Just two more things that were already 
touched upon by other members. First of all, I have a question 
with regards to the sub-contracting that you do.
    My understanding is based on the information that I have 
that only 6.5 percent of the $14.5 billion that you have are 
obligated for 2000 goes for salaries and benefits. The 
remainder of that $14.5 billion actually goes out for contracts 
with private vendors. So, we are talking about a huge amount of 
money. You mentioned that there is the Office of Enterprise 
Development. If possible, I would like for you to provide me 
with a schedule of their meetings, so that I could then share 
that information with the businesses in my District.
    Mr. Barram.  We would love to do that. Thank you for 
asking. We would love to do that.
    [The information follows:]

    The Office of Enterprise Development lists monthly on its 
GAS Homepage a calendar of upcoming events of GSA outreach and 
educational activities for small businesses interested in doing 
business with GSA. Current Information can be found by visiting 
www.gsa.gov/oed or by contracting the regional offices.
    Central Office of Enterprise Development--202-501-1021.
    National Capital Region, Business Service Center--202-708-
5804.
    New England Region Business Service Center--617-565-8100.
    Northeast and Caribbean Region Business Service Center--
212-264-1234.
    Mid Atlantic Region Business Service Center--215-656-5525.
    Southeast-Sunbelt Region Office of Enterprise Development--
404-331-5103.
    Great Lakes Region Business Service Center--312-353-5383.
    The Heartland Region Business Service Center--816-926-7203/
7016.
    Greater Southwest Region Business Service Center--817-978-
3284.
    Rocky Mountain Region Business Service Center--303-236-
7408.
    Pacific Rim Region Business Service Center--415-522-2700.
    Northwest/Arctic Region Business Service Center--253-931-
7956.

                               Child Care

    Ms. Roybal-Allard.  Just one more thing. I just want to 
support the issue that was raised by Mr. Forbes and the concern 
about only having 67 percent of the child care centers 
accredited. I know that it is more than the national average, 
but as he said, the Federal Government should be doing better.
    Mr. Peck.  Okay.
    Ms. Roybal-Allard.  Thank you, Mr. Chairman.

                              1122 Program

    Mr. Kolbe.  Thank you very much. Mrs. Northup.
    Mrs. Northup.  Thank you, Mr. Chairman.
    Mr. Chairman, I know that cooperative purchasing has been 
the subject of several questions, but I would like to pursue it 
in a little greater detail.
    First of all, cooperative purchasing, which is in Section 
1555, or the original authority was never implemented due to 
moratoriums. It was repealed by Congress completely in 1997 and 
that repeal was signed into law by the President.
    I would ask you, sir, is it not clear that Congress did not 
want the GSA to engage in providing marketing services to State 
and Local Governments?
    Mr. Barram.  Yes.
    Mrs. Northup.  It is my understanding that your agency 
found an exception in a 1994 law that allowed the Federal 
Government to, through GSA schedules, help State and Local 
Governments purchase supplies for drug interdiction. And that 
those are the grounds by which you are now selling items from 
the GSA schedule to State and Local Governments. Is that 
correct?
    Mr. Barram.  Yes. We had a couple of conversations about 
this, this morning already. I will say to you what I said to 
them.
    Unfortunately, I do not know enough detail to answer very 
many of your detailed questions. We do understand your concern. 
Mr. Price had one as well.
    Mrs. Northup.  I am going to run out of time. I have a 
number of questions. I think it is important that this 
Subcommittee know what is going on here. In fact, you started 
out with 10 schedules and have now expanded it to over 50 
schedules. I have a list here of some of the things that are on 
that list; lawn and garden equipment, cattle guards, household 
and office appliances, fire fighting equipment, water 
filtration products, environmental products, woodworking and 
metal working machinery and equipment, vehicle equipment and 
accessories, solar panel and lighting projects, household and 
quarters furniture, upholstery, deodorants, executive 
furniture, pre-school and classroom materials, hospital patient 
room furniture, mail room furniture, library equipment.
    This list goes on and on. It is quite an extensive list. I 
believe that you have used the excuse of the 1994 law to make 
this list as expansive as you possibly can. In doing so, I 
understand you derive a one percent return on any sales that 
you make.
    Since the program is no longer authorized, it is my 
understanding that, that money should revert directly to the 
Treasury. Is that correct?
    Mr. Barram.  Do you mean, do I agree?
    Mrs. Northup.  Well, I mean, if you derive money that is 
not anticipated in the budget, and you are not authorized to 
derive it, does it then become a part of the general revenues 
of the Treasury?
    Mr. Barram.  If I could ask you to let us get back to you 
on this whole subject. That list is a list I do not know--I am 
not sure what is on it. I think we understand the law. If we 
have done something we should not have, then we should fix it.
    The amount of money is pretty small. The one percent is 
pretty small. We are not running these programs to make money. 
We need the one percent to manage the business. So, we are 
doing it because our customers wanted it.
    Mrs. Northup.  I think what concerns me is that it was 
always reported by GSA that your customers wanted it. However, 
the real truth that State and Local communities did not call up 
and ask you to expand these services. The real concern I have 
with this is that the Federal Government has the capacity, if 
they proceed with cooperative purchasing, to replace local 
communities' purchasing power on main street and in small 
companies.
    In fact, particularly the way you are implementing it now, 
it almost certainly blocks out small companies. Women and 
minorities have a percent of those companies. They also make up 
a larger percentage every year of those types of companies.
    They are effectively shut out by these policies. More 
importantly, when somebody purchases from GSA, not only do you 
derive one percent that you make off the Local Governments, but 
also the State and Local communities pay a 4 percent charge on 
top of that.
    So, there is, in a sense, profit that is drawn out of the 
market on mainstream America through those assessments. In any 
event, I do have a series of very specific questions. I thought 
it was important for this Subcommittee to know that, talking 
about a few drug fighting articles that we are.
    Mr. Barram.  I can assure you and I will assure the whole 
Subcommittee that I am going to find out what is going on here. 
We will get back to you with a very clear explanation. It might 
be one that I am glad to hear or it might not be. We will tell 
you the truth.
    [The information follows:]

    Each year we forecast the amount needed to cover costs and 
provide as simple a mechanism as possible to do so. If, for any 
reason, our revenue exceeds forecasted costs, the excess income 
is returned to the U.S. Treasury. At the end of fiscal year 
1998, $4 million was returned. But the 1122 portion of this 
amount is negligible.
    Further, GSA is using the Federal Supply Schedules program 
as the primary procurement program to support those law 
enforcement officials engaged in the war against drugs. Under 
the schedules procurement program, approximately 70% of the 
contractors who hold these schedule contracts are small 
business concerns. Thus GSA is participating under the 1122 
program with a supply strategy that provides these state and 
local entities with a choice of a substantial number of small 
business concerns.

                         EXECUTIVE ORDER 13101

    Mrs. Northup.  Do I have time for a follow-up?
    Mr. Kolbe.  One minute.
    Mrs. Northup.  One minute. I am proud to ask a question on 
behalf of the Post Office. They have an enormous amount of junk 
bulk mail. Because of GSA's restrictions, they are unable to 
sell it and buy recyclable paper that has been ground up 
because of the Brightness Specifications.
    Yet, I have an Executive Order here where one of the 
sections asks for GSA to revise the Brightness Specifications 
and standards in order to remove barriers for recycling. This 
is very important to the Post Office.
    They deal in paper probably as much as any part of the 
Federal Government. I wonder if you have any plans to revise 
the standards for their recycling?
    Mr. Barram.  Donna Bennett is the Deputy Commissioner of 
the Federal Supply Service.
    Ms. Bennett.  The language in the Executive Order, I 
believe, is the same language that has been in place since 
1994, in the previous Executive Order.
    GSA does have an ongoing policy of reviewing any kind of 
impediments and has been doing that continuously throughout the 
last 5 years. In terms of the specific issues raised by your 
question, none of us are familiar with them. I had some 
opportunity to talk to our people last night and this morning.
    We would certainly like to follow-up on it and figure out 
if it is an issue that we have overlooked. We have no record of 
it. We believe we are in conformance with the Executive Order.
    Mrs. Northup.  What I am asking is why would you not want 
the Post Office to be able to grind up and reuse as much of 
their bulk paper as they have?
    Ms. Bennett.  Certainly, we have no policy directive.
    Mrs. Northup.  Okay. Thank you.
    [The information follows:]

    GSA does not preclude any entity from recycling or buying 
any type of paper. GSA is open to providing a variety of paper 
products with alternative compositions through its supply 
system to accommodate agency requirements, and welcomes the 
opportunity to do so
    A review of Executive Order 13101 was completed. GSA's 
Federal Supply Service is in accordance with all applicable 
requirements of Executive Order 13101, as it was with respect 
to the requirements of the preceding Order 12873. (The 
requirement to review the brightness standards and 
specifications was originally introduced in the preceding 
order, and was perpetuated in the new order.) In some 
instances, we eliminated references to brightness because they 
were considered unnecessary. For some items, however, there are 
requirements to comply with Joint committee on Printing (JCP--
an agency of the Congress) specifications, which include 
certain brightness levels.

    Mr. Kolbe.  Thank you. We need to get on with the Judge as 
soon as possible. I have a number of other areas of questions. 
I will submit most of them.

                      RENT FOR TRUST FUND AGENCIES

    I will try to keep my second round very short. I do want to 
ask one very important issue here. About the differential in 
the rents that are charged to the Social Security 
Administration, the Railroad Retirement Board and Health Care 
Financing Administration. You indicate that you are working to 
eliminate the rent support that you now provide these trust 
fund agencies.
    What is the difference between the rental rates that is 
determined for those agencies? Why are they determined 
differently?
    Mr. Peck.  Mr. Chairman, the answer in dollar terms is 
about $100 million a year of revenue that the Fund does not 
get.
    Mr. Kolbe.  $100 million a year?
    Mr. Peck.  Yes, sir.
    Mr. Kolbe.  It does not come into the Federal Buildings 
Fund. So, that is $100 million a year not available for 
projects elsewhere?
    Mr. Peck.  Yes, sir.
    Mr. Kolbe.  Why does this differential exist?
    Mr. Peck.  That is a good question. First, I would like to 
thank the Subcommittee for holding our feet to the fire on some 
other agencies on which we have eliminated cost reductions, and 
last year realized additional rent of about $80 million.
    There is a history here. When we went back into it, there 
were all kinds of stories about why this started. We finally 
decided not to try to figure out how it started, but to try to 
come to closure on it. We have asked Social Security, RRB, and 
HCFA to come up to talk to us about going back to full rent.
    Mr. Kolbe.  What has been the response? I am sure they are 
thrilled about the idea of paying more rent.
    Mr. Early.  We wrote them a very strong, clear letter.
    Mr. Peck.  I do not know that we have a final closure on 
that. I think we are going to have a good story to tell you in 
the next fiscal year.
    Mr. Early.  Recognizing that it would be a budget issue, we 
have engaged them in conversations, presented our case, had 
good discussions with them, and have indicated the numbers that 
they should be putting in their budget for 2001, giving them an 
opportunity to budget for it. That will be the discussion this 
summer, as long as everyone is in agreement.
    Mr. Kolbe.  So, there is nothing in the 2000 budget for 
these agencies.
    Mr. Early. That is correct; not for those.
    Mr. Peck.  It is for Agriculture and some others.
    Mr. Kolbe.  There are others, besides the Trust Fund 
agencies.
    Mr. Peck. There used to be Agriculture, FDA, and years 
back, DOT. All of those rent control discounts have been 
eliminated. The only ones left are Social Security, Health Care 
Financing, and Railroad Retirement.
    What they pay us are actual costs rather than a market 
equivalent rent. That is the differential. It is the 
differential between those two that is $100 million.
    Mr. Kolbe. Well, I think maybe this Subcommittee needs to 
write a strong letter to the Chairmen of the other 
Subcommittees that fund these agencies and tell them they had 
better start paying or else let us not hear anything about 
courthouses and other kinds of projects that need to be built.
    This directly affects that kind of thing, in terms of how 
much money do we have in the Buildings Fund. My understanding 
of this is that this goes back to a 1975 appropriation act, 
which I presume would be only good for a year.
    Mr. Early. What we found was there was report language 
dealing with Social Security that indicated an intent, because 
these were trust funds, that they should be on an actual cost 
basis.
    For the Retirement Board, there was a specific statute that 
said that they were to be charged only on an actual basis. Then 
that statute was repealed with an encouragement that they 
negotiate with GSA with a desire of continuance of actual cost.
    The statute was gone. That is where our legal case has 
become very strong on saying there is really nothing that 
indicates they should not be paying us. We have provided that 
lengthy opinion to those agencies.
    Mr. Peck. Mr. Chairman, the Executive Branch takes report 
language very seriously.
    Mr. Kolbe. When it is convenient for them.
    Mr. Barram. I was going to say, Mr. Chairman, that is a 
situational policy.

                                per diem

    Mr. Kolbe. Mr. Hoyer.
    Mr. Hoyer. Because the Chairman wants to close, I have 8 
pages of questions. Let me ask two and let me also make an 
observation first.
    With regard to the differential in terms of per diem 
reimbursement, you are correct. You said there were 435 letters 
from members of the House. I asked my Staff if we only sent one 
letter. I was concerned about that. I want to escalate my 
concern. My letters are like report language. If not, why not?
    One of my concerns, Mr. Barram, is when you have an area, 
i.e., Pax River, where exclusively, for all intents and 
purposes, the market is driven by Government rates, you have 
facilities that are necessary to be provided for, much like 
facilities at Pax River, but your market rates will not drive 
and make it cost effective to construct such, you are in a 
Catch-22 where the Navy will lose, the government will lose, 
and the locality will lose.
    We need to come to grips with that. I will ask you to 
answer.
    Mr. Barram. That is a very good point. We need to think 
about how to respond to that.
    Mr. Hoyer. Okay.
    [The information follows:]

    In establishing the lodging portion of the per diem rates, 
we hire an independent contractor to conduct an annual survey 
of approximately 600 locations throughout the country. That 
survey involves directly contacting properties in the 
designated survey location and gathering information from them 
to use in the rate development. The properties contacted have 
to be either two or three star/diamond rated facilities (as 
rated by AAA or Mobil) and have to be on the fire safe list 
maintained by the Federal Emergency Management Administration 
(FEMA). The contractor is responsible for assuring that the 
data used has a 95 percent confidence level, plus/minus a 2 
percent precision level.
    To insure that room supply met room demand, the number of 
Federal travelers was obtained from American Express, the 
Government's charge card vendor at the time. To compensate for 
the fact that not all Federal travelers use the Government 
charge card (approximately 52 percent use the card), we doubled 
the room night demand. Accordingly, the per diem rates for all 
locations surveyed were based on the Government rate charged 
without taxes and the total number of room nights available at 
that rate from Monday through Thursday, as supplied by the 
property, compared to the number of room nights required by the 
Government travel.
    For the 1999 rate in St. Mary's County, four properties are 
listed in the universe per the data received from the 
contractor. Three properties were surveyed, only two are on the 
FEMA list. The 1999 per diem rate was set at $59 which covers 
the two properties that will meet the Government's estimated 
need of 248 rooms per night. This rate covers a two and a three 
star rated property.
    The per diem rate system is designed to reflect the current 
lodging marketplace. By doing so, it allows Federal travelers 
to obtain lodging accommodations at appropriate facilities. As 
long as the marketplace can provide sufficient rooms at 
appropriate facilities to meet the Government's room night 
needs, then the purpose of the per diem rate system has been 
met.

                    ronald reagan building security

    Mr. Hoyer. Now, I do not want to leave this hearing 
without, and I raised it at the beginning, the Ronald Reagan 
Building. Obviously, there was a story in the Washington Post.
    Quick questions. First of all, in 1995 we estimated that 
more than a quarter of a billion dollars was needed for 
building security improvements following the bombing in 
Oklahoma.
    Since that time, I want to know how much you have spent. 
The decision now that we are apparently going to charge the 
agencies for perimeter security, cost-back rather than taking 
it as a central cost.
    Thirdly, specifically comment on the Reagan Building 
itself.
    Mr. Barram. Go ahead and talk about the first one. We will 
talk about the Reagan Building third.
    Mr. Peck. I will talk about the numbers. What we have done 
is, since fiscal year 1994, prepared a table in which we tried 
to figure out what we were spending on security before and what 
we have spent in addition.
    I will just give you the numbers straight out. Had we 
straight-lined our security costs for the previous 6 fiscal 
years, we would have spent $600 million on security. We have 
spent $1.2 billion. So, we basically doubled our spending on 
security since fiscal year 1994. We did spend $200 million on 
capital security equipment, since the Oklahoma City bombing. 
That is to take care of some 8,000 or so security 
countermeasures which we identified in Federal buildings and in 
some lease locations all over the country. We have spent, in 
addition to that, an additional $1 billion in operating 
expenses.
    The operating expenses include a large number of the 
countermeasures and a doubling of the number of security guards 
that we have in the buildings. So, you have equipment and you 
have personnel.
    Mr. Hoyer. Does this include perimeter security costs in 
the emergency costs.
    Mr. Peck. A part of this is an accounting change that makes 
apparent on a bill what we did before, which is that we always 
included in our bills before an additional amount for security, 
and on the following theory:
    That the Federal Government is required to charge a 
commercially equivalent rent. In most cases, we are now 
charging more than commercially equivalent because we are doing 
more than commercial buildings do in security.
    We have a higher threat. What we did do is break out our 
security costs on the bill so that our customers can see what 
they are paying for security. I will be the first to tell you 
that I think we made it more complicated than we had to.
    We broke it out into subsets of security. We are going to 
go back and take a look at that. We do in fact charge, in a lot 
of cases, different amounts for security. One thing I will tell 
you we are changing.
    We are reengineering our Federal Protective Service to make 
it more of a community policing organization, to recognize that 
the mission changed fundamentally on April 19, 1995.
    So, we were charging before for something called patrol and 
response, which is a very old, I think, ineffective police 
operation, in which you rode around in cars waiting for 
something to happen, then everyone converged on the spot after 
the deed happened. We are changing to a more proactive 
response.
    We are not going to charge people for this so-called patrol 
and response. We are going to deploy our uniformed officers in 
many more cities than they were before. So, to some extent, 
some agencies are going to see some increased security charges, 
but it is in return for increased security.
    Mr. Barram. The Ronald Reagan Building. Let me talk about 
that maybe in three or four categories. One, by law, it is a 
public building, as well as a building where Federal agencies 
are housed and where the Trade Center is housed. It is a big 
building.
    Of the space, two-thirds of the office building is occupied 
by Federal agencies; and one-third is occupied by the Trade 
Center. That is 1.23 million square feet and .5 million square 
feet. So, that is a lot of space, but it is a public building.
    It was designed to be a public building and to have an 
impact for the public and that segment of Washington. It is a 
beautiful building, as you know.
    Second, we asked a number of security specialists, 
including Sandia Labs, which you will know from the newspaper 
article plus others, and some other people to give us their 
assessment of how we were doing at security.
    Security is more complicated in a building like that. 
Sandia Labs gave us a confidential report which someone saw fit 
to leak to the press. The report was dated back in November 
1998.
    We have since reviewed those recommendations, adopted a 
whole bunch of them, such as having a security manager 
specifically for that building. The article in the paper, 
unfortunately, implied that we had not paid any attention to 
those recommendations, which were simply recommendations.
    The tenor of the report actually was that we should make it 
a non-public building. It would be more secure that way, which 
is true, but that is not where we are going. When you walk into 
that building and you want to go to any Federal agency office 
space, you go through security; magnetometers, guards, IDs, the 
whole thing. We have also guards roaming the building.
    We also have a precinct of our Federal Protective Service 
in that building. That is how serious we are about that. We 
also check vehicles entering public parking down below.
    If you are a public parker, your car gets checked. We look 
in your trunk. A Barringer type device goes around your car to 
see if there are explosives. If you do not pass, you do not go 
in.
    If you try to go past that, we can pop bollards up real 
fast and those will stop you. So, we have very good security on 
parking, and on people walking around. If a truck comes to 
unload and has not notified us 24 hours in advance, he cannot 
get in without a lot of connecting with people inside the 
agency.
    When a truck goes to off-load products, they go to 
particular loading areas. Having been pre-approved, there are 
magnetometers. There are x-ray scanners. There are back scatter 
scanners. We are doing things there to make that building as 
secure as it possibly can be.
    Mr. Hoyer. It is as you have observed: public buildings. We 
are not doing fortress America. We are trying to make our 
public buildings safe and yet inviting to the public.
    I think the Ronald Reagan Building is both safe and a 
spectacular piece of Government construction and architecture.

                              1122 program

    Mr. Kolbe. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    I know we are trying to wrap up here. So, I will touch very 
briefly on several items.
    On the earlier discussion regarding the 1122 Program, I 
think it would be useful for the Subcommittee to have in the 
record these six pages of schedules that are included in this 
program, with an indication of a number of items that were 
added as of February 17th of this year.
    So, I would like to ask that that be included. I think it 
will help us.
    [The information follows:]

[The official Commmittee record contains additional material here.]


                         executive order 13101

    Mr. Barram. Can we have a copy of that today so we can get 
working on it?
    Mr. Price. Certainly. I would be happy to make that 
available to you. If there is some error or some problem with 
it, you could perhaps correct it for the record.
    On the earlier discussion about Executive Order 13101 and 
the recycled paper issue, I understand you are being directed, 
number one, to ensure that all paper products used by the 
Federal Government contain at least 30 percent recycled 
materials.
    You are not permitted to list paper on the Federal Supply 
Schedule that does not meet this standard. Number two, you are 
asked to review the Brightness Standard for paper products 
within 6 months so that any specifications that are really 
unrelated to performance would be eliminated. The idea being, I 
take it, to perhaps use a wider range of recycled products. It 
seems to me there is some tension between those two 
requirements.
    I wonder if they are compatible. So, I look forward to the 
information you are going to provide for the record about how 
the implementation of this Executive Order is proceeding; what 
you are doing to ensure that more environmentally sound 
products are the standard; and when you anticipate the 
completion of the work on this Brightness Standard. I do not 
know if there is any comment you would like to make.
    Mr. Barram. Donna Bennett can answer it somewhat more 
specifically. Let me just say one thing. We made the decision 
in our Federal Supply Service to only offer our customers 
recycled content paper.
    Our customers, I have to tell you, wanted to buy unrecycled 
paper. So it has, frankly, decreased the volume of sales that 
we have had in the paper side of our business, which is a 
difficult problem when you are trying to run a business and 
keep costs below revenue.
    So, we made that decision because it was the right thing to 
do. We are constantly working on this. Donna, do you want to 
comment or do you want to just get something to him?
    Ms. Bennett. I think it will be helpful when we put 
together a full background on this for you.
    [The information follows:]

    A review of Executive Order 13101 was completed. GSA's 
Federal Supply Service is in accordance with all applicable 
requirements of Executive Order 13101, as it was with respect 
to the requirements of the preceding Order 12873. (The 
requirement to review the brightness standards and 
specifications was originally introduced in the preceding 
order, and was perpetuated in the new order.) In some 
instances, we eliminated references to brightness because they 
were considered unnecessary. For some items, however, there are 
requirements to comply with Joint Committee on Printing (JCP--
an agency of the Congress) specifications, which include 
certain brightness levels.

                             per diem rates

    Mr. Price. I do have one further question and limited time. 
So, I will await that, unless there is something urgent that 
you would like to add at this point.
    Ms. Bennett. There is not.
    Mr. Price. All right. Well, we will look for that and also 
an update on where this Brightness Standard issue is going that 
apparently would let us use a wider range of recycled products.
    Briefly, I want to touch on per diem rates. This, too, will 
mainly be something for the record. We have a problem in our 
area, as many people do. We have been working with you at the 
staff level on this.
    I notice on your Web Page it says now, effective March 15, 
1999, GSA will no longer accept requests for reevaluation of 
1999 per diem rates. I do not know quite what that means.
    We have been working at the staff level on this, but it has 
not yet yielded results. I would like to have an update on 
where we are and what we might do.
    [The information follows:]

    The March 15th date has been removed from our website due 
to the confusion with the May 1st date. GSA was trying to 
expedite the rate appeal process and we ended up creating a 
confused situation. May 1st has historically been shown as the 
date that an agency can submit a location for inclusion in the 
survey for the next year. The Federal Government travels to 
approximately 8,000 locations in the continental United States. 
We establish a standard rate for the entire country--$50 for 
lodging and $30 for meals/incidental expenses in 1999. This 
applies everywhere in the continental United States. 
Recognizing that there are locations that such a rate is not 
adequate, we also conduct a survey of designated locations to 
determine if the rate for that area needs to be above the 
standard rate. This covers approximately 600 out of the 8,000 
locations each year. Even just surveying the 600 locations 
requires our contractor to contact almost 6,000 lodging 
properties and another 6,000 restaurants. With the complexity 
of gathering data from that many sources, we provide the 
contractor with a list of the designated locations by May 1st 
so that it can organize, conduct, and summarize the survey in 
time for rates to be set for the next year. For simplicity 
sake, we survey all locations listed with designated rates from 
the previous per diem effort and add any new ones that agencies 
report to us. It is these new ones that have to be in to us by 
May 1st so we can provide them to the contractor.
    We have not had a cut-off date for requests to re-survey 
existing rates in the past. The confusion that we created this 
year was to try to make it an easier process by asking for re-
survey requests by March 15th. We selected March 15th because 
we had the contractor responsible for the 1999 rates under 
contract until March 31st. Consequently, it would have been 
easy to ask them to conduct a re-survey since they did the 
original one. After March 31st, we do not have a contractor 
until the contract is let for the year 2000 survey (probably in 
late April), but even then they will be focused on the upcoming 
survey. We will certainly entertain requests for re-surveys 
throughout the year.

                    research triangle per diem rates

    Mr. Price. The problem, very simply, is the way the rates 
operate in the Research Triangle area of North Carolina. We 
have Raleigh, Durham, Chapel Hill, and Research Triangle Park.
    You are separating the per diem rates for Durham and 
Research Triangle Park, which for reasons we have made very 
clear I think make no sense at all. There is only one hotel in 
Research Triangle Park proper.
    Most of these hotels that serve the Park are in the City of 
Durham, in fact. I do not think you took that into account in 
compiling the 1999 per diem rates. You list Research Triangle 
Park as a key city separate from Durham.
    I do not know what sense that makes. I would think you 
would want a single per diem rate for the area. I have asked 
that you review that. Maybe you can tell me what kind of time 
table we can expect in getting that examined.
    Mr. Barram. Would you like us to make an exception to the 
March 15th for you?
    Mr. Price. Well, if that is what it takes, yes.
    Mr. Barram. We would be happy to do that.
    Mr. Price. All right. Well, I will count on that. I will 
look forward to working with you and your staff on this.

                            governors island

    Mr. Kolbe. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Since we have talked at great length and ad nauseam about 
per diem, I will not labor about the concerns we have on Long 
Island. Real quick because I do not want to indulge the 
Subcommittee too much here.
    Governors Island, Mr. Peck if you could. I know that GSA 
has taken over responsibility for overseeing Governors Island 
until I guess the sale takes place.
    Mr. Peck. Right.
    Mr. Forbes. What is set aside in the budget to maintain and 
oversee of Governors Island? Is it $10 million?
    Mr. Peck. $10 million in fiscal year 2000. Just for the 
record, the budget agreement, the balanced budget agreement, 
anticipates the sale of Governors Island in fiscal year 2002.
    So, we have 2 more years, unless we sell sooner to maintain 
the Island. $10 million is enough to do that, if we only hold 
for a short period.
    Mr. Forbes. I think we are all very optimistic, including 
the Mayor of New York on that prospective sale. I am assuming 
the agency feels that, that is a sufficient amount to take care 
of the needs for the coming fiscal year?
    Mr. Peck. Like I said, if it is only a short-term hold, we 
can maintain it. I mean, if this stretches out, we are not 
doing some long-term things that are being held off until 
somebody else takes over.
    Mr. Forbes. If I could, just for the record, maybe the 
agency could provide for me kind of a state of things at 
Governors Island; how it is and what some of those needs are. 
So, that we need to at least be anticipating.
    Mr. Peck.  We would be happy to.
    [The information follows:]

[The official Commmittee record contains additional material here.]


    Mr. Forbes.  Thank you very much.
    Thank you, Mr. Chairman.

                             per diem rates

    Mr. Kolbe.  Mr. Hoyer just suggested, and I think it is a 
good point. Just to clarify, you referred to closing out on 
March 15th. I think there are a number of other members that 
have some concerns.
    Mr. Barram.  What I should have said is that we will do 
something about the March 15th date.
    Mr. Hoyer.  Mr. Chairman, if you would yield. This is a 
real problem. It is not just a political constituent problem.
    It is a community problem. That I mention this in terms of 
whether you can produce housing that the Government needs. This 
is a particular problem in my area where the Government is the 
only essential buyer, and in every area when. For instance, Mr. 
Price mentioned that you have differentiated one hotel, while 
the competitive community is in the surrounding area in Durham.
    In my case, we went around some years ago where you had 
differential rates for Solomon's Island which is across the Pax 
River, 10 minutes away from the hotel with which it is 
competing.
    The differential rates allowed Solomon's to charge more 
than the Pax River rate. Because this is a serious problem, Mr. 
Barram, I think we really do need time to work on it.
    Mr. Barram.  We will not be constrained by a March 15th 
date.
    Mr. Hoyer.  Thank you, Mr. Chairman.
    Mr. Kolbe.  Thank you. Ms. Meek.
    Mrs. Meek.  Thank you, Mr. Chairman. I have no questions.

                   accessible information technology

    Mr. Kolbe.  Ms. Roybal-Allard.
    Ms. Roybal-Allard.  This will be very, very quick.
    In your budget overview, you requested $10 million for 
accessible information technology programs for the President's 
initiative to promote and support employment of individuals 
with disabilities. Could you elaborate on that? In the interest 
of time, please provide me with more information for the 
record.
    Mr. Barram.  I will be happy to do both. $8 million of that 
is to help increase the capacity of individual agencies to use 
disability technology to help people who are disabled work 
better.
    Two million of it is to develop an independent learning 
laboratory to assess how we can make this technology work 
better. We have a couple of people who are working on this 
full-time.
    We can provide you more information if you would like. It 
is a new initiative.
    Ms. Roybal-Allard. I would appreciate that.
    [The information follows:]

[The official Commmittee record contains additional material here.]


    Mr. Kolbe.  Thank you very much.
    We have some other questions which we will submit for the 
record.

                               conclusion

    We thank you very much, Mr. Barram, for you and Mr. Peck, 
Mr. Early, Ms. Bennett for being here and all of your teams.
    Thank you.
    [Questions submitted for the record and selected budget 
justification materials follow:]

[The official Commmittee record contains additional material here.]


                                         Wednesday, March 17, 1999.

COMMITTEE ON SECURITY AND FACILITIES OF THE JUDICIAL CONFERENCE OF THE 
                             UNITED STATES

                                WITNESS

JANE R. ROTH, MEMBER, COMMITTEE ON SECURITY AND FACILITIES; JUDGE, 
    UNITED STATES COURT, THIRD CIRCUIT

                           opening statement

    Mr. Hoyer. Judge Roth, we want to welcome you to the 
Subcommittee. We know the Judicial Conference has significant 
concerns that have been expressed in the previous questions 
that were asked of Mr. Barram.
    We would be very pleased to hear your comments on behalf of 
the Judicial Conference. Judge Roth, as some of you may know, 
is Senator Roth's wife and a very distinguished jurist in her 
own right. We are pleased to have her with us.
    Judge Roth.  Thank you, Mr. Hoyer.
    Members of the Subcommittee, my name is Jane Roth. I serve 
as a judge on the Third Circuit Court of Appeals, and as a 
member of the Judicial Conference's Committee on Security and 
Facilities.
    Judge Norman Stahl, the Chairman of the Committee, 
apologizes that he cannot meet with you today. We greatly 
appreciated meeting with Chairman Kolbe and Congressman Hoyer 
last month to discuss the courthouse program.
    I also appreciate the opportunity to appear before you to 
discuss both the judiciary's continuous efforts to improve 
management of the courthouse construction program and the 
fiscal year 2000 courthouse projects that have been prioritized 
in our 5-year courthouse project plan. My appearance here today 
marks the first time this Subcommittee has afforded the 
judiciary an opportunity to discuss its views with you on the 
courthouse program.
    We have worked closely with the Congress and GSA on the 
courthouse construction program. We have what I would view as 
an excellent working relationship with the Subcommittee and its 
staff. Our work together has been productive and the judiciary 
sincerely appreciates the funding you provided for courthouses 
last year.
    However, on February 1st, President Clinton submitted a 
fiscal year 2000 budget to Congress that, again, contains no 
funding for the federal courthouse construction program. This 
is the third consecutive year that the Administration has 
failed to include funds requested by the General Services 
Administration for this purpose, jeopardizing current and 
future construction projects, and forcing courts to continue 
operating in facilities that are unsafe, overcrowded, and 
substandard. A listing of the 17 projects is attached to my 
statement. We will submit separately a detailed justification 
for each project.
    We also hope the Subcommittee will fund nine repair and 
alteration projects for buildings which house courts. Six of 
the repair and alteration projects were in fact included in the 
GSA budget request. However, three of the projects for building 
systems and infrastructure in New York City, New York; 
Portland, Oregon; and Salt Lake City, Utah were submitted by 
GSA to OMB, but were not approved for inclusion in the repair 
and alteration budget request. A list of all nine repair and 
alteration projects also is attached to my statement. Based on 
the best information we have, it is estimated that $579 million 
is needed in fiscal year 2000 for the 17 courthouse 
construction projects. This amount is subject to change, 
pending further discussion with GSA. Funding in the amount of 
$83.1 million is needed for the nine repair and alteration 
projects; $45.4 million of which was included in the 
President's budget request.
    Delayed funding of scheduled courthouse projects will 
result in significant cost increases. GSA estimates 
construction costs increase an average of 3 to 4 percent for 
each year of delay. The cost of scarce urban sites is expected 
to increase dramatically. The absence of funds will not only 
delay the fiscal year 2000 courthouse plan for at least a full 
year, but will adversely impact all courthouse projects in the 
coming years.
    As I noted, this is the third time in the past 3 years that 
the federal courthouse construction program has been 
threatened. Courthouse funds were not included in the 
President's budget request to Congress in fiscal year 1998, 
supposedly because of a significant deficit in the Federal 
Buildings Fund. In fiscal year 1999 funds requested by GSA for 
court facilities were excluded from the President's budget 
request in order to fund other Presidential priorities. These 
actions were taken without any consultation with the Judiciary. 
In response to the Judiciary's plea for funding in fiscal year 
1999, Congress did appropriate the funds necessary to continue 
the courthouse construction program. We appreciate the 
difficulty Congress faced trying to find the money for 
courthouses last year when there was none in the budget.
    Judge Stahl met in December 1998 with White House Chief of 
Staff, John Podesta, and OMB Director, Jacob Lew to discuss the 
need to continue the courthouse program in fiscal year 2000. 
Unfortunately, once again our request to include funding in 
GSA's budget request was not approved by the President.
    Because of this funding failure, the judiciary is seeking a 
legislative remedy to the impasse with OMB. Under the current 
process for funding and authorization, the judiciary transmits 
its request for courthouse projects to GSA. OMB must then 
approve GSA's proposal for courthouse projects before they can 
be included in the President's annual budget request. I call 
your attention to 31 U.S.C. 1105(b), which requires the 
President to submit the budget request of both the legislative 
and judicial branches for congressional consideration, without 
change, each year. Because courthouse construction is by 
statute a GSA responsibility, these construction budget 
requests have come through GSA, making them the only aspect of 
the judiciary's funding requirements that OMB has authority to 
alter. OMB has used its authority to reject judicial branch 
courthouse funding requests in favor of Presidential 
priorities. In our view, this makes little sense and is unfair. 
It causes tremendous problems for the judiciary, wastes 
countless hours of time, and significant amounts of money 
invested by GSA and the judiciary to study the feasibility of 
these projects. It also places the Congress in the position of 
having to find the funding for the projects from other areas 
with an already tight budget cap.
    The judiciary believes we should now consider a legislative 
remedy that, if enacted, would provide the judiciary with clear 
statutory authority to submit a courthouse construction funding 
request directly to the Congress without being subject to the 
political pressures faced by OMB each year as it sets 
priorities for the executive branch. Our proposal would not in 
any way change the oversight authorities of GSA. It would not 
change its benchmarking of our projects. Our request would not 
in any way change the oversight authorities of Congress related 
to courthouse construction. It also would not change the 
jurisdiction of this Subcommittee with regard to the funding of 
the projects. The Judiciary's appropriation request would be 
based on GSA cost estimates. GSA would still be responsible for 
constructing the buildings. The intent of the proposal is 
simply to ensure that a funding request is transmitted, without 
change, in the annual unified budget submission for your 
consideration each year. We have been discussing this proposed 
legislation with members of Congress and hope you will consider 
endorsing and co-sponsoring this initiative.
    In recent years, the judiciary has continually reviewed and 
significantly improved the operation of the courthouse 
construction program. It has been nearly 12 years since the 
judiciary last conducted an independent management review of 
its facilities program. Later this month, as a part of our 
ongoing commitment to cost containment and program assessment 
and evaluation, we will embark upon a major top-to-bottom 
review of our entire space and facilities program. We 
anticipate that a major independent consulting firm will assist 
us with this review. It will address our long-range facilities 
planning, design assumptions, internal space management 
policies, business practices, the issue of courtroom sharing 
and utilization, funding mechanisms, and resource allocation 
strategies.
    A critical dimension of the study is to solicit the views 
of interested Congressional committees and others in the 
Congress, GSA, OMB, and the General Accounting Office, judges, 
attorneys, the United States Marshals Service and other court 
users as necessary throughout the course of this study. We will 
keep you informed of our progress. In the meantime however, it 
is critical that the courthouse construction program continue 
to move forward.
    I would also like to mention the fiscal year 1997 problem 
already discussed by GSA. The Administration has proposed a 
general provision in GSA's fiscal year 2000 budget submission 
to prevent the lapse of these funds. The law as now written 
could affect major new courthouse projects in Brooklyn, New 
York and in Cleveland, Ohio. Other projects also might be 
affected. We hope you will consider taking prompt action on 
this GSA request well in advance of the close of this fiscal 
year.
    Concerning courthouse construction projects, the judiciary 
continues to review and update its prioritization of projects 
using a weighted scoring methodology. By continuously reviewing 
our priorities, we are able to ensure that changing 
circumstances at a particular location are taken into account 
so that necessary adjustments can be made. I am pleased to 
report that the process we established in response to Congress' 
suggestion that all projects be ranked in order of priority has 
worked quite well.
    A courthouse project is not proposed for consideration 
unless the district's long-range facility indicates there is no 
more room for judges in the existing facility. The independent 
study we are undertaking will also review this process to 
ensure that it is effective.
    Turning to courtroom assignment and use, the Judicial 
Conference has adopted a policy on courtroom sharing that 
balances the essential need for judges to have an available 
courtroom to fulfill their responsibilities, with the economic 
reality of limited resources. It continues the standard of 
providing one courtroom for each active district judge. In 
addition, with regard to senior judges who do not carry a 
caseload requiring substantial use of a courtroom and visiting 
judges, the policy sets forth a non-exclusive list of factors 
for circuit councils to consider when determining the number of 
courtrooms needed at a facility.
    All circuit councils have developed courtroom sharing 
policies for senior and visiting judges. Implementation of 
these policies will assist the judiciary in its continuing 
effort to contain the cost of court facilities, while ensuring 
that the appropriate number of courtrooms necessary to fulfill 
its constitutional mission are provided. Our policy and the 
whole issue of courtroom utilization will also be studied by 
the independent consultant reviewing our facilities program 
over the next 12 months.
    In summary, a number of new courthouses have been occupied 
over the past 18 months. Public reaction has been very 
favorable. The courthouses being delivered by GSA today are 
high quality, operationally efficient buildings that should 
last well into the next century.
    Many lessons have been learned as the Congress, GSA, and 
the judiciary have worked together over the past several years 
on the courthouse program. We have incorporated many of the 
recommendations made by this Subcommittee into our planning 
process and design standards in order to improve management of 
the program. We will be studying whether there are more ways to 
control costs and to make the program even more effective in 
the months ahead. The judiciary hopes the Subcommittee will 
recognize the actions taken by the Judicial Conference as 
evidence of the judiciary's commitment to a productive and 
cooperative working relationship. We ask that you take action 
to appropriate funds for the new construction and repair and 
alteration projects on the attached list in fiscal year 2000.
    I will be pleased to answer any questions you might have at 
this time.
    [The prepared statement of Judge Roth follows:]

[The official Commmittee record contains additional material here.]



                           status of projects

    Ms. Northup [presiding]. Thank you, Judge Roth.
    I just have one question before the Chairman resumes the 
seat. You were talking about including new projects in the 
budget that you have requested. I wondered what the status was 
of projects that Congress has included in past budgets that 
have not been acted on.
    Specifically, I am thinking of the 1997 budget. Two 
projects that were in Kentucky, one in Covington, and one in 
London. Now, I see that last year, despite OMB's zeroing out 
that account, that we do have a list of projects that were 
included in the budget.
    Is the Administration going forward on any of those 
projects?
    Judge Roth.  I understand that these projects may be 
threatened by the glitch in the fiscal year 1997 appropriation. 
I am not sure of the status of these projects. I would be very 
happy to provide you with a written update of them.
    Ms. Northup.  Would the failure to act on those be an 
exception? Are the projects in last year's budget going on as 
written into the bill?
    Judge Roth.  I am not sure of the list of courthouses 
affected by the fiscal year 1997 appropriations. I am not sure 
of which projects might have funds lapse and which projects 
will not have funds lapse.
    I will be very happy to provide you with a written status 
report on that.
    [The information follows:]

    The judiciary requests that the status of the Covington and 
London projects in Kentucky be obtained from GSA. GSA has 
responsibility for these projects and would be able to provide 
the most up-to-date information.

    Ms. Northup.  Thank you.
    Mr. Kolbe  [presiding]. Mr. Hoyer.

                       impact of a funding delay

    Mr. Hoyer.  Thank you very much, Mr. Chairman.
    Judge, you have referenced this, but perhaps if you could 
focus on it particularly. What do you think would be the effect 
of the one-year delay. We had a moratorium. Then we had no 
funding.
    We came up with a half a billion, approximately. We are 
obviously trying to look for a half billion this year as well 
to fund the priority projects. What would your observation be 
as to if we cannot do that, what is the impact. Obviously, that 
will help us in terms of convincing people as to why we need to 
do it.
    Judge Roth.  I think there would be a two-fold impact. One 
prong is the increase in construction costs. We would base this 
on the construction cost index increase every year, which to my 
understanding is about 3 to 4 percent.
    The other impact would be on the projects that we have in 
years to come. We have our list of priorities for the year 
2000. We have the list for fiscal year 2001, 2002. We have a 5-
year plan.
    These projects would each have to be moved one year later. 
These projects are for courthouses that are lacking space, that 
are having security problems, that have been studied by us and 
have a demonstrable need.
    These projects should be built. To delay funding one year 
will put them all off one year further into the future.
    Mr. Hoyer.  If you can, if you would tell me if you know, 
and if not, we can submit this for the record. What is the 
total cost for the completion of the 5-year plan?
    Judge Roth.  I do not have that. I will be happy though to 
submit it for you.
    Mr. Hoyer.  It has been $500 million a year. I suppose it 
is $2.5 billion for a 5-year plan. I am not sure about that. In 
any event, if you could provide that for the record, that would 
be helpful.
    Judge Roth.  I will be happy to.
    [The information follows:]

    The cost of the five-year plan of courthouse construction 
for fiscal years 2000 through 2004 is as follows ($ in 
millions):
    FY2000--579.4
    FY2001--667.8
    FY2002--542.9
    FY2003--566.5
    FY2004--188.7
    Total--2,545.3

                 direct submission of courthouse budget

    Mr. Hoyer.  Now, you have told us that you are seeking a 
legislative remedy to the problem of OMB reducing or 
eliminating the budget request. There were concerns raised by 
GSA, obviously. You have addressed, I think, some of those in 
terms of control.
    There is a concern that GSA obviously has, however, about 
if the judiciary can ask for the working up of a prospectus and 
other documentation necessary for the submission of a project, 
the control over how they are going to allocate their resources 
will somehow, to some degree, be taken out of their hands.
    Is there a provision of your legislative proposal that 
would, in effect, allow GSA to participate with the judiciary 
in trying to figure out its own allocation of resources in 
terms of preparation of those plans and preparation for 
submission?
    Judge Roth.  Absolutely. Our plan would not change GSA's 
role in the preliminary planning. We say we need a courthouse 
or we need more space, more security in a particular location. 
GSA looks at what is there, confers with us about what can be 
done, what needs to be done. We work with GSA to prepare the 
prospectus for the construction that is needed, using its 
expertise on how best to use the buildings that are there, on 
how best to use the space that is there.
    We then will present that, not only to Congress for your 
oversight and your review of whether this really is necessary, 
but we will present it to OMB so that they can look at it and 
say whether they believe that the projects are necessary or 
whether the expense can be reduced. In saying that we wish to 
present our budget directly to Congress, we are not in any way 
indicating that OMB should not have the ability to criticize 
any projects that we suggest.
    As we mentioned, too, the Congressional committee oversight 
and review of our projects would exist as it does today.
    Mr. Hoyer.  I appreciate it very much. Obviously, this is 
going to be a controversial proposal for both authorizing 
committees and, to some degree, the appropriating committees, 
as it was with GSA.
    It is clear, Judge, I think that we need to at least, at 
the very least, have an understanding of how we can get these 
projects which the Congress clearly believes ought to be done, 
on the list, funded, and forwarded to GSA for completion.
    I might say that I know the judiciary, you did not mention 
this in your statement, but the judiciary, I am sure, is very 
pleased with Chairman Kolbe's leadership in the sense that we 
have worked strictly within the frame work of the priorities 
that you have set forth and that the Office of the Court, 
Administrative Office, set forth, and did not in any way impact 
those with extra projects added on. I think that was as a 
result of Mr. Kolbe's leadership. It was an important aspect of 
last year's action.
    Judge Roth.  I agree, absolutely.
    Mr. Hoyer.  Ms. Roybal-Allard has left, but she agrees with 
that, seeing as how Los Angeles is number one.
    Thank you, Mr. Chairman.

                           courtroom sharing

    Mr. Kolbe.  Thank you, Mr. Hoyer.
    Judge Roth, you indicated in your statement that you met 
with the Chief of Staff, Mr. Podesta and OMB Director Lew in 
December to discuss this whole issue of the courthouse 
construction.
    Judge Roth.  I was told about it. I was not there.
    Mr. Kolbe.  I am sorry. You were not a part of that. I am 
sure you have had a report of that. Did they give reasons to 
you as to why the Administration is, once again, not supporting 
a courthouse construction program?
    Judge Roth.  My understanding is that it was very difficult 
to get reasons. That the only semblance of a reason was that we 
were not sharing courtrooms.
    Mr. Kolbe.  I have a couple of questions on that later. So, 
let me just ask them right now. Is that correct? Is there no 
courtroom sharing going or are there in other instances now 
where there is courtroom sharing?
    Judge Roth.  There are certainly instances where there is 
courtroom sharing.
    Mr. Kolbe.  I know I have heard from Judge Stahl and from 
all of the judges that this is a bad thing to do because it 
would make it difficult for a judge to schedule a trial with a 
defendant on a civil case, and for the lawyers to know that, 
that it is going to be scheduled. If they do not know that, 
that a courtroom is available, maybe they do not feel the 
pressure to get that started.
    Judge Roth.  I was a district court judge for 5.5 years. I 
learned, through the Federal Judicial Center, methods of case 
administration and how to keep the cases moving.
    These methods are reflected now in the Civil Justice Reform 
Act. In a civil case, you want to start as early as possible 
planning the case, setting deadlines, setting discovery 
deadlines with a pre-trial hearing and actually setting at the 
beginning of the case, a trial date, which may be 6 months down 
the line, maybe 9 months, a year down the line.
    When I was a district court judge, my calendar for 6 months 
and later was full. My courtroom was scheduled every day. At 
that time, my calendar for tomorrow might not be. My courtroom 
might not be scheduled because by the advance scheduling that I 
had done, I had gotten the cases disposed of.
    To do that advanced scheduling, I needed to know that there 
would be a courtroom available on the date set for the trial 
for the cases that I wanted to bring to trial. I knew too with 
the Speedy Trial Act for criminal cases that I was going to 
have to make allocation of courtroom use for those cases.
    So, as an active district court judge, it really was 
imperative to have a courtroom available for the court 
management techniques that you need to keep the cases moving.
    Mr. Kolbe.  I just have to say I am still a little 
doubtful. It just seems to me it is an awfully expensive way to 
get cases to trial and get cases disposed of to build a 
gigantic courtroom to be sitting there, which ultimately is 
empty and unutilized, even if it is because you have been able 
to dispose of the case.
    It is empty and under utilized. There has to be some way in 
which we can better utilize these facilities. You have 
expressed what is essentially a kind of a philosophical view 
and an anecdotal view.
    Do you have any data to backup the assertion that the lack 
of a courtroom available at any time for every judge has a 
negative impact on the judicial system?
    Judge Roth.  I cannot give you statistics. I think the 
study we will do will give you statistics.
    Mr. Kolbe.  Had you planned to include that in your study?
    Judge Roth.  Absolutely; absolutely. For instance, Judge 
Rodriguez in the District of New Jersey, as a district judge 
was without a courtroom for 6 years. He had to find a vacant 
courtroom, if there was one, in the building. He did not always 
find a vacant courtroom, and had the experience that cases that 
he had scheduled for trial could not go to trial because there 
was not a courtroom. I can give you long anecdotal instances of 
this nature that an active judge needs a courtroom.
    As an active judge, I was scheduling cases ahead. I 
sometimes found that I had two cases that ended up coming to 
trial on the same day. I would try two cases in a day; one for 
5 hours in the morning and one for 5 hours in the afternoon. 
That is a rather exhausting way to lead a judicial life--with 
one courtroom and with case management techniques that rely on 
keeping the cases moving. You have to feel the assurance that 
there will be a courtroom there.
    There are other shorter proceedings that also can take 
place during the course of a day; motions hearings, settlement 
conferences, jury selection all use the courtroom.
    Mr. Kolbe.  I will be interested in the study to see what 
it shows us in that regard. I hope also that the study will 
look at the problems of over crowding in existing courthouses 
and if you can document delays in the administration of justice 
as a result of over crowding. That obviously will help us in 
this ongoing battle with OMB about the issue of courtroom 
space.
    Judge Roth.  We will be happy to consider these issues in 
our study.

                       need for direct submission

    Mr. Kolbe.  I wanted to come back to the question that Mr. 
Hoyer asked or the statement you made in response to Mr. 
Hoyer's comment.
    That was that you really do not anticipate with your 
legislative proposal changing the way courthouse construction 
is done. That you do not see that as a change in the role of 
GSA.
    What do you see as the purpose? I would guess it is not 
simply to bring your priorities directly to the attention of 
Congress. We have no problem, obviously we have your list. We 
know what your priorities are. It is not simply that.
    What is the purpose? What do you see as the reason for this 
legislative proposal?
    Judge Roth.  Well, right now because our construction 
projects are not in the budget, they are not within the budget 
caps. In making a determination to fund our construction 
projects you, as members of Congress, will have to take funds 
from other programs in the budget.
    I think our budget requests are legitimate, well 
considered, well thought out requests. It is our position that 
they should be included in the overall budget presented to you. 
I think this is reflected in the provisions of Section 1105 of 
Title 31 that says the judiciary budget requests will not be 
changed by the President.
    Mr. Kolbe.  I think there is an arguable question as to 
whether that includes infrastructure facilities, planning, and 
then construction. What you are saying is that you would place 
the courthouse construction at a priority level above that of 
any other buildings.
    Judge Roth.  No. We would want them to be in the budget 
along with other construction projects, or other buildings, to 
then be looked at by you, by the authorizing and appropriating 
committees of Congress, to determine whether these projects 
really are what we say they are.
    Mr. Kolbe.  I think it is accurate to say that it gives you 
higher priority because yours would be the only ones guaranteed 
to be in the budget request.
    Judge Roth.  Well, we are the Judicial Branch. We are an 
independent branch. I think our budget has got to include the 
courthouses that we are going to hold court in.
    Mr. Kolbe.  So, you would say that it should be entirely 
the purview of the Congress to decide whether or not we build a 
Food and Drug Administration building and/or a courthouse; 
whether we spend the money on that. That those decisions should 
not be made at the OMB level. Is that correct?
    Judge Roth.  That is correct.

                     role of authorizing committee

    Mr. Kolbe.  Okay. You also though have a provision in your 
draft bill that says, ``In accordance with the estimates 
prepared under this sub-section, funds are authorized to be 
appropriated to the Judiciary for deposit into the Federal 
Buildings Fund.''
    That bypasses, as I read that, the authorizing committee 
here in Congress, the Transportation and Infrastructure 
Committee. So, only the Appropriations Committee would have any 
purview of this.
    Judge Roth.  No. That is not our intent. If our language 
needs to be clarified in that regard, we will clarify it. We do 
not in any way mean to bypass any of the committees which 
currently oversee our proposals.
    Mr. Kolbe.  I think that does need to be looked at because 
I think that it would do that by saying that the funds are 
``authorized to be appropriated.''
    It does not go pass the authorizing committee. They do not 
have to then authorize it. That is something certainly to be 
looked at.
    Judge Roth.  Yes. We certainly would be very interested in 
any suggestions you would have concerning the language of our 
proposal to make it effective.

                          long-range planning

    Mr. Kolbe.  You have also said, Judge, that our courthouse 
projects are not proposed for consideration, unless the long-
range plan indicates there is no room for judges in the 
existing facilities of that district.
    How far ahead do you look in the long-range planning?
    Judge Roth.  Well, right now we are doing 5-year 
prioritization. We have rated every courthouse in the system. 
We feel that our rating methods should be reevaluated. That 
will be a part of the study that we are doing.
    One of the problems we have is that if it is determined 
that a new courthouse should be built in a location where there 
is not presently a courthouse because of the increase in 
population or of matters that come before Federal court in that 
location, we have no present means to score that location. So, 
we are going to reevaluate how we are setting our priorities.
    Having set the priorities, having conferred with GSA and 
with Congress about the expected funding that might be 
available, we then take the most urgent cases and put them on 
the list that we present. If the funding is less than 
anticipated, we would simply cut the less urgent cases off the 
bottom of the list and put them onto the next fiscal year.

                          savannah courthouse

    Mr. Kolbe.  Just one other question. I have certainly not 
had any reasons to question the priorities established by the 
Judicial Conference. I think by and large we have agreed with 
them obviously. We have provided funds in accordance with that 
list.
    There has been, as you know, one project over which there 
has been some difference of opinion. That is the Savannah 
courthouse project. I raise that only because I think it raises 
some larger issues about the way in which you do establish the 
priorities.
    I want to feel confident about the way in which you go 
about doing that. Judge Bowen has sent us a letter, as I think 
you know, saying that he cannot truthfully say that the 
District is in need of additional courtrooms, considering his 
review of existing facilities and the case load data.
    If what he says is true, I guess my question is, how did 
this get onto the priority list for fiscal year 1999?
    Judge Roth.  Let me say at the outset that when we created 
the priority list, we kept in the pipeline the projects that 
had been begun because of the expense and the expectation of 
those projects. Savannah was one of the projects that existed 
already when we created the list. You will notice that in the 
point ranking on the fiscal year 2000 list, in fact, it has the 
lowest point rank.
    Nevertheless, the Judicial Conference yesterday voted that 
the need for the Savannah courthouse is going to be considered 
by the Eleventh Circuit judicial council, at its meeting on 
March 30th. It is the council, by statute, which determines 
whether a courthouse needs to be built. The Judicial Conference 
will abide by the decision of the Eleventh Circuit council as 
to whether or not that project should be built.
    Mr. Kolbe.  If there were to be a negative determination by 
that council, you would advise us then of that?
    Judge Roth.  We certainly would, yes.

                               conclusion

    Mr. Kolbe.  I think that covers our questions. If we have 
any others, we will submit them for the record. We appreciate 
very much your testifying today.
    This is obviously one of those tremendously contentious 
issues that we face each year. I think Congress, both the 
Appropriations Committees and the Authorizing Committees, are 
anxious to try to find a way to resolve this to make sure that 
we have an orderly process for the construction of courthouse 
projects, but that we also do it in the most efficient way 
possible. That we also consider those needs along with the 
other needs of the Federal Government for construction.
    Judge Roth.  Well, we certainly appreciate having the 
opportunity to be here today and express our views on our 
projects.
    Mr. Kolbe.  Thank you very much.
    The Subcommittee stands adjourned.


[The official Commmittee record contains additional material here.]


                                           Thursday, March 4, 1999.

              NATIONAL ARCHIVES AND RECORDS ADMINISTRATION

                                WITNESS

JOHN W. CARLIN, ARCHIVIST OF THE UNITED STATES

                              Introduction

    Mr. Kolbe. The Subcommittee will come to order. I apologize 
for being late. One of the reasons I moved my office to the 
Rayburn Building is that is where my Subcommittee is located. 
And now here we are trying to get back to the Capitol. Riding 
an elevator down, taking a train across, another elevator up, 
you get to depend on their schedule, not your own, sometimes.
    We are very pleased to welcome the Archivist of the United 
States, Governor Carlin. Governor Carlin is going to be 
testifying on the budget for the National Archives and Records 
Administration.
    For operating expenses in the coming fiscal year, the 
National Archives has requested $186,452,000, which is about 
$38 million below the amount appropriated for fiscal year 1999. 
This reduction is possible because of a proposal to operate the 
records center program on a fully reimbursable basis beginning 
in fiscal year 2000. And that is a program that we certainly 
supported. And we look forward to talking with you more about 
that.
    In addition, the Archives has two programs underway which 
are very interesting and which are very visible to the public 
and certainly of interest to this Subcommittee. One is the plan 
that would place the national documents of our democracy, the 
Declaration of Independence, Constitution, the Bill of Rights, 
in new encasements, thereby preserving them for future 
generations. And moving along with that hand in hand is the 
project to completely renovate the National Archives Building 
here in downtown Washington.
    More hidden from the public view but also very, very 
important to its mission are some other projects the Archives 
is engaged in, initiatives that are essential to its mission of 
preserving the Nation's essential documents and making them 
available to the public. Included in these is the challenge of 
dealing with the vast quantities of electronic information that 
is being created throughout the government.
    So, Governor Carlin, we are looking forward to hearing your 
testimony. Of course, your full statement will be placed in the 
record, and you can summarize as you wish. But before I do 
that, let me call on Mr. Price in the absence of Mr. Hoyer, who 
will be a little late this morning.
    Mr. Price, we thank you very much for being here.
    Mr. Price. Thank you, Mr. Chairman.
    I have no questions, but I want to add my warm words of 
welcome to Governor Carlin and his associates. We look forward 
to hearing from you and having a chance to discuss the work of 
your agency.
    Mr. Kolbe. And, with that, Governor Carlin, the floor is 
yours.

                    Summary Statement of Mr. Carlin

    Mr. Carlin. Thank you, Mr. Chairman. We obviously want to 
thank you, Mr. Hoyer, and other members of the Subcommittee for 
last year's appropriation. You gave us strong bipartisan 
support, and we are making the most of it.
    I also want to thank you for taking time to visit with me 
this year about the 2000 budget. I know your schedules are very 
busy. And, as you have indicated, my full statement will be a 
part of the record, which I appreciate.
    I want to introduce Lew Bellardo, my Deputy, who is with me 
today; Adrienne Thomas, Assistant Archivist for Administrative 
Services; who will assist in any detailed questions that you 
might have on various aspects of our budget.
    One of the things you have enabled us to do and, Mr. 
Chairman, of which you made reference is to create this object 
I brought with me. It may look odd, but what it represents is 
going to preserve the most important documents in the National 
Archives: the Declaration of Independence, the Constitution of 
the United States, and the Bill of Rights.
    For nearly 50 years, we have exhibited these Charters of 
Freedom in the Rotunda of the National Archives to millions of 
people. This is a model of the re-encasements we will build so 
that we can safely display them in the Twenty-First Century to 
millions more.
    You gave us money to develop plans for new encasements, and 
we have done it. And you gave us the money for the encasements 
themselves. And, as you can see, we are making progress in 
doing so. I am certain, Mr. Chairman, any specific questions 
you have, and I have the project director with me today, we can 
deal with them as well.
    You also gave us money for the concept design phase for the 
renovation of the 63-year-old National Archives Building for 
Americans to come to see the Charters and use thousands of 
other documents. That design work is also underway.
    And our Fiscal Year 2000 budget requests funds to complete 
it and do other work needed in preparation for awarding the 
renovation contract in Fiscal Year 2001. With your continued 
support, we will keep the great building that houses the 
Charters safe and accessible.
    Also with your support, we are making progress in providing 
access to records far beyond our buildings. You have given us 
funds to develop an online Archival Research Catalogue, the 
first truly comprehensive catalogue of our holdings that we 
have ever offered to the public, in print or otherwise.
    Already researchers can call up 386,000 records 
descriptions on their computers, whether that computer is at 
home or at the office or in their school. And, with your 
support, we will keep adding those records descriptions.
    For Fiscal Year 2000, we also request funds with which to 
undertake another critical access project. Some 113 million 
people in this country are interested in family history 
research. Many such genealogists will be at our door on April 
the 1st, 2002. That is when we are required by law to open the 
1930 census population census records.
    Census records are among the most heavily used in our 
holdings. And we need to get ready. Therefore, we are 
requesting funds in the Fiscal Year 2000 budget to copy and 
distribute the 1930 census microfilm so that copies will be 
available nationwide on April 1st of the year 2002.
    Among other major customers we receive a million and a half 
requests a year from veterans. Many need documentation of their 
entitlement to benefits. With funds you previously 
appropriated, our military personnel records staff in St. Louis 
is redesigning its procedures so that we can respond better to 
veterans and their families.
    We will test those procedures this year. And we are asking 
for funds in Fiscal Year 2000 to begin implementing our plans 
so that we can use both people and technology to serve our 
nation's veterans better.
    In my formal statement you will find many more examples of 
year-by-year advances in pursuit of goals in our strategic 
plan. And our budget request for the year 2000 will fund many 
more. And, yet, we are not asking, as the Chairman has 
indicated, for more money. In fact, we are asking for seven 
percent less.
    As he indicated, the answer is in our Reimbursable Records 
Program. For years, our own appropriation has funded the 
storage of temporary records of most federal agencies and 
provided them other records services.
    But with your continued support, starting in 2000, all 
agencies will reimburse us for such expenses. Otherwise, we 
would have to ask you this year for additional funding to build 
on the progress we are making to improve records management, to 
deal with electronic records, expand public access, and meet 
the needs for records storage and preservation.
    Finally, let me say a word about the National Historical 
Publications and Records Commission, which makes grants for 
records preservation and publication. Last year you 
appropriated $10 million for NHPRC, but $4 million of that was 
for a single one-time grant and $6 million for the Competitive 
Grant Program. The administration again requests $6 million, 
which the Commission greatly needs to continue progress in 
publishing the papers of the Founding Fathers, among other 
important projects.
    In closing, let me say this: We developed a strategic plan 
before we legally had to and we are actually using it. I hope 
it is clear that we are delivering on the promises we have made 
and can use what we request effectively.
    Again, I thank you very much for your support. And I will 
be very happy to respond to your questions.
    [The prepared statement of Mr. Carlin follows:]

[The official Commmittee record contains additional material here.]


                             y2k compliance

    Mr. Kolbe. Thank you very much, Governor.
    I will begin the questioning; as usual, we will do rounds 
here to try to limit them to five minutes apiece. Just one 
quick question on Y2K. I notice your testimony, your submitted 
testimony, says that 13 of your 22 mission-critical systems 
have achieved Y2K compliance. Are you on track with the rest of 
those?
    Mr. Carlin. Yes. In fact, the 13 was at the time we 
submitted that. By the end of March, 31st of this month, we 
believe we will be down to 6 remaining of the 22. We think one 
will be like days, almost days, after March 31st. So we really 
are just talking about five. Two or three of those will be 
within the next month or two. The last one is scheduled in 
August.
    Our delay, quite frankly, is as much tied to, as a small 
agency, keeping contractors working for us. Our projects are 
small compared to bigger agencies, but we feel very comfortable 
come August we will be in good shape.
    I would also say to you that we are focusing our 
contingency efforts on the ones that remain as well as the most 
critical of the critical mission systems that we have.
    Mr. Kolbe. Okay. So you have tested? The ones that you say 
are compliant have been certified?
    Mr. Carlin. Yes.

                        renovation of archives i

    Mr. Kolbe. Let me go to the plan for the renovation. We 
gave you $2 million for a conceptual design----
    Mr. Carlin. Correct.
    Mr. Kolbe [continuing]. In the current budget year that we 
are in right now. Has that been completed?
    Mr. Carlin. No, not totally. We are in the process of using 
those dollars to proceed towards----
    Mr. Kolbe. Can you give us some description of where we are 
and what the concept is going to look like, where you think, we 
are headed with that?
    Mr. Carlin. The design at this point would focus on major 
renovation of all of our mechanical systems, ADA compliance, 
bringing access in on Constitution Avenue, which not only 
addresses the ADA compliance but as well provides additional 
security because we will be able to focus almost all of the 
public access to Constitution Avenue. Whereas, today it is 
mixed on both sides and you have the public intermingled with 
staff, which creates additional security pressures. The design 
also includes the full renovation of the Rotunda, the beds of 
security that will take the encasements that we are talking 
about here for the Charters of Freedom, and obviously 
reconfigured exhibit halls. We will be moving some of the 
office space.
    For example, with the money we are requesting this year, 
the $8 and a half million that is in this year's budget for 
2000, two major things will take place to start that project. 
One would be to build over the north moat on the Pennsylvania 
Avenue side additional office space, which will allow us what 
we call ``swing space'' to start the process combined with 
records that we will move out to Archives II so that the 
process can begin in earnest in Fiscal Year 2000 as well.
    Mr. Kolbe. Okay. So you have got a request for $8.5 million 
this year. That is not just for design, then?
    Mr. Carlin. No.
    Mr. Kolbe. some of that is actual----
    Mr. Carlin. No. That is the complete, full design and will 
start the process of doing pre-full construction work of 
building the swing space so you can actually maneuver within 
the building.
    Mr. Kolbe. Yes. Right.
    Mr. Carlin. And then we have some early work that can be 
done in taking out some of the tiers of the lower six floors.
    Mr. Kolbe. what is the----
    Mr. Carlin. Construction is let in 2001.
    Mr. Kolbe. What is the total estimated cost of the 
renovation project?
    Mr. Carlin. We are talking about $94 million,----
    Mr. Kolbe. That is a hefty renovation.
    Mr. Carlin [continuing]. Which includes the dollars. I 
mean, that is the----
    Mr. Kolbe. That is the eight and two. So it includes the 
ten that we are----
    Mr. Carlin. You are correct.
    Mr. Kolbe. So you are saying that roughly next year, we 
would expect to see about $84 million in the budget request?
    Mr. Carlin. Yes and no. I mean, the eight and a half would 
be carried over. So in terms of an above what you----
    Mr. Kolbe. Well, you said $94 million.
    Mr. Carlin. Correct.
    Mr. Kolbe. And you have got two. And if you get eight this 
year, that is roughly ten million. So there is $84 million 
left.
    Mr. Carlin. Right.
    Mr. Kolbe. You expect all of that to be in next year's 
budget request?
    Mr. Carlin. Yes, but the addition you would see would be 
closer to $70 million. I mean, it is just a matter of carrying 
forward--it depends on how you want to look at it.
    Mr. Kolbe. That is not $94 million. $70 million plus $8.5 
million plus $2 million.
    Mr. Carlin. Multiply the eight and a half twice. See? I 
mean, I am just talking in terms of what you will see as an 
increase for next year. Yes, it will be----
    Mr. Kolbe. Eight twice. You mean, it is not going to be 
until the 2002 budget? You are going to have another $8 million 
in 2001?
    Mr. Carlin. Yes, plus the $70 million, the $84 million you 
are talking about.
    Mr. Kolbe. Okay.
    Mr. Carlin. I am just saying when you look at it next year, 
the increase you will see will be the $70 million because for 
one more year, we will carry forward the 8 and a half to the 
base.
    Mr. Kolbe. Okay. All right. Yes.
    Mr. Carlin. It still comes out to $94 million any way you--
--
    Mr. Kolbe. It still comes out to $94 million.
    Mr. Carlin [continuing]. Add the numbers up.
    Mr. Kolbe. That is the number I was trying to get to. And 
what is the schedule for completing it?
    Mr. Carlin. We hope to let the contract in February of 
2001, actually close down the building to the public after the 
Fourth of July of 2001, and be completed 2 years later, 2003, 
probably we think taking maybe into October by the time we have 
actually moved in and exhibits are ready for the public.
    Mr. Kolbe. So the building would be closed to the public 
for over two years?
    Mr. Carlin. For two years, yes. For the Rotunda part, yes.
    Mr. Kolbe. Well, okay. But the part that the general 
tourist would see is closed to the public for that time?
    Mr. Carlin. Correct.
    Mr. Kolbe. Right. The rest of the building remains open for 
people who are accessing the archives?
    Mr. Carlin. Right. The work in the building will continue. 
We will move about 35 or 40 staff out to Archives II 
temporarily, and about 200,000 cubic feet of records. And then 
we will literally within the building move around as the 
renovation takes place.
    Mr. Kolbe. Thank you. I will have some additional 
questions.
    Mr. Price.

        national historical publications and records commission

    Mr. Price. Thank you, Mr. Chairman.
    Governor, I would like to start briefly with the last item 
you mentioned in your testimony; that is the $6 million request 
for the National Historical Publications and Records 
Commission. I am pleased to see you seeking funding at that 
level.
    It is a program I have a personal interest in and I 
appreciate the support that Chairman Kolbe and the Subcommittee 
have provided to get a higher level of funding over the last 
few years.
    The dollar amount is small, relatively speaking. But the 
increase we have seen since Fiscal Year 1997 is substantial 
percentage-wise. And these dollars have an exponential effect, 
of course, because they leverage private sector support. So I 
appreciate your ongoing efforts to strengthen NHPRC.

               reimbursable records center revolving fund

    I would like to focus in the few minutes I have on the 
expansion of the reimbursable program that you have proposed in 
the Fiscal 2000 budget request. As I understand it, you are now 
reimbursed about 30 percent of the cost of running your record 
service centers. And you are seeking to make these services 
fully reimbursable via a revolving fund. I would like to make 
sure I understand exactly how that would work.
    Is it accurate that you are paying rent to GSA to store 
records that you are housing for other agencies who, in turn, 
do not have to pay you for the full cost of that service?
    Mr. Carlin. That is correct.
    Mr. Price. That is the way it works out?
    Mr. Carlin. That is the way it works today for the 70 
percent. Now, the 30 percent is reimbursable.
    Mr. Price. Is reimbursable. So if we provide the $22 
million initial capitalization cost that you have requested, 
will that be a one-time appropriation or are you going to need 
additional funds on a continuing basis to fully finance this 
fund?
    Mr. Carlin. That will be a one-time appropriation for the 
revolving fund.
    Mr. Price. Twenty-two million. That will set it up, then, 
so----
    Mr. Carlin. That is correct.
    Mr. Price [continuing]. You can operate on a fully 
reimbursable basis?
    Mr. Carlin. Correct.
    Mr. Price. Over the long run, then, the fund would let you 
decrease your budget request, and it would also increase costs 
for other agencies incrementally. Is that true?
    Mr. Carlin. Yes. And the OMB has provided resources to 
agencies to reimburse us so that a shifting of those dollars--
--
    Mr. Price. Overall no change but a shift in who is paying 
the----
    Mr. Carlin. Yes, correct.
    Mr. Price [continuing]. Which agency's budget is affected. 
Just administratively, are you proposing any kind of 
reimbursement threshold, any kind of minimal amount so that you 
would not have to track services provided to agencies that have 
only small or minimal use of your records storage services? Or 
would everyone be billed, even for very minimal usage?
    Mr. Carlin. Everyone we bill, but we do have minimum 
services.
    Ms. Thomas. We did decide that for those who had a bill 
less than $10,000, that it was not going to make sense to 
charge them.
    Mr. Price. I see. Is there a fair number of agencies in 
that category?
    Ms. Thomas. I think there were somewhere around 10 or 15 
small commission-type agencies that were involved.
    Mr. Price. I see. But beyond that threshold--what is the 
threshold?
    Ms. Thomas. Ten thousand dollars.
    Mr. Price. Ten thousand dollars?
    Ms. Thomas. Annually.
    Mr. Price. Beyond that threshold, these costs would be 
fully reimbursable?
    Ms. Thomas. Correct.
    Mr. Price. All right. That is all I have for now, Mr. 
Chairman. Thank you.
    Mr. Kolbe. Thank you very much.
    Let me just follow up on that since it is an area that I 
was going to get to anyhow here. Right now, the 30 percent, as 
I understand it, it is not 30 percent evenly across agencies.
    Mr. Carlin. Correct.
    Mr. Kolbe. It is some agencies are paying 30 percent. Is 
that correct?
    Mr. Carlin. That is correct.
    Mr. Kolbe. I mean, are paying in full.
    Mr. Carlin. That is correct, IRS being the largest.
    Mr. Kolbe. How did you snooker some agencies into paying 
and nobody else is paying?
    Mr. Carlin. That came about because--and IRS is the best 
example--of volume from both quantity of records as well as 
reference services required. Their demand for retrieval of 
records was so high it was impossible for us under our budget 
to provide them service. And so some 30 years ago or more it 
was established that in the case of the IRS, they would pay 
us----
    Mr. Kolbe. What other agencies now pay you the reimbursable 
amount?
    Mr. Carlin. Social Security.
    Ms. Thomas. And then we have occasional projects not on a 
consistent basis, the Defense Department and other agencies who 
have specific projects----
    Mr. Carlin. A large ramp-up of heavy work in a short period 
of time.
    Mr. Kolbe. Now, you just mentioned something that is 
important. You talk about IRS having frequent retrieval of 
records.
    Mr. Carlin. Yes.
    Mr. Kolbe. They are ones that I would guess would have some 
of the most continuous retrieval----
    Mr. Carlin. Correct.
    Mr. Kolbe [continuing]. And most heavily used. Will your 
costs that you charge depend on the agency and the amount of 
retrieval or is it just going to be based on a square footage 
basis or a cubic foot of volume that you are storing?
    Mr. Carlin. There is a fee for the storage and a fee for 
services.
    Mr. Kolbe. For services.
    Mr. Carlin. But it is uniform, is it not?
    Ms. Thomas. Yes.
    Mr. Carlin. Well, you have got a----
    Ms. Thomas. There is a uniform fee for storage depending on 
how many records you are going----
    Mr. Kolbe. Based on volume.
    Ms. Thomas. But your fee for reference services depends on 
the volume of activity. So IRS is obviously----
    Mr. Kolbe. And that would be negotiated agency by agency?
    Ms. Thomas. Yes, yes.
    Mr. Bellardo. Then if there are special requests for 
services beyond that level, there would be additional charges.
    Mr. Kolbe. Okay. But it is negotiated in advance. So it is 
not the kind of thing where you go down to Kinko's and you pay 
each time you get it?
    Ms. Thomas. No.
    Mr. Kolbe. Are you satisfied that the agencies have put in 
the amount they need for this in their budgets this year?
    Mr. Carlin. As far as we know, we think so. We shared very 
early our estimates. And we are sticking with those estimates.
    Mr. Kolbe. Have you had any resistance from agencies?
    Mr. Carlin. There have been questions, obviously. You go 
from having free service to having to pay. But we have been 
dialoging with the agencies now for over a year on this issue.
    We have dealt with an agency, for example, the last two 
years that prior to reimbursable becoming a reality thought 
about going elsewhere knowing that at some point they were 
going to have to pay regardless. And it chose to come back to 
us, realizing that we can provide and would continue to provide 
the kind of service they need for a cost that they felt was 
fair and reasonable.
    Mr. Bellardo. Two agencies, one the VA has their own 
records center now. And one of the things that they are 
discussing among themselves is as to whether or not they want 
to pull some of their records from our centers and add to that 
record center. They have not really decided. They may, in fact, 
want to stay where they are.
    The Administrative Office of the U.S. Courts, of course, 
has also expressed some concerns, but that is the only one.
    Mr. Kolbe. We have had a problem in this Subcommittee in 
the past in another area, and that is with subcommittees, other 
appropriation subcommittees, not including the funds for 
agencies for GSA rent. The government will just save off a 
little money here, cut this out, and let this Subcommittee, the 
Treasury, Postal Subcommittee, worry about eating the costs of 
that by not reimbursing GSA.
    I think it is important for us that you stay on top of this 
thing and alert us if we are running into that problem. And I 
either have to deal with it with other subcommittees or we have 
to figure out a way to take a pretty hard-nosed attitude 
towards these agencies so they do not start getting away with 
that.
    Down at your library, if you do not pay your fines, you do 
not get any books out of the library. Maybe that is what we are 
going to have to do. Sorry. No access to your archives until 
you start paying your fees here.
    I am concerned that, maybe not this first year, other 
Subcommittees, will quickly figure out that this is a cost that 
we can just drop off. We will not put this money in Agency X's 
budget because it will just save us a little bit.
    So far you are saying you have not run into that problem. 
Agencies are putting it into their budgets.
    Mr. Carlin. That is our understanding. OMB made it very 
clear over a year ago what was coming. They made it very clear 
in the passbacks last fall. In the budget that the President 
has submitted, there is a line item set out by the President's 
recommendation for individual agencies to pay this cost based 
on the numbers that we provide them.
    I can assure you, Mr. Chairman, we will work very closely 
with you. It is obviously in our interest that this work and 
work the way it is intended. And we will keep you advised of 
any information we pick up that would tend to indicate that the 
problem you suggest might happen could possibly be taking 
place.
    Mr. Kolbe. I have some more questions in other areas, but 
before I go to our distinguished ranking member here, let me 
just ask you one more in this area. How did you come up with 
the $22 million for the revolving fund? How did you develop 
that figure?
    Mr. Carlin. That figure was developed in work with OMB in 
pulling together the information from other revolving funds 
that have been established to determine what we would need as 
far as equipment as well as just operating capital. We feel it 
is an appropriate number that we will do the job.
    Mr. Kolbe. Are you satisfied that it is going to be the 
amount that is going to do it?
    Mr. Carlin. Yes. Now, obviously if history shows we have 
asked for more than necessary, those dollars over a period of 
time can be returned to the Treasury. And, as indicated in an 
earlier question, this was a one-time request.
    Mr. Kolbe. Okay. Mr. Hoyer, and welcome.

                    charters of freedom encasements

    Mr. Hoyer. So good to be here. Governor, I thank you for 
being here and congratulate you on your leadership. I think you 
are getting through some good times and getting the archives on 
a very stable status.
    Let me ask you a quick question. I apologize for not being 
here. I do not know whether he was governor when you were 
governor. Governor Roy Romer was here visiting with us this 
morning.
    Mr. Carlin. I would point out to you, sir, that Roy is a 
Kansan by birth. And so he----
    Mr. Kolbe. Is that an advantage being a Kansan by birth? 
[Laughter.]
    Mr. Carlin. We might differ on that, sir.
    Mr. Hoyer. Well, those of us who were born in New York have 
our conferees all over the country. You can hardly go anyplace. 
You know, I just happen to be born in New York, but Kansas is a 
great place.
    Back to my questions, the encasement demonstration. Can you 
describe the encasement model to us and explain what new 
technologies are involved in its design?
    Mr. Carlin. I have Rick Judson, who is our Project Manager, 
with me this morning. And I am not going to pretend that I am 
going to describe titanium use here to you. Rick, would you 
help me out for the congressman?
    Mr. Judson. Good morning.
    Mr. Kolbe. Good morning.
    Mr. Judson. I appreciate the opportunity to describe the 
design of our new encasement. First let me start with 
describing the current encasement so you can have a better 
appreciation for the changes that we have incorporated here.
    The current encasement is made up of three pieces of glass 
that are held together with a soldered seal around the edge 
that is effectively sealing the outer piece of the glass. The 
problem with that type of arrangement is that seal is subject 
to damage if it is moved around a lot or if it goes through 
temperature variations.
    What we have done with this new encasement is we have tried 
to incorporate all the latest in technology working with the 
National Institutes of Standards and Technology and also with 
NASA.
    This new design is basically a titanium frame. We are going 
to use a laminated, tempered glass. The document will not be in 
contact with the glass. That is one of the problems that we 
have with the current encasement. The glass that is in contact 
with the document is starting to show signs of deterioration. 
So this new design will eliminate that problem, hopefully 
forever.
    The base is made up of aluminum for this model. We are 
considering making that titanium also. The concern about it is 
with good titanium, you add a little additional weight to the 
encasement.
    Like I said, the current encasements are made up and rely 
on a lead, soldered seal around the edges. This does not 
require that type of seal mechanism. We have gone to, in 
effect, two different types of seal mechanisms. One is an O-
ring gasket, which I think you can probably see around the edge 
here. Basically that is our primary seal mechanism for this 
encasement.
    Rather than just rely on a single means of sealing this 
encasement, we are also relying on a diffusion path across this 
surface right here. And that is basically a highly polished 
nickel-plated surface on our base. And the idea is that the 
glass when it is in contact with that highly polished surface 
will create a diffusion to have to eliminate any leakage of the 
gas that was put into the encasement.
    Also, we are incorporating new technology as far as being 
able to monitor the condition inside the encasement. The 
current encasements have helium gas. And helium is easy to leak 
out. It diffuses out easily. We are going with argon in these 
new encasements. It is another inert gas.
    Rather than rely on just a single leak detector in these 
encasements, we are putting in valves to be able to fill and 
purge this encasement. We are going to have a pressure sensor 
so that we can determine if there is any leakage.
    And also we are incorporating either sapphire or diamond 
windows at opposite ends of the encasement so we can utilize 
laser spectroscopy to analyze the gas within the encasement to 
see if there are any impurities in the gas.
    Mr. Hoyer. How many of these will you have?
    Mr. Judson. We are going to make one for each of the seven 
documents. Plus, we are making two spare ones in case one 
develops a leak.
    The other improvement we are making is the platform. Once 
the document is placed on the platform, it is designed so that 
it can be moved from encasement to encasement without touching 
the document or without removing the document from the 
platform. The document will stay on the platform. And you just 
handle the platform. You never touch the document.
    Mr. Kolbe. You mentioned O-rings. Of course, it makes me 
think of the Challenger.
    O-rings are rubber. Are you concerned about them 
deteriorating?
    Mr. Judson. We are not using a rubber gasket in this model. 
Right now we are looking at various forms of metal, stainless 
steel. We are looking at----
    Mr. Kolbe. For a gasket?
    Mr. Judson. Yes.
    Mr. Kolbe. An O-ring gasket?
    Mr. Judson. Yes. It is actually a C-section. This is a 
little diagram perhaps.
    [The Chart follows:]

[The official Commmittee record contains additional material here.]


    Mr. Judson. The C-section basically gives a little spring 
to the gasket. One of the new materials that we are looking at 
is inconel, which is also a metal that has some spring to it.
    We are going to be coating the gaskets with a gold coating. 
The idea of the gold coating is to deal with any microscopic 
irregularities. The bottom surface of that gasket screw will be 
filled in by the softer metal of the gold coating.
    Mr. Bellardo. You might want to mention in terms of the 
difference the ability to go in and to reuse or whatever 
compared to aluminum.
    Mr. Judson. Right. The current encasements really were not 
designed to be opened. Really, they were just sealed. And any 
repairs that had to be made we would have to go in there and 
solder again, which is kind of chancy when you are soldering, 
applying heat near the document.
    This design, we are relying on a bolted cover. We are also 
designing this so that to the maximum extent possible, you 
assemble this before you place the document in it. And then 
once the document is placed in there with this platform and 
latched, then you just place the cover over top, bolt it in 
place, and then start filling it with argon.
    The current encasements, what they did is they laid a piece 
of glass down and put the paper down. They put the documents 
down. They put another piece of glass down. They put a lead 
frame around it, all of this now with the document in place. 
And then they put the final glass on and started soldering up 
the side. There was always a chance that with the heat they 
were applying, they might possibly cause some damage to the 
document.
    Mr. Hoyer. I take it that is one of the problems with the 
glass touching the document as well, that the glass transfers 
whatever the heat or cold is from the environment.
    Mr. Judson. Well, the other concern is moisture inside of 
the encasement. The current encasements are about an inch 
thick. If you were to take that encasement, rush outside in the 
cold in an emergency, you would form condensation inside. If 
you formed condensation inside this, it would be down away from 
the document in the case if that were ever to happen.
    Mr. Hoyer. How much are we paying for these nine 
encasements?
    Mr. Judson. Seven.
    Mr. Hoyer. Seven documents plus two.
    Mr. Judson. I am sorry.
    Mr. Carlin. You appropriated for us $4 million. We jump-
started the process with $800,000 from the Pew Foundation to do 
the initial research. The $4 million will take us through this 
and the creation and the completion of the building of all of 
those documents and at this point to say absolutely where we 
are going to come out, I think we will have some of those 
dollars to move forward on the completion of the bed and the 
real outer encasement of the----
    Mr. Hoyer. The 9 will cost less than 4.8 million?
    Mr. Carlin. Yes.
    Mr. Hoyer. You had $800,000 from the Pew----
    Mr. Carlin. Yes.
    Mr. Hoyer [continuing]. $4 million from us.
    Mr. Carlin. Yes.
    Mr. Hoyer. Okay. So we are talking about in the 
neighborhood of $400,000 a pop.
    Mr. Judson. We have put a lot of effort into this because 
this is something that you just cannot buy off the shelf. I 
mean, this is----
    Mr. Hoyer. They happen to have it in my local framing 
store. I do not know where you go. [Laughter.]
    Mr. Judson. There has been a lot of effort gone into this.
    Mr. Hoyer. When pictures are taken of me, I demand my----
    [Laughter.]
    Mr. Hoyer [continuing]. Knowing full well that people 
thousands of years from now will want to say, ``Well, what did 
he look like?'' [Laughter.]
    Mr. Hoyer. Ah, the ego of it all. I have got a lot of 
questions, but I will wait until the second round. That took a 
long time.
    Mr.  Kolbe. Thank you. That was very helpful. I had a line 
of questioning on that, but I think we have answered them all. 
Is the money that you have got going to be sufficient?
    Mr.  Carlin. For this, yes.
    Mr.  Kolbe. For this project.
    Mr.  Carlin. Yes. We are very confident of that.

                records classification/declassification

    Mr.  Kolbe. Okay. Let me ask you a couple of questions 
about declassification of records. Are you going to be able to 
meet the targets set out in the Executive Order 12958 for 
declassification?
    Mr.  Carlin. It will be a real push. But with the resources 
that are a part of this budget, we will come very close. It is 
difficult to say with real total confidence because we are now 
down to page-by-page review----
    Mr.  Kolbe. That is a result of the so-called Kyle 
amendment?
    Mr.  Carlin. Yes.
    Mr.  Kolbe. Was that added on----
    Mr.  Carlin. You are going to get some page-by-page 
regardless.
    Mr.  Kolbe. Right.
    Mr.  Carlin. But the Kyle amendment has added additional--
--
    Mr.  Kolbe. Page-by-page for everything?
    Mr.  Carlin. Correct and as well as the view from the 
Department of Energy that has added to this to make sure there 
are no possible records that are of concern to them that might 
be released from the----
    Mr.  Kolbe. Was this added into the appropriation bill?
    Mr.  Carlin. Yes, I think that is correct.
    Mr.  Kolbe. Over in the Senate?
    Mr.  Carlin. Defense authorization bill is where----
    Mr.  Kolbe. Oh, the defense authorization?
    Mr.  Carlin [continuing]. It was put on.
    Mr.  Kolbe. Not in our appropriation?
    Mr.  Carlin. No, no, certainly not on yours.
    Mr.  Kolbe. Yes. I had not been aware of this until 
recently.
    What is your estimate of the cost associated with the 
compliance with the Kyle amendment?
    Mr.  Carlin. For our cost?
    Mr.  Kolbe. Yes.
    Mr.  Carlin. I do not know that we have----
    Mr.  Kolbe. Do you not have to bear the cost of that?
    Mr.  Carlin. We bear a part of the----
    Mr.  Kolbe. Are you doing this page by page?
    Mr.  Carlin. We bear a part of the cost in the sense that 
we have a lot of records that we have accessioned that are not 
declassified, some of which guidance has been provided by the 
agencies where we actually do the work. If they do not provide 
us guidance, then we have to work with and actually get the 
agencies to come in to do the work of declassification.
    In some cases where you have multiple equities, you may 
have as many as six federal agencies that have to declassify 
the same single one page of records.
    Mr.  Kolbe. So what is the total amount for 
declassification in this budget requests?
    Mr.  Carlin. The additional request is a little over $6 
million.
    Mr.  Kolbe. On top of what? Added to what are you spending 
now on declassification?
    Ms.  Thomas. Three million.
    Mr.  Carlin. It is about three million.
    Mr.  Kolbe. So you are tripling the amount?
    Mr.  Carlin. Yes. The bulk of this would be contract 
work,----
    Mr.  Kolbe. All because of this----
    Mr.  Carlin [continuing]. Contract work to accelerate and 
comply with the executive order. It would not be going into the 
base.
    Mr. Kolbe. If you did not have that amendment, what would 
your additional request have been? Can you give me an estimate?
    Mr. Carlin. I think the request, quite frankly, is all tied 
to the amendment and the desire of the administration to 
complete----
    Mr. Kolbe. Well, just so----
    Mr. Carlin. We would have needed----
    Mr. Kolbe. You had to have the amendment. Accelerating 
would have required you to have some additional money.
    Mr. Carlin. Correct.
    Mr. Kolbe. I was trying to separate the acceleration part 
from the added work of doing it page by page.
    Mr. Carlin. It is not all attributed to the amendment.
    Mr. Bellardo. Our part of it has to do with we are at a 
stage where we have been able to do the very large volume where 
it was possible to do sampling and that type of approach to the 
declassification.
    We are getting into the tougher and tougher ones at this 
stage also. As John had mentioned, there would still be a great 
deal of page-by-page, even without----
    Mr. Carlin. The total universe, Mr. Chairman, for us is 
about 750 million pages, of which about 40 percent we are done 
with. Another 20 percent, there is some processing work left, 
about another 40 percent of which remains. It will be the 
challenge between now and the end of the executive order. So we 
are talking a lot of pages of reference.

                          nazi war crimes act

    Mr. Kolbe. Yes. One other question: Explain the provisions 
of the Nazi War Crimes Act that is having an impact on your 
declassification efforts.
    Mr. Carlin. Well, its focus obviously is for a narrow set 
of records out of legislation. Is it an executive order?
    Mr. Kolbe. Legislation.
    Mr. Carlin. Legislation. There was no additional money for 
it, of course. But the burden it is placing on us, I chair 
officially technically, is the staff work we have had to take 
out of other work to provide assistance to agencies with their 
records to focus in specifically on this narrow set of records 
that the legislation focused on. And we are estimating about 
four FTEs that have pulled from other declassification work 
just for the focus of this particular commission.
    Mr. Kolbe. Thank you.
    Mr. Hoyer?

    st. louis records center business process reengineering project

    Mr. Hoyer. The St. Louis Records Center.
    Mr. Carlin. Yes.
    Mr. Hoyer. You and I have had discussions about that. We 
have $1.8 million in this budget. I talked to Mr. Sanders about 
that. You will recall his great interest in the veterans.
    Mr. Carlin. Yes.
    Mr. Hoyer. Can you tell us where you are on that and what 
that would do?
    Mr. Carlin. We are on schedule with that project. We did 
the initial study work. The reinvention project started in 
Fiscal Year 1998. In this current fiscal year, we are doing a 
pilot project. We will start full implementation in the year 
2000 with the $1.8 million we have requested. We will need that 
$1.8 million carried over a second time in Fiscal Year 2001 
plus an additional $800,000 or $900,000 to complete the 
project.
    And you put those numbers together. We come back to the six 
million approximately. I think it is going to be more like $6.8 
million that we worked with you on last fall with Mr. Sanders--
when I say ``last fall,'' I'm saying late summer--as he was 
pushing to move this forward. It will be about $6.8 million in 
total.
    Mr. Hoyer. They have $1.8 million this year.
    Mr. Carlin. Correct.
    Mr. Hoyer. $1.8 million next year.
    Mr. Carlin. Correct plus----
    Mr. Hoyer. That is $3.6 million plus $800,000.
    Mr. Carlin. Plus what we have robbed from our own bank and 
the lapsed money you have given us now for two years.
    Mr. Hoyer. So $4.4 million plus another $2.4 million you 
are taking out of your budget or $1.4 million.
    Mr. Carlin. $1.8 million twice, the $800,000, and then a--
--
    Mr. Hoyer. That is $3.6 million, $800,000, $4.4 million.
    Mr. Carlin. Right. And then we took $200,000 or $300,000 
from our own base, which we used several times. And then you 
throw in three lapsed monies, and you get about $6.8 million. 
The last obviously is an estimate, but it has been running 
about $350,000 or $400,000.
    Mr. Hoyer. And when do you expect completion of the 
project, then, 2002?
    Mr. Carlin. We would complete the training and the 
equipment and the processes in place at the end of 2001. And 
then in 2002 and 2003, we would take and expand.
    One of the benefits out of this is for us to link in to all 
of the other technology information systems; VA, for an 
example, the defense agencies, so that we can refer some of the 
requests for which we do not have the records. Linking into all 
of these systems will allow us to quickly check and find out 
that another agency has a record, and we can quickly pass that 
along.
    Mr. Hoyer. Mr. Sanders' question to the Chairman and myself 
would be: If we put in another $2 or $3 million this year, 
would that accelerate the project?
    Mr. Carlin. No. We can only----
    Mr. Hoyer. His concern, of course, is the veterans having 
to wait so long to get the information.
    Mr. Carlin. We share that concern with you and with Mr. 
Sanders. But you can only spend so much effectively in a 
certain period of time. And it would be very unwise for us to 
try to accelerate it beyond the schedule we have.
    We think this is a fast, efficient schedule that will bring 
us the kind of results we want at the end of the time. We do 
not want to come at the end of the time and come back and say, 
``We have spent all of this money. And we rushed. And we wasted 
a lot of it. We are not there.'' We feel confident the schedule 
we have outlined is the one that will deliver the results that 
we all want.
    Mr. Hoyer. Okay. The Chairman is going to have to be 
confident that, even if you spent another $2 or $3 million, you 
could not do it more quickly with the confidence that you could 
get the job done.
    Mr. Carlin. Yes. Here is the major reason, Congressman, 
that that is----
    Mr. Kolbe. That is where the money is actually going? Is it 
equipment? Is it personnel?
    Mr. Carlin. It is going for equipment, operating, the 
training of the staff, the two principal things.
    Mr. Kolbe. You just can't accelerate.
    Mr. Carlin. But the other thing is that we have got to 
continue to provide as best we can service while this is taking 
place. If we try to train them all at one time, there would not 
be anybody working to provide service.
    There are veterans that need service now that do not want 
to hear, ``Well, in two years, rather than four, we are going 
to be fully efficient.'' They need the service now. And so we 
have got to phase it in, not just in terms of our capacity to 
manage and oversee the project efficiently.
    We have got to phase it in so that we have some people that 
are still doing the current work while we start to train and 
then phase that training in over a 24-month period.
    Mr. Hoyer. Governor, thank you.
    I do not know whether you have had the opportunity to do it 
yet. I have talked to Congressman Sanders after I talked to you 
and indicated that you would be contacting him because you 
really----
    Mr. Carlin. We have had staff contact, and we hope to have 
a direct meeting.
    Mr. Hoyer. It would be helpful if you could bring him up to 
date and he had a confidence level of this as well.
    Mr. Carlin. We will work very hard. We will work very hard 
to do that. And we certainly have more information to provide 
him this year than last August.
    Mr. Kolbe. Can I just follow up with one thing?
    Mr. Hoyer. Sure.
    Mr. Kolbe. What will you be able to tell them when this is 
completed will be the improvement in response time?
    Mr. Carlin. We are talking about days that are embarrassing 
today in terms of weeks and weeks that go into months. And we 
will be talking a few days. From a week to ten days is what we 
are going to be talking about.
    Ms. Thomas. And some less than that.
    Mr. Carlin. Yes. That will be like within a 24-hour period 
because we will be able to access. All of those where the 
information is actually with an agency electronically 
accessible today but because we are not geared up, we still do 
it by hand. Those are the kinds of requests we will turn around 
immediately.
    Mr. Kolbe. Thank you.

                           archives ii space

    Mr. Hoyer. Governor, you are going to be moving as a part 
of the restoration project about 210,000 cubic feet of records 
out to Archives II at College Park.
    Mr. Carlin. Correct.
    Mr. Hoyer. My question to you is: What is your current 
level of storage capacity at College Park? And when do you 
estimate you will run out of space?
    Mr. Carlin. Our best estimate at this point is that by the 
close of Fiscal Year 2007, we will be out of space. And we 
would have to have additional space starting in 2008.
    Mr. Hoyer. So you will want to start planning that when?
    Mr. Carlin. Two thousand four is when we think we would 
want to have planning money.
    Mr. Kolbe. That is tight.
    Mr. Carlin. I mean, that would be the latest, but----
    Mr. Hoyer. Mr. Chairman, I do not know. Have you been out 
to the College Park facility?
    Mr. Kolbe. We had plans to go, and I forget what it was 
that caused it to get cancelled.
    Mr. Carlin. We had a weather problem one time.
    Mr. Kolbe. That is right. It was snow.
    Mr. Hoyer. I would love to go out there with you. The 
Archives facility in College Park is state of the art for the 
world. We have people all over the world come in to see the 
technology. It is not just storage but the technology they have 
there to preserve and protect historic documents.
    It is really an extraordinary facility. But, you know, as 
we built it, it is a large building. It is very rapidly, even 
in a society where we think we are going to everything on a 
disk--you see the advertisement. I forget who has the 
advertisement now. It says that we are using a third more paper 
now than we used five years ago, even in this so-called 
paperless society so that we are going to have to be planted to 
assure that we have because you do not have any room here. As a 
matter of fact, we are going to lose some room down here as a 
result of ADA compliance and some of the other----
    Mr. Carlin. Correct, mechanical systems as well as----
    Mr. Hoyer. Mr. Chairman, though, I am not going to offer 
anything this year.
    Mr. Kolbe. You know, it is very warm and dry weather in 
Tucson. That is where we store all of the----
    [Laughter.]
    Mr. Kolbe. We store all of the aircraft there. It is a very 
good place for Archives to be.
    Mr. Hoyer. Be nice. [Laughter.]
    Mr. Kolbe. The governor is thinking things like----
    Mr. Hoyer. He will like it wherever we put him.
    Mr. Kolbe. I may come on the next watch.
    Mr. Carlin. Correct. I would say to you, though, when that 
time comes because of the wisdom of an earlier time, it will be 
an efficient expansion because Archives II was built for 
expansion and----
    Mr. Hoyer. Tell it like it is, Governor.
    Mr. Carlin [continuing]. Makes a huge difference. 
[Laughter.]
    Mr. Hoyer. We are going. It is going to be daylight.

                              1930 census

    The 1930 census, I guess you are requesting $3 million to 
make that available to the public. Is that correct?
    Mr. Carlin. We need in Fiscal Year 2000 the microfilm. That 
is correct.
    Mr. Hoyer. When is the release date?
    Mr. Carlin. April the 1st, 2002.
    Mr. Hoyer. April the 1st?
    Mr. Carlin. Yes.
    Mr. Hoyer. Is there some significance to being released on 
April Fool's Day?
    Mr. Carlin. I do not know. That is by law the date.
    Mr. Hoyer. It is by law April 1st? Okay.
    Mr. Carlin. The law is 72 years----
    Mr. Hoyer. Oh? To the day?
    Mr. Carlin [continuing]. Later. And then April 1st was the 
day selected. And we also know from experience we had better be 
ready April the 1st because it is expected. And, as I indicated 
in my testimony, we have millions and millions of people across 
this country who take very seriously family history and will be 
anxious to access those records.

                       Closing Remarks--Mr. Hoyer

    Mr. Hoyer. Governor, in closing,--and I appreciate the 
Chairman's tolerance in letting me having a little more time--
let me say that when you took this job, there was a lot of 
controversy, a lot of controversy about the directors. I am not 
going to go into that history because I think some people in my 
own view, frankly, were not treated fairly. But, having said 
that, I think your appointment was somewhat controversial as 
well.
    Mr. Carlin. I think that would be a fair statement.
    Mr. Hoyer. Right. But since your appointment and since your 
administration, frankly, from our perspective--and I am looking 
at Pat and Michelle. The controversy has not certainly been on 
my doorstep. And so my assumption, therefore, is the community 
that is critically impacted by archives.
    The archivists come in, the historians, the academic 
community, and others are pleased with your administration's 
stability you brought to that, focus you brought to making sure 
that this facility is what it is: the best in the world and one 
of the most important, the most important perhaps, in the 
world. And so I want to congratulate you on the job you have 
done.
    Thank you, Mr. Chairman.

                       Closing Remarks--Mr. Kolbe

    Mr. Kolbe. Thank you very much, Mr. Hoyer.
    I would just echo my ranking member's comments that it is a 
pleasure working with you and your staff. You have been very 
forthright and forthcoming on all of the answers to the 
questions we have had. And I enjoyed working with you.
    Thank you. We will have a few questions probably to submit 
for the record. But without objection, without any further 
questions, this Subcommittee stands adjourned.
    [Questions submitted for the record and the National 
Archives and Records Administration's budget justifications 
follow:]

[The official Commmittee record contains additional material here.]




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Barram, D.J......................................................   173
Bennett, Dona....................................................   173
Carlin, J.W......................................................   585
Early, W.B., Jr..................................................   173
Elliott, L.A.....................................................     1
Mason, David.....................................................     1
McDonald, D.L....................................................     1
Noble, Lawrence..................................................     1
Peck, R.A........................................................   173
Pehrkon, James...................................................     1
Roth, J.R........................................................   545
Sandstrom, Karl..................................................     1
Thomas, S.E......................................................     1
Vanbrakle, Christina.............................................     1
Wold, D.R........................................................     1


                               I N D E X

                              ----------                              
                                                                   Page
Federal Election Commission
    Clinton and Dole Audits......................................41, 65
    Commission's Follow-Up on PricewaterhouseCoopers' 
      Recommendations............................................    47
    Construction Costs...........................................23, 31
    Electronic Filing............................................27, 30
    Emerson, Questions Submitted by Congresswoman................    98
    Explanation of the FEC Enforcement Program...................   144
    FY 1999 Earmark of $1.12 Million.............................    29
    FY 2000 Performance Plan.....................................   149
    Hoyer, Opening Statement of Congressman......................     2
    Information Technology Design................................    26
    Justification, FY 2000 Congressional.........................   116
    Kolbe, Opening Statement of Chairman.........................     1
    Kolbe, Questions Submitted by the Subcommittee Chairman......    83
    Meek, Questions Submitted by Congresswoman...................   103
    Northup, Questions Submitted by Congresswoman................   113
    Presidential Elections Campaign Fund--Status Report and 
      Estimated Deposits and Payouts.............................    58
    Public Funding...............................................35, 37
    Push Polling.................................................    36
    PwC Audit....................................................45, 46
    PwC on Administrative Fine Schedule..........................39, 41
    PwC on Increased Productivity and Compliance.................    40
    PwC on Redesign of Business Processes........................    39
    PwC Recommendations..........................................    25
    Staffing Levels..............................................    22
    Strategic Plan FY 1998-2003..................................   160
    Third Party Advocacy.........................................    45
    3-3 Votes....................................................    42
    Wold, Summary Statement of Chairman..........................     5
    Y2K Compliance...............................................    39

General Services Administration
    1122 Program.................................................   200
    1122 Program.................................................   206
    1122 Program.................................................   218
    1122 Program.................................................   225
    1122 Program.................................................   334
    1999 Per Diem Rates..........................................   343
    Accessible Information Technology............................   237
    Acquisition of Paper Products................................   259
    Brooklyn Courthouse Project..................................   195
    Child Care...................................................   207
    Child Care...................................................   217
    Child Center Accreditation...................................   209
    Conclusion...................................................   241
    Cooperative Purchasing.......................................   300
    Courthouse Approval Process..................................   199
    Courthouse Construction......................................   251
    Courthouse Construction......................................   317
    Courthouse Construction Program..............................   204
    Courthouse Funding...........................................   295
    Executive Order 13101........................................   219
    Executive Order 13101........................................   232
    Executive Order 13101........................................   353
    Fiscal Year 1997 Appropriation Bill..........................   192
    Funding for Courthouse Construction..........................   196
    FY 1997 Construction Projects................................   242
    General Supply Fund..........................................   268
    Governors Island.............................................   234
    GSA Contracts................................................   332
    GSA Regulations..............................................   314
    Human Resources Dedicated to Promoting Child Care............   209
    Immigration and Naturalization Service.......................   211
    Information Technology Fund..................................   270
    Introduction.................................................   173
    Legislative Proposal for Courthouse Funding..................   256
    Los Angeles Courthouse Project...............................   216
    Loudoun County Per Diem......................................   214
    Minorities Women, and Small Business Contracting.............   210
    National Park Service Building in Van Buren, Missouri........   202
    National Park Service Building in Van Buren, Missouri........   309
    New Long Distance Telephone Contracts (FTS 2001).............   248
    Office of Enterprise Development.............................   217
    Patent and Trademark Office..................................   205
    Patent and Trademark Office Consolidation Procurement........   278
    Per Diem.....................................................   222
    Per Diem Rates...............................................   203
    Per Diem Rates...............................................   232
    Per Diem Rates...............................................   237
    Per Diem Rates...............................................   309
    Per Diem Rates...............................................   343
    Personnel Distribution.......................................   324
    Policy and Operations........................................   261
    Promoting Child Care.........................................   208
    Public Buildings Service.....................................   272
    Recruitment of Minorities as Vendors.........................   333
    Recruitment of Minorities to Workforce.......................   333
    Recyclable Paper.............................................   298
    Rent for Trust Fund Agencies.................................   220
    Rents for Trust Fund Agencies (Social Security 
      Administration, Railroad Retirement Board, and Health Care 
      Financing Administration)..................................   253
    Requests for Advance Appropriations..........................   254
    Research Triangle Per Diem Rates.............................   232
    Ronald Reagan Building.......................................   322
    Ronald Reagan Building Security..............................   223
    Savannah, Georgia, Courthouse................................   258
    Seat Management..............................................   271
    Summary Statement of Mr. Barram..............................   174
    Teleworking..................................................   214
    The State and Local Law Enforcement Equipment Program........   334
    U.S. General Services Administration.........................   173
    Vacant Buildings.............................................   300

Judicial Conference of the United States.........................   545
    Conclusion...................................................   570
    Courtroom Sharing............................................   566
    Direct Submission of Courthouse Budget.......................   565
    Impact of a Funding Delay....................................   564
    Long Range Planning..........................................   569
    Need for Direct Submission...................................   568
    Opening Statement............................................   545
    Prepared Statement of Judge Jane R. Roth.....................   549
    Questions Submitted by the Appropriations Committee..........   571
    Questions Submitted by Representative Carrie Meek............   578
    Role of Authorizing Committee................................   568
    Savannah Courthouse..........................................   569
    Status of Projects...........................................   564

National Archives and Records Administration
    Archives II Space............................................   617
    Charters of Freedom Encasements..............................   609
    Charters of Freedom Encasements Diagram......................   611
    Closing Remarks--Mr. Hoyer...................................   619
    Closing Remarks--Mr. Kolbe...................................   619
    Introduction.................................................   585
    National Archives and Records Administration Budget 
      Justifications.............................................   652
    National Historical Publications and Records Commission......   605
    Nazi War Crimes Act..........................................   615
    Prepared Statement of the Archivist of the United States.....   588
    Questions Submitted for the Record by the Committee..........   620
    Questions Submitted for the Record by the Congressman Forbes.   638
    Questions Submitted for the Record by the Congresswoman Meek.   644
    Records Classification/Declassification......................   613
    Reimbursable Records Center Revolving Fund...................   605
    Renovation of Archives I.....................................   603
    St. Louis Records Center Business Process Reengineering 
      Project....................................................   615
    Y2K Compliance...............................................   603
    1930 Census..................................................   618

                                <greek-d>
</pre></body></html>
